<html>
<title> - MILITARY CONSTRUCTION APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
       MILITARY CONSTRUCTION APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                        TUESDAY, MARCH 18, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:02 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Kay Bailey Hutchison (chairman) 
presiding.
    Present: Senators Hutchison, Stevens, Burns, and Feinstein.

                       NONDEPARTMENTAL WITNESSES

STATEMENT OF JAMES C. BRYAN, CHAIRMAN, CHARLESTON NAVAL 
            COMPLEX REDEVELOPMENT AUTHORITY

           OPENING STATEMENT OF SENATOR KAY BAILEY HUTCHISON

    Senator Hutchison. I am going to go ahead and call the 
meeting to order even though our first witness is not here. I 
want to go expeditiously forward, so what I think I will do is 
go straight to the third panel of community witnesses. Since 
only two of the three second panel members are here, I would 
like to just go ahead and ask our third panel to come forward, 
and I will make my opening statement as you are coming forward. 
That would be: Paul Roberson, who I see; James Bryan from 
Charleston, South Carolina; and Robert Leonard from Sacramento, 
California; and of course, retired Air Force Brigadier General 
Paul Roberson of San Antonio.
    Good morning. I would like to call to order this hearing of 
the Subcommittee on Military Construction Appropriations. 
Today's hearing will examine the base realignment that resulted 
in nearly 400 base closures or realignments. Congress has 
authorized another round to begin in 2005.
    BRAC has a worthy goal, to reduce the cost to the taxpayer 
of maintaining infrastructure that our military no longer 
needs. But achieving that goal is a complex and difficult 
challenge. Determining future requirements for military 
infrastructure is difficult at any time, but this is 
particularly so today. New threats to our country have emerged. 
Our military forces are undergoing an organizational and 
technological transformation. Political relationships with some 
of our traditional allies are changing while potential new 
allies are emerging.
    All of these factors have implications for the size of our 
military force and where we put it. Making sensible decisions 
about closing military facilities in the midst of this 
uncertainty will be difficult, and I am concerned about our 
ability to do it right.
    Because of training constraints and changed geographic 
priorities, it is possible that some of the forces we have 
based overseas now could move home. It does not make sense to 
close facilities in the United States if we are likely to have 
to recreate them in a few years at a great expense.
    BRAC also can be a wrenching process for local communities 
that host military installations. Base closures can have 
devastating effects on local economies. In some cases it can be 
really devastating; In other cases, communities have recovered 
well from the closures. The GAO noted in a report last year 
that as of October 2001, 130,000 jobs at major installations 
had been lost to BRAC, only 79,000 had been recreated. Whatever 
the economic effect is, the process is disruptive.
    We have three panels today to help us understand this 
issue. The panel with which we will start is made up of people 
who have had real life experience in the communities, taking a 
closed base and turning it into something productive.
    So with that, I want to ask my Ranking Member and friend 
Senator Feinstein for her remarks, and then we would like to 
hear from you.

                 STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. Thanks very much, Madam Chairman, and 
thank you for holding this hearing. Thank you, gentlemen, for 
being here today. I would like to put my full statement in the 
record, but I would like to make just a few comments.
    On the assumption that we are going to have another BRAC 
round in 2005, it is my hope that we, just as the chairman has 
said, can avoid some of the pitfalls we experienced in the 
past. So I hope that what this hearing accomplishes is the 
elucidation of ways that we can minimize the economic upheaval 
for local communities and maximize our efforts to expedite the 
transfer of closed installations to local communities.
    Now, the GAO calculates that the Defense Department has 
already spent over $7 billion on BRAC environmental cleanup and 
will have to spend another $3.5 billion to complete these 
cleanups. McClellan--and I want to welcome Mr. Leonard--is a 
case in point in California. Primarily because of delays due to 
environmental cleanup, the Defense Department has yet to 
transfer half of the total amount of excess base property. Half 
of the total amount of excess base property has not been 
transferred because of the need for environmental cleanup.
    So cleanup from prior base closures is a very high priority 
issue, as you know, for me, and I think it has got to become a 
priority in evaluating the costs and reuse potential of future 
closures.
    Now, Madam Chairman, one of the things that is happening--
and this is a small diversion, but I think it is appropriate--
in your State, in my State, and in 20 other States is the 
permeation of a chemical ingredient which was the primary 
ingredient in rocket propellants in munitions and explosives 
called perchlorate. Perchlorate has contaminated water supplies 
in 22 States from California and Colorado to Massachusetts and 
Maryland. It can impair thyroid function and may well affect 
the physical and mental development of children.
    The situation is particularly serious, gentlemen, in 
California. State health officials so far have detected the 
presence of perchlorate in 292 groundwater wells operated by 80 
different water agencies. The problem is most severe in 
southern California, where 267 of the contaminated wells are 
located.
    I have expressed my concerns in November of last year with 
letters to Secretary Rumsfeld and Administrator Whitman, 
Secretary Rumsfeld because the primary contractor and the 
primary user was the Defense Department and is the Defense 
Department. The Defense Department renounces any responsibility 
and I gather is going to renounce any liability, and I 
profoundly disagree.
    I would like to introduce into the record three letters 
that I have sent. Another one is on the way that Senator Reid 
of Nevada and I will send to the Secretary, outlining the 
history of the facility at Henderson, Nevada, which was 
actually begun by the Department of Defense and then contracted 
to Kerr McGee, and what that perchlorate infusion from that 
facility has done in the State of California.
    [The information follows:]
                                               U.S. Senate,
                                 Washington, DC, November 27, 2002.
Hon. Secretary of Defense,
Department of Defense, Pentagon, Washington, DC 20301.
    Dear Secretary Rumsfeld: I am writing to bring your attention to 
the growing problem of perchlorate contamination in Southern 
California's groundwater supplies and to request that the Department of 
Defense provide clean-up funding through the Formerly Used Defense 
Sites program to eligible communities as soon as possible.
    According to a recent report by the California Department of Health 
Services, perchlorate has been detected in 284 groundwater wells 
operated by 75 different water agencies throughout the State. 
Collectively these agencies serve 24.8 million people, representing 71 
percent of the State's population. The problem is most severe in 
Southern California, where 267 of the contaminated wells are located.
    The growing number of perchlorate contaminated wells is all the 
more alarming in the context of California's efforts to reduce its 
consumption of Colorado River water under the terms of the 
Quantification Settlement Agreement. While California water districts 
are working diligently to devise strategies to reduce the State's need 
for imported water, perchlorate contamination is threatening the native 
water supplies these agencies are relying upon to meet local needs. The 
Metropolitan Water District of Southern California estimates that in 
its service area alone, lost well production due to Perchlorate 
contamination could reach 57,000 acre feet annually.
    The problem is particularly acute in the Inland Empire, where a 
seven mile long plume was discovered earlier this year in an area 
formerly occupied by the Army and several defense contractors involved 
in munitions manufacturing and storage, The plume, which is moving 2 to 
3 inches per day, has contaminated 22 drinking water wells in western 
San Bernardino County, jeopardizing water supplies for approximately 
500,000 local residents and businesses. Replacement water is generally 
unavailable due to lack of infrastructure and up to eight times more 
expensive than groundwater in the limited cases where it can be 
imported. Local officials have informed my staff that the problem is so 
severe that without Federal assistance, the region faces a very real 
possibility of water rationing or of having to supply customers with 
bottled water.
    Because many of the contaminated sites in Southern California 
involve former defense facilities, the Department of Defense bears a 
special responsibility to help remedy the situation. I would appreciate 
hearing from you whether you intend to make FUDS funding available to 
assist in the clean-up of perchlorate contaminated wells in Southern 
California.
    Thank you for you very much for your immediate attention to this 
important matter.
            Sincerely,
                                          Dianne Feinstein,
                                                      U.S. Senator.
                                 ______
                                 
                                               U.S. Senate,
                                   Washington, DC, January 7, 2003.
Ms. Christine Todd Whitman,
Administrator, U.S. Environmental Protection Agency, Ariel Rios 
        Building, Washington, DC 20460.
    Dear Administrator Whitman: Thank you for your prompt response to 
my letter of November 27, asking for the assistance of the 
Environmental Protection Agency (EPA) in cleaning up perchlorate 
contamination in California's water supply. While I appreciate the 
steps that your agency has taken on this issue to date, I request that 
the EPA accelerate clean up efforts to reduce perchlorate contamination 
in local groundwater supplies and in Colorado River water.
    I want to stress the enormity of this issue and its importance to 
California. Perchlorate has already contaminated water supplies in more 
than 22 States, including California, where State health officials 
recently reported 294 groundwater wells have been impacted. 
Additionally, perchlorate has seeped into the Colorado River, which 
provides the drinking water for nearly 20 million people in Southern 
California, Nevada and Arizona.
    It is currently estimated that 450 pounds of perchlorate leech into 
the groundwater near Henderson, Nevada each day, and that water then 
enters Lake Mead and the Colorado River via the Las Vegas Wash. The 
impact of this contamination is particularly devastating to 
California's water supply.
    To address this issue, I convened a roundtable meeting on 
perchlorate contamination at the Metropolitan Water District 
headquarters on December 19, 2002. At that meeting, I was briefed on 
the scope and severity of the contamination from local, State, and 
Federal officials including Keith Takata, Superfund Division Director 
from U.S. EPA Region IX.
    In my view, further efforts are needed to clean up perchlorate 
contamination as quickly as possible to protect the 20 million water 
users in Southern California and elsewhere who depend on the Colorado 
River for their drinking water.
    To help accelerate clean up efforts, I urge the EPA to take the 
following actions:
    Set a Federal drinking water standard for perchlorate as soon as 
possible.--While I understand EPA is currently evaluating whether to 
establish a drinking water standard, existing scientific research 
already strongly suggests that perchlorate can pose serious health 
risks, especially to pregnant women and children. Federal regulation is 
clearly warranted, and promulgation of national standards should help 
accelerate clean-up efforts.
    Provide clearer guidance on goals for cleanup.--Nevada Division of 
Environmental Protection currently requires a cleanup goal of 18 ppb 
based on a memorandum from the U.S. EPA's Office of Research and 
Development (ORD) to Regional Administrators dated June 18, 1999. U.S. 
EPA's more recent risk assessment recommended a reference dose 
equivalent to a drinking water concentration of 1 part per billion 
(ppb). California's Office of Environmental Health Hazard Assessment 
revised the draft public health goal to a range of 2 to 6 ppb. Based on 
these recommendations, ORD should revise its interim guidelines and 
establish an appropriate standard goal more closely meeting the range 
adopted by California. Nevada and other States should be directed to 
immediately use the lower number adopted by California and other 
States.
    Closely oversee clean up efforts in Henderson, Nevada.--U.S. EPA 
Region IX should ensure that all practicable steps are taken by Nevada 
Division of Environmental Protection to reduce the perchlorate load in 
Colorado River water supplies by intercepting the ground water as close 
to the Las Vegas Wash as possible and intercepting perchlorate 
contamination immediately adjacent to the La Vegas Wash.
    Thank you very much for you consideration of this request. I 
appreciate your attention to this issue and hope that EPA will continue 
to work to reduce perchlorate contamination in the water supply.
            Sincerely yours,
                                          Dianne Feinstein,
                                                      U.S. Senator.

    Senator Feinstein. Now, I believe that the Defense 
Department is directly or indirectly responsible for the bulk 
of perchlorate contamination, and unless the Federal Government 
takes positive action we will be sticking many small 
communities with a huge problem they did not create. Frankly, 
this is not acceptable.
    Madam Chairman, in your State a congressionally-mandated 
study is underway to assess perchlorate contamination in the 
Boss and Leon River watersheds from the Naval Weapons 
Industrial Reserve Plant in Madrid. Nine western Texas counties 
where the Department has tested rockets have recently found 
perchlorate contamination in their groundwater. I have gotten 
nothing but the most perfunctory responses. It's just not 
acceptable.
    The Department has a responsibility and I believe you have 
a liability. So I do not intend to drop this subject. I intend 
to do everything I can in various bills to see that the Defense 
Department begins to deal with the problem that all of the 
evidence points has been created by that Department.
    So I thank you, Madam Chairman.
    Senator Hutchison. Thank you, Senator Feinstein.
    With that, let me call first on Mr. James Bryan, the 
chairman of the Charleston Naval Complex Development Authority.
    Mr. Bryan. Thank you, Madam Chairman, Senator Feinstein.
    In April 1996, the Charleston Naval Base received its 
honorable discharge.
    Senator Hutchison. Let me just ask each of you if you would 
limit your remarks to maybe 4 minutes and then just summarize 
what you have and then we would like to ask some questions.
    Mr. Bryan. Okay, I will start again. In April of 1996, our 
naval base received its honorable discharge and embarked on a 
whole new life appropriate to the 21st century. As the 
organization charged with guiding the base in its new life, we 
recognized that our first and most important task was the 
creation of jobs. Today the facilities abandoned by the 
military are being reborn as viable economic assets. New jobs 
by the thousand are replacing those lost when the base was 
closed and the property is again becoming a resource for the 
benefit and enjoyment of South Carolina citizens.
    Back in 1993 when base closure was announced, everyone was 
pronouncing doom and gloom for Charleston. Now I can say we are 
a success story because of the Government was not heavy-handed 
with its disposal procedure. We benefited from the cooperation 
of the U.S. Navy OEA and the fact that everything flowed 
through a no-cost economic development conveyance to the 
Charleston Naval Complex Redevelopment Authority.
    There was no map to point the way to success. If property 
had been disposed of through a public sale or, worse, land 
banking, I am convinced that I would not be here today speaking 
of our successes. Thanks to the cooperation and assistance from 
Federal and State officials, I can currently report that we 
host 74 commercial and 10 Federal tenants at the naval complex.
    The important thing is that they make up our naval complex 
family and contribute to the employment of 5,400 workers, a 
$265 million annual payroll. Overall they pay more than $141 
million that has been spent on renovations, infrastructure, and 
improvements, and unemployment in the immediate three-county 
area is actually lower than it was in 1993.
    What I would like to do is just hit on some things that I 
think worked for the reconversion of this type property, 
starting with the no-cost economic development conveyance. We 
are a success story because the Government was not heavy-handed 
in its disposal procedure. We benefited from the cooperation of 
the U.S. Navy OEA and the fact that everything flowed through a 
no-cost economic development conveyance.
    The no-cost economic development conveyance allowed us to 
address the deteriorated utilities and infrastructure without 
the additional burden of paying for the property that had been 
donated 100 years before. Even with agreed-upon zoning in 
place, a public sale to the highest offeror we believe is a 
recipe for disaster.
    Interim leasing: To my knowledge, we have the only shipyard 
in America that has been successfully converted from public to 
private use.
    Supplemental funding: Like many other State boards and 
agencies, our LRA was given no funding appropriation through 
the State Government. Thankfully, OEA funding was available 
initially to support the LRA office activities, and separate 
State legislation provided some additional funds through fees 
collected in the Charleston County area.
    Federal grant assistance: Charleston has been successful in 
securing approximately $38 million in grant funding from the 
U.S. Economic Development Administration.
    The lease evaluation criteria and process: As a State 
agency, Charleston Naval Complex Redevelopment Authority was 
required to establish a tenant selection and approval process. 
Rather than going with the highest amount of rent offered, this 
process allowed our LRA to consider the number, quality, and 
type of jobs created.
    Community effort: After the closure announced in 1993, 
rather than engaging in a prolonged fight against the decision, 
the citizens of Charleston took action and formed a regional 
development alliance to attract business and industry to the 
entire area.
    I think, to touch on a few things that I think does not 
work under these scenarios: fighting the closure decision. 
Don't waste time, money, manpower trying to reverse the 
decision to close the facility. Rather, spend time and efforts 
on recovery.
    I think a thing that does not work is allowing the Navy to 
retain the lease income. The newly-formed organization needs 
the moneys from the lease of these properties to operate and 
improve the infrastructure.
    Another slight hurdle was the Navy's standard lease of 5 
years does not work for someone that is willing to invest 
millions of dollars in a shipyard. So we were able to obtain 
some long-term leases along the way, 30-year leases I think, 
that helped with our success.
    The McKinney Act was a tough one to deal with. Because of 
the type property that we have, I think every nonprofit 
organization that may touch the McKinney Act in one way or 
another, we have to deal with them before you can move ahead 
with the process of development or redevelopment.

                           prepared statement

    The restoration advisory boards: We think that the LRA 
should be the one, the voice of the community. The LRA should 
be comprised of members of the community and the groups, not 
being fragmented and trying to protect turf. We feel like that 
was something that needs to be looked at in the future.
    To save time, I will be willing to answer any questions 
now.
    [The statement follows:]

                  Prepared Statement of James C. Bryan

                              introduction
    For more than a hundred years, the North Charleston waterfront 
property known today as ``the Navy Base'' has played a defining role in 
our community. Through the 1800s it was the location of Chicora Park, 
an idyllic setting where the ladies and gentlemen of Charleston would 
arrive by trolley to picnic by the Cooper River. As the century turned, 
the property's character changed, and its importance was magnified many 
fold.
    On August 12, 1901, the land was sold to the U.S. Government for 
the construction of a Navy yard. The property soon became a strategic 
keystone, and its docks the site of many an emotional farewell as young 
sailors went to sea to protect and defend the American way of life.
    In April of 1998, the Navy Base received its honorable discharge 
and embarked on a whole new life appropriate to the 2lst Century. As 
the organization charged with guiding the base into its new life, we 
recognized that our first and most important task was the creation of 
jobs. Today, facilities abandoned by the military are being reborn as 
vital, thriving economic assets. New jobs--by the thousands--are 
replacing those lost when the base was closed and the property is again 
becoming a resource for the benefit and enjoyment of South Carolina's 
citizens. Back in 1993 when base closure was announced, everyone was 
pronouncing doom and gloom for Charleston. Now I can say what many 
others are saying: closure of the Charleston Naval Complex will prove, 
in the long run, to be a good thing for our community. We are a success 
story because the government was not heavy-handed with its disposal 
procedure. We benefited from cooperation with the U.S. Navy, the OEA, 
and the fact that everything flowed through a no-cost Economic 
Development Conveyance to the Charleston Naval Complex Redevelopment 
Authority. There was no map to point the way to success, but we moved 
ahead. Senator Fritz Hollings has been a true champion of the project, 
helping to secure funding when it was most necessary. If this property 
had been disposed of through a public sale or worse, land-banking, I am 
convinced that I would not be here reporting on our success.
    Thanks to cooperation and assistance from Federal and State 
officials, I can report that we currently host 74 commercial and 10 
Federal tenants at the naval complex. The important thing is that they 
all make up our naval complex family and contribute to the employment 
of 5,400 workers with a $265 million annual payroll. Overall today, 
more than $141 million has gone into renovations and infrastructure 
improvements and unemployment in the immediate three-county area is 
actually lower than it was in 1993. Hopefully, you all have a copy of 
our annual report that was produced last year. It contains all of the 
statistics and some great success stories about our tenants. There are 
many great stories to tell. Earlier this year, landmark legislation was 
passed that opened the door for the much needed State Ports Authority 
expansion at the naval complex. The RDA was directed by State law to 
turn over the leased shipyard and residential areas to the City of 
North Charleston and later transfer the southern end of the naval 
complex to the State Ports Authority for its expansion. With the 
continued cooperation and support from local governments and citizens, 
we believe that this magnificent property will serve as an economic 
engine for our State for many decades to come.
                        what made us successful
    No-Cost Economic Development.--We are a success story because the 
government was not heavy-handed with its disposal procedure. We 
benefited from cooperation with the U.S. Navy, the OEA, and the fact 
that everything flowed through a no-cost Economic Development 
Conveyance to the Charleston Naval Complex Redevelopment Authority. The 
no-cost economic development conveyance allowed us to address the 
deteriorated utilities and infrastructure without the additional burden 
of paying for property that had been donated 100 years before. Even 
with agreed-upon zoning in place, a public sale to the highest offeror, 
we believe, is a recipe for disaster.
    Interim Leasing.--To my knowledge, we have the only shipyard in 
America that has been successfully converted from public to private 
use. By ``playing the hand we were dealt'' and using the interim-
leasing option, we had an up and running shipyard 6 months prior to 
official closure of the base. Revenues from these leases allowed our 
LRA to gradually assume all of the Navy's operations and maintenance of 
the Base.
    Supplemental Funding.--Like many other State boards and agencies, 
our LRA was given no funding appropriation through State government. 
Thankfully, OEA funding was available initially to support LRA office 
activities and separate State legislation provided some additional 
funds through fees collected in Charleston County, but OEA funds 
eventually expired. While leasing income helped, it could not solely 
support operations and maintenance of the Base. Our LRA was successful 
in approaching the State legislature for funding under S.C.'s Rural 
Development Act, which provided us with the State's withholding tax for 
each Federal activity payroll on the Base. This funding source expires 
in 2012, but provides around $2 million annually.
    Federal Grant Assistance.--Charleston has been successful in 
securing approximately $38 million in grant funding from the U.S. 
Economic Development Administration. This funding has allowed and will 
allow our LRA to improve the dilapidated water, sewer and storm water 
systems left behind by the Navy.
    Lease Evalutation Criteria and Process.--As a State agency, the 
Charleston Naval Complex RDA was required to establish a tenant 
selection and approval process. Rather than going with the highest 
amount of rent offered, this process allowed our LRA to consider the 
number, quality and type of jobs created, proposed use of the property, 
capital investment, and the financial strength of the proposal among 
other items. This legal process has served us well.
    Community Effort.--After the closure announcement in 1993, rather 
than engaging in a prolonged fight against the decision, the citizens 
of Charleston took action and formed the Regional Development Alliance 
to attract business and industry to the entire area.
    Create A Stewardship of the Entrusted Property.--Select capable 
people, with no personal agendas, to serve on redevelopment boards and 
authorities. Restrict public officials from serving. In every decision, 
the overall benefit to the property and the LRA must take priority over 
the desires and mandates of any particular voting precinct or political 
subdivision.
    Staff.--Base Realignment and Closure is essentially real estate 
development with a healthy helping of politics and diplomacy. Hire an 
LRA staff with a strong background in real estate and supplement it 
with some congressional staff experience. An LRA staff member fluent in 
envirospeak should participate in environmental decision-making and 
attend every environmental clean-up team meeting.
                           what doesn't work
    Fighting the Closure Decision.--Don't waste time, money and 
manpower trying to reverse the decision to close facility. Rather spend 
your efforts on recovery.
    Allowing the Navy to Retain Lease Income.--A newly formed LRA needs 
the income from interim leasing to survive. Formulas that siphon lease 
money from the LRAs are counterproductive.
    The Navy's Standard Lease.--The standard lease itself wasn't 
attractive to business and had to be renegotiated to allow some 
security for the commercial tenant. The term of the lease was entirely 
too short for substantial capital investment, and the Navy's retention 
of lease income would have been an impediment to the LRA's assumption 
of the operations and maintenance of the Base.
    The McKinney Act.--This legislation has been changed, but it should 
be eliminated and communities given the right to make decisions about 
the presence of homeless or charitable agencies. Although this is a 
noble cause, its goals may not be compatible with the highest and best 
use of the property.
    Resoration Advisory Boards.--The LRA should be the one voice of the 
community.
                         other important points
    From the beginning, Federal and commercial tenants have been able 
to operate and cooperate as neighbors at the naval complex. The 
location of the Border Patrol to the naval complex was a clear winner. 
The majority of the agency's $28 million annual budget is spent 
locally. Since 1996, the Border Patrol has trained more than 8,000 
agents at the academy.
    One of only 14 in the nation, the passport office on the naval 
complex occupies a completely renovated facility where about 160 
employees, almost all hired locally, process about 5,000 passport 
applications a day. This office alone represents an investment of $9 
million and the payroll pumps another $7 million per year into the 
local economy. The 65,000 square foot office complex also serves as a 
training facility. A 92,000 square foot State Dept. financial services 
building is now in the works. It will be the ``hub'' of the 
department's financial systems and will employ an additional 250 
workers bringing the State Dept. total to over 630 workers.
    Other Federal tenants include DFAS (Defense Finance and Accounting 
Service--426 employees); NOAA (National Oceanic & Atmospheric 
Administration--125 employees); SPAWAR Systems Center--135 employees; 
and the U.S. Coast Guard with 312 staff and crew members.
    Our first industrial tenant, Charleston Marine Manufacturing 
Company (CMMC) was in place literally within days. This company was 
formed out of two well-established Charleston companies, Detyens 
Shipyards and Metal Trades, Inc. CMMC officers signed a lease for one 
of the yard's largest facilities and, within a week, Detyens had 300 
employees working in ship repair in the giant No. 5 drydock. CMMC 
President, Dick Gregory states that ``the RDA did things that no one 
else had ever done. Companies had to prove viability and the condition 
was that the facilities had to be used.'' We all had the same 
objective: Put people back to work.
    Almost immediately after the recovery of the H. L Hunley submarine 
and its successful move to the unique freshwater tank in the Warren 
Lasch Conservation Lab at the Naval Complex, the Center became a major 
Charleston area tourist attraction. In just 3 months, the Center played 
host to some 26,000 visitors--a figure made all the more astounding by 
the fact that the visitors were only admitted on weekends. Many of the 
world's most renowned conservationists and archeologists attended a 
seminar held at the Center in 1999. Today, with a full-time staff of 
21, including 11 respected international scientists, work continues to 
attract attention from around the world.

    Senator Hutchison. Great. Thank you so much, Mr. Bryan.
    General Roberson, when the light is green that is 4 
minutes, and then when it turns red that is the end and if you 
could just summarize after that.
STATEMENT OF PAUL ROBERSON, FORMER EXECUTIVE DIRECTOR, 
            GREATER KELLY DEVELOPMENT AUTHORITY, SAN 
            ANTONIO, TEXAS
    General Roberson. Thank you very much, Senator Hutchison. I 
appreciate the opportunity to be here, and it is a particularly 
great opportunity just to get a chance to see you and talk with 
you. Senator Hutchison has been a great advocate for all of our 
issues in Texas.
    Kelly is a large part of my experience. Just for your 
background, it is a large maintenance depot, employed about 
19,000 people, closed in the 1995 BRAC. I would tell you that 
the Air Force did a great job in managing that closure, moving 
all those very critical missions and caring with a lot of 
compassion for the 19,000 people that were affected by that 
closure.
    But I would also tell you that redevelopment is hard work. 
For those of you who do not know, in 1995 I was two inches 
taller and had a full head of black curly hair. You can see 
what has happened to me in that time.
    But we have learned some lessons from the Kelly experience. 
I was intrigued when Senator Hutchison said that only half the 
property has been transferred. In all the BRAC closures, it is 
certainly clear to me that transfer of the property as soon as 
possible is in the interest of the DOD to get it off its rolls 
and in the interest of the community so that redevelopment can 
continue.
    We did an interesting thing at Kelly. We did a hot 
turnover, where even though they took 6 years to close the 
base, as they vacated specific premises we went ahead and had 
them turn it over. So we actually began redevelopment a year 
after the closure and it has been successful so far.
    I think one of the reasons for success is the no-cost EDC. 
That was very important to us and had a big impact on our long-
term business plan and it had a big impact on trying to 
negotiate loans for line of credits and capital projects from 
local banks. Not having that burden really helped us in those 
negotiations.
    Facilities are a major problem for every community and what 
we find is that most military installations, the facilities are 
not in very good condition. In fact, at Kelly we had 5 million 
square feet of facilities that we have got to demolish. They 
are just basically not commercially reusable, and that is a big 
financial burden. It would be very helpful if there were a 
supplement to the BRAC fund to assist with demolition of 
facilities that are clearly unusable.
    Utilities can be a nightmare, and I think that has been the 
case for most communities. They do not meet codes, there is no 
utility corridors, major upgrades are needed. Additionally, 
some special utilities that we had at Kelly like steam and 
compressed air were operated out of a central plant and that 
simply does not work when you have got individual tenants, 
maybe not all the facilities occupied. We are going to have to 
decommission that and set up individual systems in each 
facility. MILCON funds to address those kinds of issues would 
be very helpful.
    The environmental issues are probably the most contentious. 
I personally have come to believe that negotiating a turnover 
of the cleanup to communities with the funding to go with it 
may be the most appropriate action, that it allows them to set 
priorities and schedules.
    Access to capital is a major problem and it would be very 
helpful if DOD could or the Congress could implement a program 
like the small business loan program, where federally 
guaranteed loans could be available to communities to invest.
    I think one of the glaring errors of past BRAC rounds has 
been the lack of an inter-service approach to BRAC. I 
personally believe that an inter-service approach--that 
certainly is true I think in the area of maintenance depots, 
which all the services have--could allow significantly greater 
savings than we have realized so far.

                           prepared statement

    Finally, I would just like to say that I think there is an 
opportunity for partnerships in 2005. Unlike prior BRAC rounds, 
most communities and States recognize that DOD does have excess 
infrastructure and they recognize that we can be better off by 
partnering and cooperating and finding innovative ways to 
address those issues rather than going into a defensive crouch 
and trying to maintain the status quo.
    I would be more than happy to answer questions as we go 
forward. I almost made it, Senator.
    [The statement follows:]

                  Prepared Statement of Paul Roberson

    Good morning. My name is Paul Roberson--until recently, I was the 
Executive Director of the Greater Kelly Development Authority, the 
agency redeveloping Kelly AFB (1995 closure/realignment) in San 
Antonio, Texas. My BRAC experience includes involvement in the San 
Antonio Community's response to both the 93 and 95 BRAC rounds. The 
BRAC 95 Commission selected Kelly AFB for closure/realignment. Since 
1995, I have led the effort to redevelop Kelly. Additionally, through 
my association with the City of San Antonio and while serving on the 
Board of Directors of the National Association of Installation 
Developers, I have had extensive discussions with community leaders in 
other cities that have been faced with trying to mitigate the 
significant economic impact of base closure. I have also been active in 
assisting the State of Texas develop plans for the upcoming BRAC 2005. 
Thus, I have seen the BRAC process from several different perspectives, 
pre-BRAC and post-BRAC, public and private, local, State, and national.
    Because my direct experience with military base transformation is 
largely related to the realignment of Kelly Air Force Base, arguably 
the most complex BRAC action ever undertaken by the Department of 
Defense or any community, many of my observations will be based on that 
experience. However I will also offer more general observations, 
particularly as they relate to the State of Texas, before I conclude.
    For your background, Kelly was a large aircraft/aeronautical 
equipment maintenance Depot, with over 19,000 employees--mostly civil 
service, 62 percent of whom were Hispanic. As the largest employer in 
South Texas, Kelly had an enormous economic impact on the area. The 
conventional wisdom was that ``there's no way they'll ever close 
Kelly''. The reality was that the Air Force had excess capacity in its 
depot structure and the BRAC Commission closed two of their five 
depots.
    Since that fateful decision, the redevelopment of Kelly has been 
recognized by DOD and the private sector as one of the most successful 
military base transitions in the nation. In this regard, I would like 
to compliment the Air Force for the outstanding job they did in 
planning and executing the closure. The movement of a very complex and 
vital industrial mission was handled with minimal impact and with great 
care and compassion for the 12,000 people involved. This was not a 
trivial task. Perhaps, the factor that made this closure/realignment so 
successful was the spirit of cooperation and partnership exhibited by 
local leaders and Air Force officials. Within the constraints of law 
and mission essential interests, the Air Force made every effort to 
work with the Community to find solutions that supported the goals of 
redevelopment.
    And this leads to my first observation: Communities and the DOD can 
be much more successful if they approach the BRAC process, both pre- 
and post-BRAC in a spirit of partnership and cooperation. On the 
Community's part, local leaders must recognize that DOD does, in fact, 
have excess infrastructure and many installations are excessively 
expensive to operate. In fact, communities/States can and should 
cooperate with DOD in finding solutions to these issues. DOD, on its 
part, should approach the 2005 BRAC with the goal of finding ways to 
achieve reduction of infrastructure/costs and simultaneously 
acknowledging the impact to local communities and the lack of 
sufficient resources to repair neglected infrastructure. Kelly is an 
example of this partnership after a closure/realignment decision. A 
pro-active example of this cooperative spirit prior to a BRAC round is 
the Brooks City-Base project in San Antonio. Although Brooks was not 
selected by the BRAC commission for closure in 1995, San Antonio's 
leadership recognized that Brooks was very costly to operate (Brooks 
was on the DOD's 1995 list of bases recommended for closure). Together 
with the Air Force, the City developed a concept to transfer ownership 
and responsibility for the land and infrastructure to the City. The Air 
Force leases back space they need for their missions, but no longer 
have to bear the infrastructure costs associated with owning the 
property. The City is now able to lease space and develop land and 
facilities to their best use. This could well be a model for 
partnerships for some installations and communities with similar 
circumstances.
    At Kelly, we have learned that redeveloping a closed military base 
is really hard work--in fact, successfully transitioning an active 
military installation to a thriving industrial park may be one of the 
hardest jobs any community and its leadership can face. The most 
significant issues that made this so hard for Kelly--and my 
recommendations for your consideration for the 2005 BRAC--include the 
following:
    Transfer of Property.--The earliest possible transfer of property 
serves the interests of the Community and the Service. At Kelly, the 
Air Force decided to take the full 6 years authorized by law to close 
the base. This made sense because of the size and complexity of the 
industrial aircraft maintenance mission. At the time, the Community 
agreed with this decision and rationalized that this would give us more 
time to implement the Community's vision for redevelopment. 
Fortunately, we did not wait for the base to be formally closed to 
begin redevelopment. Rather, we initiated an innovative ``hot 
turnover'' process whereby the Air Force transferred by lease, 
buildings and land as they vacated premises. Thus, the redevelopment 
actually began within a year of the closure decision. This process 
worked well, and in effect we were receiving the property as rapidly as 
the Air Force could turn it over, even though the base did not formally 
close until 2001. As a general rule, turning over the property as soon 
as possible allows the community to get on with redevelopment and the 
Services to realize earlier infrastructure cost savings. Transfers 
should continue to be executed through the Local Redevelopment 
Authority as the primary representative of the community, unless there 
is an extraordinary, mutually agreeable reason to do it differently. As 
I said earlier, the property at Kelly was transferred by lease--in 
fact, no deeds will be transferred until environmental remediation 
actions are completed. Since some redevelopment ``deals'' go much more 
smoothly with deeds, this may delay redevelopment. I will address this 
issue in the section on Environmental.
    No cost EDC.--I cannot emphasize strongly enough how important the 
no-cost EDC was to the successful transition of Kelly. By getting title 
to the property at no cost, the community can concentrate its limited 
financial resources on preparing the site for redevelopment. No-cost 
conveyances generally are completed quickly, getting the cost of 
maintaining the base off of DOD's books. Prior to the no-cost EDC, it 
was not unusual for negotiations between the Service and the Community 
to drag on for years. This created a level of uncertainty that severely 
impacted redevelopment activities. The no-cost EDC also was a major 
factor in our successful negotiations with local banks for both line of 
credit and capital project loans. As a result, I strongly recommend 
continuation of the no-cost EDC, perhaps except where the value of the 
property is such that it is in the interest of the community, as well 
as the Service, to put the property up for sale.
    Facilities.--Of the approximate 14 million square feet of buildings 
on Kelly, about half are available for redevelopment. The remainder was 
either retained by the Air Force/DOD or is in such poor condition they 
are not suitable for commercial use and must be demolished. Because the 
Air Force did not originally recommend closing Kelly (it was 
recommended for downsizing in place), they did not anticipate, nor 
program funds to realign certain missions. Consequently, several Air 
Force/DOD missions have remained at Kelly in facilities that the 
redevelopment agency was required to lease back to the military. This 
accounts for approximately 2.4 million square feet. As you might 
expect, these are some of the most modern and commercially marketable 
facilities. The folks at KellyUSA jokingly state that they are looking 
forward to the 2005 BRAC to close the rest of Kelly. The Air Force does 
plan to construct new facilities to relocate these organizations to 
Lackland AFB (which is adjacent to Kelly). While the primary objective 
of this plan is to consolidate all Air Force organizations on Lackland, 
the benefit to the community will be that many commercially useable 
buildings will be available for redevelopment. In this regard, I 
recommend support of funding requests for new construction at Lackland 
that are part of the Air Force's fiscal year 2005 BRAC closure plan.
    Approximately 5 million square feet of the 14 million square feet 
of facilities at KellyUSA are in such condition they have absolutely no 
commercial reuse value. We have demolished 1 million square feet of 
buildings and an additional 4 million square feet remain to be 
demolished. This demolition must be complete to clear the way for 
construction of new facilities that meet commercial market place 
standards. The cost of this demolition is a significant burden on the 
redevelopment budget.
    Unfortunately, of the 6.6 million square feet of buildings that are 
available for reuse at Kelly, many require significant investment to 
make them commercially marketable. As a matter of fact, one of our 
large aviation tenants, Boeing, told me that the Air Force could do 
work in the facilities, but there was no way the Air Force would allow 
them to use the facilities to perform maintenance on Air Force aircraft 
In this case, we had to find $30 million in financing to upgrade the 
facilities and the ramp before the firm would agree to locate its 
repair function at Kelly.
    Facilities issues are complex (like most things in BRAC) and 
contentious. However, I recommend that at the minimum, the BRAC account 
should be supplemented to provide funding for demolition of clearly 
unusable buildings and retrofits of useable facilities to meet local 
safety and health requirements. Additionally, a ``pre-closure'' 
assessment by a certified property assessment team needs to be made of 
the total demolition requirements, including their cost, and, 
concurrently, an estimated cost to make the remaining, marketable 
facilities code compliant.
    Utilities.--One of the major issues that we faced at Kelly is that 
the centralized heating and cooling utilities were designed and 
constructed for operation across the entire base. For example, a single 
steam plant produced heat for a major portion of the buildings at 
Kelly. That concept worked well when the base was fully occupied by the 
Air Force. However, after the buildings were conveyed to GKDA, we did 
not have tenants in all of the buildings. There was simply no 
economically viable method to reduce the ``output'' of the system to 
that necessary to accommodate the needs of our tenants. Ultimately, the 
centralized systems will be abandoned in favor of new stand-alone 
components in individual buildings. MILCON funds should be made 
available for redesign and modification of such utility systems to make 
them more commercially viable.
    Records/Data.--Similar to the facility/demolition issue, a thorough 
pre-closure assessment of records, work orders, reports, maps, 
databases, warranties, maintenance logs, contracts, hardware and 
software products, utility bills, etc. would greatly benefit the 
community. In many cases there have been serious information gaps that 
create inefficiencies, unnecessary costs, and maintenance/construction 
problems. Full disclosure through accurate, field verified data on all 
facilities, utilities, contracts, and systems should be provided to the 
community upon announcement of closure/realignment.
    Personal Property.--Personal Property includes all the machinery, 
tools, furniture, fixtures, and other equipment on the base. In the 
case of Kelly, this personal property consisted of literally hundreds 
of thousands of different items ranging from major engine test cells to 
individual hand tools. No community would argue with the fact that the 
DOD Components that are being relocated must take with them the 
personal property that is required for successful mission 
accomplishment. However, under the BRAC law provisions governing use of 
personal property, any other military installation can come to the BRAC 
base and ``request'' that personal property in excess of the needs of 
the relocating unit be transferred to them. The current BRAC statute 
should be amended to narrow the current exemptions placed on personal 
property to give the community priority for personal property required 
for redevelopment second only to the needs of the relocating unit.
    Environmental.--In the case of Kelly, the environmental 
contamination of the facilities, land and groundwater was the result of 
many years of industrial uses that employed many toxic and hazardous 
materials such as solvents. Unfortunately, a significant volume of 
these contaminants ended up in the ground water below Kelly and has 
migrated for miles outside the fence underneath nearly 20,000 homes. 
The cleanup of this industrial waste has been the most contentious 
issue between citizens in the community and the Air Force. DOD, 
Congress and communities must continue to explore alternatives to the 
``traditional'' approach toward cleanup. In many cases, it may be more 
advantageous to both the Federal Government and the local communities 
to transfer funds required for cleanup to the community and allow the 
community leadership to deal with its citizens and restore the facility 
to whatever level required by the community. Such a transfer would also 
allow the Community to set the priorities and schedules for the cleanup 
and expedite the transfer of deeds.
    Access to Capital.--At Kelly, and at virtually all other BRAC 
sites, one of the major challenges, if not the major obstacle, to 
redevelopment is the ready availability of capital for investing in the 
construction of new buildings/utilities/streets, deferred maintenance 
and modernization of existing buildings or demolition of unusable 
facilities. I do not know of a single redevelopment authority that has 
not struggled with this issue. At Kelly, it is estimated that more than 
$300,000,000 in investments will be required to modernize the 
infrastructure to commercially equivalent standards. In San Antonio, or 
any other community, it simply is not realistic for the redevelopment 
authority to look to the local taxpayers to carry the total burden for 
an investment of this magnitude. However, there may well be ways that 
Congress and the Administration could help in this area. A program 
similar to the Small Business Loan program should be developed whereby 
a community could obtain low interest financing from commercial lending 
institutions, with a Federal guarantee that the loans would be repaid. 
Perhaps the Small Business Administration with very little additional 
administrative cost could administer this program. The ``risk'' to the 
Federal Government would be minimal but the benefits to communities 
adversely affected by BRAC would be tremendous.
    To summarize the Kelly experience, early transfer of the property; 
continuation of the no-cost EDC; access to funding for demolition/
upgrade of key facilities and utilities; community friendly rules on 
personal property; transfer of responsibility and funding for 
environmental cleanup; and access to low cost, federally guaranteed 
loans would significantly enhance the Community's ability to redevelop 
a closed/realigned base. I believe these lessons are applicable to any 
base selected for closure/realignment.
    Let me now transition to more general observations based on my 
discussions with communities around the country and especially my 
experience within the State of Texas.
    Role of States.--The role of State governments has varied around 
the country. Some States have played a much more active role than 
others. In Texas, the State did not take an active role in prior BRAC 
rounds. However, we anticipate the State will be very active in 
preparing for the 2005 BRAC, coordinating Communities' efforts and 
assisting Communities to work with the Military Departments in seeking 
ways to transform their installations into more cost effective 
operations. The point I would like to make is that, while the State of 
Texas wants to avoid closing bases, the attitude and approach is 
focused on partnering with DOD and finding ways to achieve mutual 
interests. This mindset is dramatically different than prior rounds 
when most States and Communities went into a defensive crouch and did 
not consider any alternative other than maintaining the status quo. 
Collectively, DOD, the Congress, and the States, need to figure out how 
to capitalize on this new attitude.
    Interservice Opportunities.--One of the most glaring errors of 
prior BRAC rounds was the absence of an Interservice or Cross-Service 
approach. Depot level maintenance is a classic example. All the 
services perform this function and therefore there are great 
opportunities to improve productivity and reduce costs by consolidating 
these Depots on an interservice basis. Numerous other functional areas 
would benefit from the same approach. I realize that this is hard, but, 
if done correctly, an interservice approach to BRAC 2005 may well be 
more productive than the actions taken in all of the prior BRACs 
combined.
    Pre-BRAC Assessments by Services.--In past BRAC rounds, there have 
been some serious mistakes. Within Texas the most glaring example was 
the closure of Reese AFB--a pilot training base. After Reese's closure 
it became painfully obvious that there was a shortage of pilot training 
capacity. While I am sure the Service and DOD were acting in good faith 
at the time, it is extremely important that the criteria used to 
determine which bases to close/realign are able to withstand close and 
aggressive scrutiny.
    Partnerships.--Let me reiterate one more time the theme that I 
emphasized at the beginning. There is a great opportunity for DOD/
States/Communities to partner and cooperate in seeking ways to 
transform military installations into more cost effective operations. 
In Texas, we are taking this approach. There clearly are going to be 
cases where an installation will be closed, but this should not destroy 
the partnership, rather, it opens up new opportunities for the 
Community and DOD to work together on ways to enhance the 
redevelopment.
    Models for Pro-Active Initiatives.--Before I complete my comments, 
I would like to briefly outline three different models that have been 
developed in San Antonio. These models represent approaches to helping 
DOD transform their infrastructure.
    KellyUSA.--Because of the unique facilities/runway at Kelly, we 
focused much of our marketing efforts to attract firms doing aircraft 
maintenance. Our successes include major maintenance operations by 
Boeing, Lockheed-Martin, and several other aerospace firms. In 
virtually all cases, these firms are doing depot maintenance under 
contract with DOD. Thus, Kelly has emerged as a private business park, 
with private business tenants performing depot level maintenance on 
military aircraft/equipment under contract with DOD. We understand the 
Air Force is very pleased with the significant cost savings over 
government depots. This is one model for bases selected for closure/
realignment: privatize the mission (where appropriate) and conduct the 
privatized mission in facilities transferred to the community. The 
Service divests itself of infrastructure and associated costs; the work 
is performed at a reduced cost; and the community gets a ``kick start'' 
toward redevelopment.
    Brooks City-Base.--Brooks has not been ``BRACed'', but San Antonio 
recognized that the base was expensive to operate. In partnership with 
the Air Force, the property and infrastructure have been transferred to 
the City, while the Air Force missions remained as tenants on City 
property. The City can now develop property not occupied by the Air 
Force for commercial purposes. While the Brooks City-Base is still in 
the early stages of development, the prospects are excellent. This 
model, or a variation of it, can be applied in a wide variety of 
situations.
    Fort Sam Houston.--This historic Army Post is using the legislation 
authorizing ``Enhanced Use Leasing'' and a partnership with a private 
developer to lease vacant facilities on the Post. If successful, this 
would be another important model to transform military installations.

    Senator Hutchison. You did make it, you did make it. And I 
certainly know of your efforts personally and I think you made 
the success by not fighting it, as you said, and hitting the 
ground running and being very creative.
    But the environmental issues, just as Senator Feinstein 
said, are still there at Kelly and that is something we must 
clear up in the next BRAC round.
    Mr. Robert Leonard from Sacramento, California.
STATEMENT OF ROBERT B. LEONARD, ASSISTANT DIRECTOR, 
            SACRAMENTO COUNTY AIRPORT SYSTEM
    Mr. Leonard. Good morning, Senator Hutchison, Senator 
Feinstein, Senator Stevens.
    Prior to assuming my current position as assistant director 
of the Sacramento County Airport System, I served as executive 
director of the Sacramento County Department of Military Base 
Conversion for 9 years. In that capacity, I led Sacramento 
County's efforts as the local redevelopment authority for 
Mather Air Force Base and McClellan Air Force Base.
    Sacramento has become one of the most experienced 
communities in the country with military base conversion as we 
have dealt with three base closures. Mather Air Force Base, 
Sacramento Army Depot, and McClellan Air Force Base have each 
closed under the then-current BRAC process. Sacramento had a 
base in the first round of BRAC, that was Mather in 1988 
announced closure, and in the last round of BRAC, 1995, with 
McClellan Air Force Base.
    We have had first-hand experience and been a direct 
participant in the evolution of the BRAC process. Although the 
BRAC process and the forms of assistance and resources that 
have been provided to base closure communities have 
significantly improved over time--and I might add the tools 
also made available to the military services working with 
communities in base closure--I along with many others believe 
there is room for much improvement.
    Some of the themes, the three themes that I want to touch 
upon, have been already briefly mentioned by Mr. Roberson: 
environmental remediation. As you are aware, the majority of 
BRAC sites have significant environmental remediation or 
cleanup needs that simply must be dealt with. LRAs, or local 
redevelopment authorities, must have certainty in site 
characterization, a remediation plan, and, most importantly, a 
remediation schedule and funding. These factors are most 
critical in the development of a realistic reuse plan and the 
attraction of private investment to support successful reuse 
and economic recovery.
    Six years ago the estimated cost to clean up McClellan was 
approximately $832 million and was projected to take 30 years. 
Today the cost is estimated to be $1.3 billion and is 
anticipated to continue far beyond 2033. Approximately $350 
million has been spent to this date.
    Although this is a long-term program, incremental progress 
on schedule is absolutely critical to support successful reuse. 
Over the past 2 years, Air Force appropriation requests for 
McClellan environmental programs have not been fully supported 
by the Department of Defense or Congress and as a result the 
cleanup schedule has been adversely affected. The achievement 
of critical incremental milestones in the remediation program 
has been delayed now 7 to 9 years and we see the impact of that 
compounding over time.
    Adequate resources must be made available on an ongoing 
basis and in turn appropriately administered to maintain the 
remediation schedules. The consequences of not doing so again 
have a compounding negative impact on the successful reuse of 
McClellan, Mather, and any other base reuse location.
    In the cases of both McClellan and Mather, there have been 
creative solutions to environmental remediation identified and 
pursued through the partnering of the county, the Air Force, 
and the environmental regulatory agencies which are a key 
player in this process also. It is not just the Department of 
Defense and the communities. These approaches have saved both 
time and money and we must continue to look for them as we deal 
with bases that are in the closing process and any future 
bases.
    Infrastructure and code compliance, the second key theme I 
would like to touch upon. As we learned early in the base reuse 
process of Mather and was reinforced with McClellan, successful 
transition of infrastructure ownership and its operation are 
critical to both the closure of the facility by the respective 
service and also successful reuse of the LRA. The hot turnover 
concept, as was previously mentioned, was also applied at 
McClellan. This was a process that saw the infrastructure 
transition years before the base closure, which allowed the 
services to focus resources, specifically the Air Force, in 
getting the base closed and allowed us to bring reuse 
activities into the base.
    No single element of infrastructure--water, sanitary sewer, 
electrical, natural gas systems, for example--can be 
overlooked. At essentially every closed military base that I am 
aware of, this basic infrastructure, which was never developed 
considering local, State codes, requires significant capital 
investment. The same also unfortunately applies to building 
codes.
    The last area I would like to touch upon is the Federal 
property transfer process. That process has improved 
dramatically over time with the introduction of the economic 
development conveyance and then in turn the no-cost EDC. These 
tools were applied at both Mather and McClellan.

                           PREPARED STATEMENT

    Although Sacramento County has no fears associated with 
future rounds of base closure--we do not have any more bases in 
our community--I would urge you to consider the no-cost EDC 
methodology for disposing of military property in the future.
    Thank you.
    [The statement follows:]

                Prepared Statement of Robert B. Leonard

    Good morning, Senator Hutchison, Senator Feinstein, and members of 
the Committee. My name is Rob Leonard. I am currently Assistant 
Director of the Sacramento County Airport System. The Sacramento County 
Airport System is comprised of Sacramento International Airport, Mather 
Airport, Sacramento Executive Airport, and Franklin Field. Prior to 
assuming this position I served as Executive Director of the Sacramento 
County Department of Military Base Conversion for 9 years. Sacramento 
County is the Local Redevelopment Authority for the former McClellan 
Air Force Base and Mather Air Force.
    Sacramento has become the most experienced community in the country 
with military base closure and conversion as we have dealt with three 
base closures. Mather Air Force Base, the Sacramento Army Depot, and 
McClellan Air Force Base have each been closed under the Base 
Realignment and Closure Act (BRAC) process. Sacramento had a base in 
the first ``round'' of BRAC (1988) and also the last (1995) round of 
BRAC. We have had first hand experience and have been a direct 
participant in the evolution of BRAC process. Although the BRAC process 
and the forms of assistance and resources provided to base closure 
communities has significantly improved over time, I along with many 
others, believe there was much room for improvement. My comments focus 
on three key areas:
Environmental Remediation
    As you are well aware, the majority of BRAC sites have significant, 
environmental remediation or clean-up needs that simply must be dealt 
with. Local Redevelopment Authorities must have certainty in the site 
characterization, a remediation plan, and most importantly the 
remediation schedule and funding. These factors are most critical in 
development of a realistic reuse plan and the attraction of private 
investment to support successful reuse and economic recovery.
    Six years ago the estimated cost to clean-up McClellan was 
approximately $832 million and was projected to take 30 years. Today, 
the cost is estimated to be $1.3 billion and is anticipated to continue 
far beyond 2033. Approximately $350 million has been spent to this 
date. Although this is a long-term program, incremental progress, on 
schedule, is critical to support successful reuse. Over the past 2 
years the Air Force appropriation requests for the McClellan 
environmental program have not been fully supported by the Department 
of Defense and Congress; and as a result, the clean-up schedule has 
been adversely affected. The achievement of critical milestones in the 
McClellan remediation program is now anticipated to be delayed by seven 
or more years.
    Adequate resources must be made available on an ongoing annual 
basis and, in turn, appropriately administered to maintain remediation 
schedules. The consequences of not doing so have a compounding negative 
impact on successful reuse of both McClellan and Mather, or any other 
base reuse location.
    In the cases of both McClellan and Mather there have been creative 
solutions to environmental remediation identified and pursued through 
the partnering of County, the Air Force, and the environmental 
regulatory community. These approaches have saved both time and money. 
We must continue to look for them and be open to them in the future.
Infrastructure and Code Compliance
    As we learned early in the reuse process at Mather and was 
reinforced at McClellan, successful transition of infrastructure 
ownership and its operation is essential to support both the closure of 
a base by the military and also early reuse success of the Local 
Redevelopment Authority. The ``Hot Turnover'' of McClellan 
infrastructure over 2 years prior to base closure is a model of success 
compared to multi-year piecemeal experience at Mather.
    No single element of infrastructure--water, sanitary sewer, 
electrical and natural gas distribution systems, and telephone for 
example, can be overlooked. At essentially every closed military base 
that I am aware of the basic infrastructure, which was never developed 
considering local or State code requirements or standards, requires 
significant capital investment. The same fact unfortunately applies to 
all buildings and structures. At McClellan the infrastructure and code 
compliance investment identified in the reuse plan is $283 million. The 
equivalent requirement at Mather is approximately $140 million. 
Sacramento County has benefited from Federal grants, primarily from the 
Department of Commerce Economic Development Administration, local and 
State investment, and also private sector investment but we still have 
a long way to go, over $330 million at the two former bases in 
Sacramento County. A Federal low-interest loan program, in addition to 
existing grant programs, may be appropriate to support both the 
improvement and operation of infrastructure in the critical early years 
of reuse following base closure.
Property Transfer
    The Federal ``process'' for disposal of surplus property at a 
closing military facility has substantially improved since the first 
round of BRAC. The introduction of the Economic Development Conveyance 
(EDC) followed by most recently the no cost EDC have made the Federal 
property disposal process much less painful for both the military 
service and the LRA. Although Sacramento County has no fears associated 
with a future round of base closures, I would urge you to consider the 
no cost EDC methodology for disposing of surplus military property in 
the future.

    Senator Hutchison. Thank you very much.
    Mr. DuBois, we went ahead and started and we will be 
through very shortly and call you.
    Mr. DuBois. No problem.
    Senator Hutchison. I know you had traffic problems.
    I would like to just ask all three of you briefly. I think 
from what you have said there are a couple of factors that keep 
recurring. One is the land transfer and second the 
environmental remediation. It has been said, by the Department 
of Defense, that one of the problems is that a community will 
not reach the decision about what it wants to do with the 
property early enough that they can do a swift transfer and the 
correct environmental remediation.
    All three of you I think said it was not a factor in your 
communities. But my question is how can we better help other 
communities who are going to face this not run into 
disagreements on land use that would cause them the delays that 
all of you have said would be devastating to your communities?
    General Roberson. Senator Hutchison, the afternoon--you may 
recall, in fact, you were at the mission when it made the 
decision in 1995. That afternoon, the Mayor of San Antonio at 
the time appointed a communitywide group of people to plan a 
vision for the redevelopment of Kelly that represented all the 
aspects of the community. They worked for several months and 
put together a vision for the redevelopment of Kelly and, 
amazingly enough, that vision is still, in broad outline, what 
we are still working on today, several years later.
    So I think the key to it is an early decision by the 
leadership of the community to get a broad involvement of the 
community and to try to hammer out a vision that everybody can 
buy into, and then use that as a blueprint for the future. If 
you do not do that, I think you can end up with the kind of 
debates and arguments that delay redevelopment over time.
    Senator Hutchison. Any other comments?
    Mr. Bryan. I think in our case under the hot turnover 
scenario as we have all mentioned, early on Governor Carroll 
Campbell sort of put together what we call the BEST Committee, 
B-E-S-T, Building Economic Solutions----
    Senator Feinstein. Pardon me, could you speak directly into 
the mike. It's hard to hear.
    Mr. Bryan. I am sorry, I am sorry.
    As I said, early on Governor Carroll Campbell put together 
a committee called the BEST Committee as a group of community 
leaders to look at this property and see what possibility it 
was best used for, and obviously after a year that plan was put 
together and it enabled us to have a hot transfer while they 
were still hammering out the cleanup, how that is going to 
occur, when it occurs.
    At this point I think we have some 350 acres out of 1,500 
that have been transferred and this process is still ongoing 
under the leasing scenario.
    Mr. Leonard. I would concur that I think the most important 
point is focused local leadership, and if you look at the 
successful case studies around the country where the local 
leadership has come together immediately following a closure 
announcement and, rather than turf wars erupting in disputes 
over who is in charge, bringing the local leadership together 
to focus in turn on a reuse plan and transition of the 
properties is absolutely critical.
    There are case studies in California where you can see both 
success and near-failure all because of the focus in 
leadership.
    Senator Hutchison. Thank you.
    My last question. I do want to get in the record the issue 
of the McKinney Act. We have faced it in BRACs, of course, but 
we are also facing it in ongoing bases that want to take out 
certain parts of a base or take out housing. So I want to ask 
each of you what your experience was with the McKinney Act and 
if you have any thoughts about eliminating it or if it could be 
reworked in any way that would not affect the ability for a 
reuse that would make sense so that it is all the same type of 
reuse.
    So anyone who would like to answer?
    General Roberson. Maybe I can start, Senator. While I am 
personally sympathetic with the goals of the McKinney Act, at 
Kelly it was a great disaster for us. We did make a significant 
amount of personal and real property available to legitimate 
homeless organizations and it worked out fine, but there was 
one group that turned out not to be a legitimate homeless 
organization that did not get property and, after going through 
the process, ended up taking us to Federal court, and that has 
lingered on for 5 years as a matter of fact and cost the 
redevelopment agency over a quarter of a million dollars in 
legal fees, and finally is almost resolved now in our favor. 
But it delayed the use of some property and obviously was a 
significant financial burden on the redevelopment agency.
    I guess I could get a little emotional about it because of 
the impact on us. But I don't see any solution but to eliminate 
the McKinney Act.
    Senator Hutchison. Mr. Leonard? Sorry.
    General Roberson. In our case, early on we brought the 
providers together to identify any of the local groups that may 
be part of the group that could utilize the McKinney Act and we 
dealt with this issue one time as we moved ahead. It was agreed 
upon, anyone that was not on this list would not qualify 3 
years down the road to come back in and try to secure a portion 
of our base.
    We successfully located some of the homeless providers and 
they are there now, but it has been an ongoing scenario of new 
folks coming in to say that they are entitled to this property 
and then we have to go back to the original scenario that we 
have, that we have dealt with at one time early on.
    Senator Hutchison. Did you give up buildings or did you 
give up land?
    Mr. Bryan. Buildings and housing.
    Senator Hutchison. So you did not have to give away land, 
or did they not move the houses?
    Mr. Bryan. No, the houses are still there and they are 
occupying the houses. There were so many of the buildings that 
they would like to have that they could not afford the 
utilities and the upkeep on them. So we had to keep juggling 
that around to giving them a supplement they could operate once 
they got there. But we did not lose any land.
    Senator Hutchison. Mr. Leonard.
    Mr. Leonard. Yes, two case studies. Mather, we as the LRA 
brought all the homeless providers together and identified a 
series of competing needs. We developed a program together and 
then in turn, through the county Department of Human Services, 
implemented that program with the county as lead agency, with 
also HUD support to make that program go, and it remains a 
success story to this date. So the county took property, real 
property, through a homeless assistance conveyance to make that 
program go.
    McClellan, a different story. We attempted the same 
approach. However, we had one provider within our community 
which did not cooperate within this process. They laid claim to 
some prime property on McClellan, validated their request, and 
secured Federal sponsorship, and we have in essence been in a 
multi-year experience of negotiating them away from that 
property to another site on the base, also providing them in 
essence a cash settlement to assist them in developing 
additional facilities and running programs on McClellan and 
also at another location.
    Although, as Mr. Roberson indicated, I too am sympathetic 
to the needs, I feel as though this is a real conflict and a 
significant complicating factor in the military base reuse 
process. So I would urge it be dispensed with.
    Senator Hutchison. Thank you.
    Senator Feinstein.
    Senator Feinstein. Thanks very much.
    I was puzzled by your testimony. You say: ``Over the past 2 
years the Air Force appropriation requests for the McClellan 
environmental program has not been fully supported by the 
Department of Defense and the Congress. As a result, the 
cleanup schedule has been adversely affected. The achievement 
of critical milestones in the remediation program is now 
anticipated to be delayed by 7 or more years.''
    This is because of lack of funding?
    Mr. Leonard. Yes, yes, because of lack of funding and also 
the application of funds that have been appropriated.
    Senator, we wanted to express our appreciation for your 
efforts over the last year in supporting our needs at 
McClellan.
    Senator Feinstein. I do not recall ever getting an 
additional request, ever having one being brought to my 
attention, and I am just asking my staff to go back and check 
now, but I do not recall it at this time. So how much money are 
you speaking of?
    Mr. Leonard. Specifically, there is a request that we are 
working on now for $20 million to support a sanitary sewer 
replacement and environmental remediation at McClellan. This is 
absolutely critical. We stand by with local funds to replace 
the sewer system. However, because of radioactive materials 
contaminating the sewer there is an additional requirement for 
Air Force address of that issue.
    Senator Feinstein. Is that the plutonium from the reactor?
    Mr. Leonard. No, that is a separate issue. We also had 
another site, referred to as CS-10, which has a $38 million 
cleanup requirement, and I believe that is being funded over a 
multi-year period. That is the plutonium site. The radiological 
issues associated with sanitary sewer represent a different 
issue for which funding is needed.
    Senator Feinstein. Well, I am concerned that you are this 
far behind. My question is what do you need this next year? You 
mentioned the $20 million for the sewer and I gather the 
community is putting in a like amount; is that correct?
    Mr. Leonard. That is correct.
    Mr. Bryan. How much do you need for the plutonium cleanup?
    Mr. Leonard. I would have to check to see what the 
additional number will be next year.
    Senator Feinstein. Well, if you would do that I would 
appreciate it. And I wish someone would talk to me directly 
about it. I would appreciate that very much as well.
    Mr. Leonard. Certainly.
    Senator Feinstein. May I ask you, Mr. Bryan, a question 
just to clear something up. What is the current relationship 
between the redevelopment authority and the State legislature? 
My understanding--I am unclear of how that status was resolved 
in Charleston.
    Mr. Bryan. I guess you are speaking of the recent 
legislation that the property would be divided between the City 
of North Charleston and the South Carolina State Ports 
Authority.
    Senator Feinstein. That is correct.
    Mr. Bryan. That legislation has been passed that a portion 
of the property would go to the City of North Charleston for a 
redevelopment project that is part of their old village, which 
is about 300 acres, 350 acres, and the rest of the 1,400 some 
acres would be the South Carolina Ports Authority to build 
their new terminal with some Federal tenants placed in those 
areas that they will have to work around.
    I have to tell you, I am concerned about the jobs that we 
have in there now with that type of scenario. But the 
legislation is passed; now it is my job to see that it goes 
smoothly towards dividing it.
    Senator Feinstein. Would you express your concerns a little 
more fully, please?
    Mr. Bryan. My concern is that the property on the naval 
base and the money spent belongs to the taxpayers of the State 
of South Carolina and that a portion of this property that 
would go to the City of North Charleston may wind up as a 
private development with private developers coming in. And when 
the legislation was passed, we did an agreement with the City 
of North Charleston on a development plan for that base that 
they would pay the redevelopment authority the market value of 
the property. When the legislation was passed, the legislation 
was passed that they get it free of charge and then they are 
able to sell it to their private developers. But the 
redevelopment authority has no relationship whatsoever to the 
developer. Ours is strictly with the city.
    Senator Feinstein. I missed that. The redevelopment agency 
has no relationship?
    Mr. Bryan. Has no relationship with the developer. Our 
relationship is strictly with the city of North Charleston. I 
have some concerns about the project, but if it does not go our 
relationship is with the city. We would have had to send a 
development of this magnitude out on an RFP.
    Senator Feinstein. So is what you are saying public land is 
being given to a private entity for a profitmaking purpose? Is 
that what you are saying?
    Mr. Bryan. What I am saying is it is being given to the 
City of North Charleston and the city is selling it to a 
private developer, yes, ma'am.
    Senator Feinstein. At market rate?
    Mr. Bryan. I hope so.
    Senator Feinstein. Thank you very much.
    Mr. Bryan. My main concern there was the jobs that are in 
place and the long-term effect of a private development 
collecting the rents and that sort of thing from these jobs and 
the long-term sustainability was my concern.
    Senator Feinstein. How many jobs are in place?
    Mr. Bryan. 5,400.
    Senator Feinstein. 5,400. So they would essentially be 
lost?
    Mr. Bryan. They have agreed to honor their term of lease. 
We do have some 30-year leases in place, but when you are 
operating a shipyard there is continual investment and I am not 
sure you continue to invest if you think you may be going away 
1 day. So I am concerned about that.
    Senator Feinstein. Let me ask you, are the people satisfied 
with that?
    Mr. Bryan. ``The people'' as?
    Senator Feinstein. In Charleston, the community.
    Mr. Bryan. I think the City of North Charleston, which the 
base is located in, is satisfied that they are getting some 
riverfront property and that sort of thing. I think the 
taxpayers as a whole for the Charleston region probably do not 
quite understand how that could happen.
    Senator Feinstein. So you are saying this would most likely 
end up being office commercial or housing and the shipyard jobs 
would be gone?
    Mr. Bryan. I surely hope not. It is a shipyard that has 700 
or 800 employees. It is just really doing a great job with 
keeping people employed and bringing ships in. As I said, it 
has been a very successful conversion and I hope that it 
continues to be a shipyard for many years.
    Senator Feinstein. Right.
    Mr. Bryan. At some point I feel that the local 
redevelopment authority would probably go away faster now in 
this scenario that the land is being divided. Once the land is 
divided and the land is in the ports authority area and the 
land is in the City of North Charleston and they start 
collecting the rents and dealing with the issues, then maybe at 
some point in that--I have devised a plan that maybe the local 
redevelopment authority will go out of existence maybe December 
31, 2004, if this plan continues in the way that it is going.
    Now, whether the City of North Charleston keeps their own 
LRA in place, I do not know. I know there has been some moves 
in the future from the city to ask the State legislature to do 
away with the redevelopment authority so that they can do their 
projects now as they would like, without stumbling blocks. That 
is really the way it is.
    Senator Feinstein. Right. Thank you. I have to think about 
this a little bit because I basically believe local 
decisionmaking should determine the use of these bases. It is 
an interesting decision for Charleston to make if they are 
going to lose all those jobs.
    Mr. Bryan. I think there was a real push to get the State 
ports authority in an area that they could have their new 
expansion. Daniel Island was a potential for years and the 
legislature has basically said you are not going there, but let 
us look at the Navy base. I think some concessions were made 
for the City of North Charleston because they had some 
ordinances in place that said there will be no port type 
activity in the City of North Charleston. So I think some 
concessions were made there, and hopefully in the long term it 
will turn out to be good.
    Senator Feinstein. Thank you. Thank you very much.
    Mr. Bryan. Yes, ma'am.
    Senator Feinstein. Thank you, Madam Chairman.
    Senator Hutchison. Thank all of you for coming here from 
your home towns to help us, because certainly this is a major 
part of any BRAC that we have and your insights have been very 
good and we will try to help other communities learn from your 
experiences. Thank you.
    General Roberson. Thank you.
    Mr. Bryan. Thank you very much.
                         DEPARTMENT OF DEFENSE

                        Office of the Secretary

STATEMENT OF RAYMOND F. DuBOIS, DEPUTY UNDER SECRETARY 
            OF DEFENSE FOR INSTALLATIONS AND 
            ENVIRONMENT
    Senator Hutchison. Now I would like to ask Mr. Ray DuBois, 
the Deputy Under Secretary of Defense for Installations and 
Environment.
    Mr. DuBois. Madam Chairwoman, can you hear me?
    Senator Hutchison. Yes, I can.
    Mr. DuBois. I want to thank you very much for rearranging 
the hearing today. To hear from folks like Paul Roberson and 
Jim Bryan and Bob Leonard is for me very informative. It is, 
after all, their experiences that have helped to inform the 
Base Realignment and Closure (BRAC) 2005 round and the process 
by which the Secretary is going to do the analysis.
    I would like to begin by saying that, notwithstanding the 
fact that I am in one of my other hats, the Director of 
Administration and Management, and therefore own the motor pool 
at the Pentagon, that still does not get me across the river on 
time sometimes. I understand there was an incident on the 
Memorial Bridge today that absolutely clogged all the arteries 
in.
    Senator Hutchison. Oh, that was why?
    Mr. DuBois. Yes, yes, ma'am.
    Now, today I am going to briefly open with a statement and, 
with your forbearance, submit for the record my written 
statement. But I thought it was important to just outline BRAC 
2005, the process, the overseas basing issues that are on the 
Secretary's desk, some reuse issues that in no small measure by 
virtue of the inputs from folks like those who were in the 
first panel, how we intend to relook at the reuse and disposal 
issues.
    BRAC environmental cleanup, of concern to this subcommittee 
and to you and Senator Feinstein, as well as to us. I did 
listen to the exchange on the McKinney Act and I might just 
make one quick comment about that, and I understand that 
Senator Feinstein made some remarks about the perchlorate issue 
that I am prepared to at least answer as I see the process 
going on in terms of looking at the reference dosage and risk 
assessments there.
    Of course, Secretary Rumsfeld appreciates the opportunity 
that you have afforded me and in turn myself as his 
representative to appear today before this Military 
Construction Subcommittee. The issues of base realignment and 
closure, both the process and product are clearly--and the 
Secretary has testified to this effect--not something that one 
wakes up in the morning and wants to do with great appreciation 
and alacrity.
    Having said that, there is no question that the critical 
importance of the rationalization of our entire military 
infrastructure for the Department is very, very important to 
him. Now, some have implied recently that the Secretary's 
attention has been somewhat diverted. I can assure you that it 
is not all Iraq all the time. There are issues pertaining to 
transformation of the Department that take up the Secretary's 
time during the day also.
    Now, BRAC--he personally has been involved in this BRAC 
kickoff, if you will, and I will address that in a moment. To 
reconfigure our current infrastructure, to include both the 
war-fighting capability and the efficiency of our business 
operations, is tantamount to success. Our expectation is by 
removing excess infrastructure, excess capacity if you will, we 
hope to save at least several billions of dollars per year. 
Now, if we were able to do that we could then focus those funds 
on facilities we actually need and turn wastes into war-
fighting, as well as quality of life improvements for the men 
and women who serve and voluntarily serve in our military.
    The Department will conduct this rationalization with an 
eye toward ensuring that we assess the capacity across 
installations maintained by the Military Services for the best 
joint use possible. This is in many ways a different approach 
than has been the case in the four prior rounds--best joint use 
possible.
    Now, we have examined carefully the experiences gained 
through the management of the previous BRAC rounds and, looking 
ahead to the next one, we have attempted to make a number of 
process improvements to enhance our ability to arrive at the 
right-sizing of our infrastructure, which will in turn 
complement and support the business transformation activities 
of the Department.
    Now, the Secretary released a memorandum, which I believe 
you have, in November of last year that, quote unquote, kicked 
off the Department's BRAC process. It created an analytical 
framework and a review and oversight process that we believe 
improves and strengthens those of previous BRAC rounds and 
which in point of fact takes into consideration several 
suggestions some Senators and Members of the House in our 
discussions over the past 2 years.
    Now, for example, early on in the process the Secretary 
will review and approve those functions within the Department 
that will receive what we call joint cross-Service analysis as 
well as establish the measurements of success, the metrics for 
that analysis. Now, while the Services, the individual military 
departments and Services, will evaluate their unique functions, 
their unique military operational functions, those functions 
which are determined to be common to more than one service, 
business-oriented, and in point of fact functions that exist in 
more than one service or reside in the private sector, they are 
going to be evaluated from the get-go in a joint cross-Service 
way. This is different from the prior rounds.
    We recently established six broad areas to examine 
functions for joint analysis. Now, you can imagine we could 
have used various terms, and I will answer questions as best I 
can on what these terms mean. But I think they are fairly self-
explanatory.
    The first category is what we call industrial activities, 
those activities that are again common to the Services across 
the board and also activities which the private sector 
performs, number one.
    Number two, supply and storage, warehousing and so forth.
    Number three, technical and laboratory.
    Number four, education and training facilities.
    Number five, medical facilities.
    And number six, a sort of catch-all category that we call 
administrative facilities. But in particular I should note that 
this last category, the administrative category, will address 
the national capital region, a region that, as we all know, has 
in excess of 100,000 military and civilian personnel in the 
employ of the Department of Defense, and every single military 
service as well as the Secretary of Defense owns or controls 
real estate in the national capital region and we believe that 
only through a joint cross-Service approach could we 
appropriately assess and rationalize that particular area.
    Now, overseas: In this subcommittee at my last appearance, 
we addressed some of the issues. But there is no question that 
our installations transformation is not limited to the United 
States and its territories. We are also assessing our 
facilities overseas to determine the proper size and mix. As 
you well know, since 1990, the Department has returned or 
reduced operations at about 1,000 overseas sites, resulting in 
a 60 percent reduction in our overseas infrastructure and in 
particular a 66 percent reduction in Europe.
    We continue to review the overseas basing requirements with 
the assistance of the combatant commanders and we are currently 
examining opportunities for both joint use of facilities and 
land by the four Services together, consolidation of the 
infrastructure, enhanced training areas--again a joint service 
assessment.
    Now, the Secretary, as you know, directed a comprehensive 
review of our overseas presence in response to the interest and 
the direction of some of the members of this subcommittee as 
well as others in Congress. It also reflected his vision, which 
was addressed in the Quadrennial Defense Review (QDR) of 
September 2001, to look at and comprehensively review that 
infrastructure that was in support of our war-fighting plans 
overseas.
    Now, it has been asked, why hasn't the Secretary responded 
to the requirement to submit to Congress a more complete report 
in this regard. We received from the combatant commanders their 
preliminary inputs last year. The Chairman of the Joint Chiefs 
of Staff, General Myers, requested that the Secretary delay his 
report to Congress in order to review those reports, those 
inputs, as well as the fact that we were about to appoint and 
announce two new combatant commanders, one in Korea, General 
Leon LaPorte, and the SACEUR or the European Commander, General 
Jim Jones, and the Secretary believed that it was important to 
get their initial views as well.
    I can assure the committee, the subcommittee, however, that 
the Secretary has in place a process which will address these 
overseas basing requirements, to include reprogramming for 
fiscal year 2003, as well as, where and when necessary, 
presenting a budget amendment to this committee in the Senate 
and your counterpart in the House, a possible budget amendment 
for fiscal year 2004, prior to your markup.
    With respect to reuse, you heard from the three witnesses 
in the prior panel that local communities, when faced with a 
closure, must address and grapple with a number of reuse and 
redevelopment issues. The closure of a military base can be a 
significant redevelopment challenge. After four rounds of BRAC, 
there have been numerous success stories and, admittedly, there 
have been some stories less than successful.
    Reusing a military base is frequently the largest and most 
complex economic redevelopment effort ever undertaken in that 
particular community. Local reuse authorities work to harness 
public and private sector resources to drive economic recovery 
and growth.
    Now, as of October 2002, the end of the last fiscal year, I 
asked for a review of how many civilian jobs were created on 
former military bases. It is in excess of 85,000, an 8 percent 
increase from the previous year.
    The timely transfer of property will always be a priority 
for the Department and I recognize the importance of quick 
access to the property in order to, yes, save DOD caretaker 
costs, but also to leverage private development financing, 
create new jobs, and generate new tax revenues.
    Each military department has an extensive and varied 
experience with BRAC reuse and disposal and I am sure you will 
address that to the witnesses who follow me. Now, in order to 
share those experiences and expertise and to ensure that the 
Department of Defense is conducting reuse and disposal in the 
most efficient and effective way possible, I have formed a 
working group called the Reuse and Disposal Group, chaired by 
my principal deputy, Mr. Philip Grone, former Deputy Staff 
Director of the House Armed Services Committee, to work with 
the Services and military departments and Members of Congress 
and interested parties in the local communities to improve how 
we go about BRAC reuse and disposal.
    I look forward to reviewing with the Congress, perhaps 
early next year, some of the ideas that we are coming up with.
    Now, in conclusion, we have tried to do much within the 
BRAC authority provided by the Congress. By consolidating and 
realigning and reducing unneeded infrastructure, the Department 
can indeed focus investments on maintaining and recapitalizing 
what we actually require, resulting in ready facilities for the 
war-fighters while more prudently using the taxpayers' money.
    Change is rarely easy. Changes that we are asking of the 
military departments and our communities are daunting. But we 
look forward to working with you on this challenge.
    Now, I did mention that I would quickly talk, if you would 
permit me, Madam Chairman, about BRAC cleanup, an issue that 
continues to, yes, in some ways vex myself and my three 
Assistant Service Secretary colleagues. But it is important to 
note that, with the help of the Congress, we have already spent 
in excess of $7.5 billion on BRAC environmental requirements, 
the majority of which of course has been devoted to BRAC 
cleanup.
    Now, it is true that there is still a cost to complete, not 
an insignificant one, one that is approximated in excess of $4 
billion to suffice the final cleanup requirements. But as I 
have testified before, oftentimes environmental impediments 
frustrate the community involved as well as the Department of 
Defense, and these environmental impediments are not 
necessarily driven by a statute, be it State or Federal. 
Oftentimes it is driven by conflicts between State and Federal 
regulators on the site and between local special interests who 
have varying degrees of desires with respect to cleanup 
remedies and land use controls most particularly.
    Now, we plan to reinvigorate, and it is in this year's 
defense authorization legislative proposal in front of you, in 
front of the authorizing committees, we plan to reinvigorate 
the President's Economic Adjustment Committee, which is an 
organization comprised of all 23 Federal agencies and 
departments, including the Environmental Protection Agency, to 
use together our respective and collective influence, power, 
and funding to attempt reconciliation at the local level and 
appropriate funding for environmental cleanup and land use 
planning.
    Lastly, the McKinney Act. The Department of Defense wants 
to go on record, I want to go on record, that we support the 
goals of the McKinney Act, but, like most other public policy 
statutes, sometimes they are difficult to administer, again 
because of local special interest conflicts, especially for us 
the quarterly requirements, the repetitive screening 
requirements.
    We believe that the McKinney Act as it applies to BRAC 
would be much more workable if it was a one-time screening 
requirement and once it has been concluded that the property is 
not suitable or there is no interest, the property should be 
free from further requirements. This constant rolling screening 
I think is an impediment to ultimate reuse.
    Now, the McKinney Act was originally designed as a property 
transfer mechanism. Many homeless assistance providers, 
however, expressed that they would rather have money than the 
property because they find that they cannot necessarily make 
use of the property that might be available to them in a BRAC 
situation. Now, of course the Defense Department is not 
authorized nor has Congress appropriated funding to us to 
satisfy what may very well be important and legitimate concerns 
on the part of the homeless organizations in that particular 
community, and therefore we get caught in this local conflict 
between jurisdictions and between interests.

                           prepared statement

    I think I will stop there. I do appreciate your forbearance 
in letting me address some of those issues that I understand 
came up in your opening statements. I do know that Senator 
Feinstein has some perchlorate concerns and rightly so, but I 
will wait until I get asked the question if that is all right 
with you.
    [The statement follows:]

                Prepared Statement of Raymond F. Dubois

    Chairwoman Hutchison, Senator Feinstein, and distinguished members 
of the Subcommittee on Military Construction, I welcome the opportunity 
to appear before you today to discuss the base realignment and closure 
(BRAC) process and the critical importance of the rationalization of 
military infrastructure to the Department of Defense. Rationalizing our 
infrastructure is an integral part of our effort to transform the 
Department. New force structures must be accompanied by a new base 
structure. Today I will discuss this Administration's approach to the 
new BRAC round and our progress in implementing the prior rounds.
                 transforming bases and infrastructure
    Since 1988, the Department of Defense has closed 97 major 
installations and realigned missions at an additional 55 others. 
Combined with the over 230 minor BRAC actions undertaken during the 
four previous rounds of BRAC, the Department of Defense has 
rationalized much of its infrastructure. Since the last round in 1995, 
three successive Secretaries have argued for the need to further 
rationalize defense infrastructure. In the National Defense 
Authorization Act for fiscal year 2002, Congress was persuaded by the 
case laid out by Secretary Rumsfeld and authorized an additional BRAC 
round for 2005. We are grateful to the Congress for authorizing this 
process. BRAC 2005 will reconfigure our current infrastructure to 
improve both war fighting capability and efficiency. Our expectation is 
that by removing additional excess capacity we hope to save several 
billion dollars annually. We can then focus the funds on facilities we 
actually need and turn waste into warfighting as well as [and] quality-
of-life improvements for the men and women who volunteer in service to 
the Nation.
    Prior BRAC actions have resulted in net savings to the Department 
of Defense and its Components of approximately $17 billion, with annual 
recurring savings of approximately $7 billion. These savings have been 
thoroughly validated by the General Accounting Office. However, 
savings, while critically important, are not the only benefit--in fact, 
they are not even the primary benefit. The authority to realign and 
close bases we no longer need will be a critical element of ensuring 
the right mix of bases and forces within our warfighting strategy as we 
transform the Department to meet the security challenges of the 21st 
century.
    Transformation requires rationalizing our base structure to better 
match the force structure for the new ways of doing business. And the 
Department will conduct this rationalization with an eye toward 
ensuring we assess capacity across the installations maintained by the 
military services for the best joint use possible, if that is 
appropriate for the mission under review.
    We have examined carefully the experiences gained through the 
management of previous base realignment and closure rounds. Looking 
ahead, to the next round in 2005, we have attempted to make a number of 
process improvements to enhance our ability to arrive at a rightsizing 
of our infrastructure which will complement and support the force and 
business transformation activities of the Department.
                          conducting brac 2005
    The Department's BRAC 2005 round will be based upon the general 
template used in the three previous BRAC rounds. While I recognize that 
there was some criticism regarding the implementation of the previous 
Commission's recommendations, overall, the process worked well. In 
fact, the review by the General Accounting Office of the Department's 
1995 BRAC process concluded that the process was generally sound and 
well documented and should result in substantial savings. The 
Comptroller General concluded that as Congress considered the need for 
future defense infrastructure reductions that it avail itself of a 
process similar to that authorized in 1990 that govern the succeeding 
three rounds of base realignment and closure. As a caution, however, 
the General Accounting Office also recommended that the Department 
needed to strengthen its leadership within the process, should there be 
a future BRAC round, to maximize the opportunity for rationalization, 
particularly in areas that could be considered joint or common business 
and functional areas.
    Both the Congress and the Department have responded affirmatively 
to those recommendations. The Congress authorized a BRAC round for May 
of 2005 based upon the successful construct of the previous three 
rounds with the Secretary providing recommendations to an independent 
commission which then holds public hearings and issues its 
recommendations to the President who then forwards them to the Congress 
for approval on an ``all or none'' basis. Similarly, the Secretary of 
Defense, in his memorandum of November 15, 2002, that ``kicked off'' 
the Department's BRAC process created a review and oversight process 
that is substantially strengthened from those in previous rounds.
    The Secretary established an Infrastructure Executive Council, 
chaired by the Deputy Secretary, and composed of the Secretaries of the 
Military Departments and their Chiefs of Services, the Chairman of the 
Joint Chiefs of Staff, and the Under Secretary of Defense (Acquisition, 
Technology and Logistics) as the policymaking and oversight body for 
the entire BRAC 2005 process. The Secretary also established a 
subordinate Infrastructure Steering Group chaired by the Under 
Secretary of Defense (Acquisition, Technology and Logistics) and 
composed of the Vice Chairman of the Joint Chiefs of Staff, the 
Military Department Assistant Secretaries for installations and 
environment, the Service Vice Chiefs, and myself.
    This structure will permit the Secretary of Defense will approve 
key elements of the process has, in fact, established a strengthened 
joint process for BRAC 2005 that will advance transformation, 
jointness, combat effectiveness, and the efficient use of taxpayer's 
money by effectively capitalizing on the military value of our 
installations. For example, early on in the process, the Secretary will 
review and approve those functions within the Department that will 
receive joint cross-service analysis and the metrics for that analysis. 
While the Services will evaluate their unique functions, those 
functions determined to be common business-oriented (i.e., the 
functions exist in more than one service or reside in the private 
sector) will be evaluated jointly for cross-servicing.
    Along those lines, we have recently established six broad areas to 
examine functions for joint analysis. Those broad areas are: Supply and 
Storage, Industrial, Technical, Education and Training, Medical and 
Administration. We are now in the process of designing the 
organizational approach for a comprehensive analysis of these functions 
for the Secretary's approval. In the previous round, the Department 
constrained its joint cross-service analysis by limiting the authority 
of the groups conducting the analysis and assigning them a much more 
limited functional basis. Through the lessons learned from previous 
rounds and the design of a process to mitigate the constraints imposed 
in previous rounds, I am confident that BRAC 2005 will achieve its 
potential to materially improve the manner in which military 
infrastructure and supports our war fighting capability.
                                overseas
    Our installations transformation is not limited to the United 
States. We also are assessing our facilities overseas to determine the 
proper size and mix. Since 1990, the Department of Defense has returned 
or reduced operations at about 1,000 overseas sites, resulting in a 60 
percent reduction in our overseas infrastructure and a 66 percent 
reduction in Europe, in particular, and we continue to review overseas 
basing requirements of the Combatant Commanders and examine 
opportunities for joint use of facilities and land by the Services, 
consolidation of infrastructure, and enhanced training. We have 
undertaken a comprehensive review of our overseas presence, in response 
to both the interest and direction of the Congress and the Secretary's 
initiative. While this comprehensive review has not been completed, I 
can assure the Subcommittee that we are working very hard on it and 
will report to the Congress as it is completed.
                    base reuse and community profile
    For local communities faced with a closure, of course, BRAC raises 
a number of reuse and redevelopment issues. As the Members of this 
Subcommittee know well, the closure of a military base can be a 
significant redevelopment challenge. After four rounds of BRAC, 
numerous success stories abound and, admittedly, some challenges 
remain.
    The closure of a military installation creates a hurdle and an 
opportunity for local communities to reuse large parcels of land and 
existing buildings in ways not previously envisioned. A closed 
installation can be the affected community's greatest asset for 
mitigating the impacts of the closure and charting a future that 
diversifies the local economy and attempts to build on a community's 
strengths.
    Reusing a military base is frequently the largest and most complex 
economic redevelopment effort ever undertaken in a community. Local 
reuse authorities work to harness public and private sector resources 
to drive economic recovery and growth. Reuse also creates an 
opportunity to achieve multiple community goals, including the 
diversification of the local economy through new job creation; 
expansion of the tax-base; and satisfying a range of community needs 
for new public facilities. Through the four previous rounds of BRAC, 
the Military Departments transferred about 250,000 acres of land with 
buildings and other improvements for reuse as non-Defense activities. 
As of October 2002, over 85,000 new civilian jobs have been created on 
former military bases--an 8 percent increase from the previous year.
    The Defense Economic Adjustment Program seeks to assist Defense-
impacted communities, workers, and businesses. Over the past four 
rounds of BRAC, the Department's Office of Economic Adjustment (OEA) 
has provided over $270 million in economic adjustment planning 
assistance for the preparation of adjustment strategies, reuse plans, 
and initial organizational staffing. In addition, $218 million has been 
provided by the Department of Labor for worker adjustment assistance; 
$405 million in aviation master planning and implementation assistance 
from the Federal Aviation Administration; and, $568 million from the 
Department of Commerce's Economic Development Administration for 
building construction, demolition, and other implementation activities. 
Interagency coordination with the Departments of Health and Human 
Services, Education, Justice, the Interior, and Transportation, has 
also facilitated the transfer and effective reuse of more than 154,000 
acres.
    The Department recognizes the uniqueness of each community and has 
provided a combination of technical and financial resources to support 
the needs of the impacted community. These include:
  --Organization.--A community's single point of contact for all 
        matters relating to the closure that is representative of the 
        impacted community and deliberates to reach a consensus on base 
        reuse and other local adjustment issues.
  --Plan.--Community prescription for economic recovery in response to 
        the closure, including specific details on reuse of the former 
        military facility. The effort optimally takes into account the 
        Military Department's environmental baseline information along 
        with the community's economic strengths and opportunities. Job 
        creation and tax base expansion are common goals, although 
        public activity and non-revenue-generating activity 
        (institutional use, parks and recreational areas, hospitals, 
        schools, etc.) are included as well.
  --Implementation.--community will seek to achieve a sustained mix of 
        public/private civilian activity on the former base consistent 
        with its redevelopment plan, yielding enough revenue to cover 
        the community's costs of reuse and the necessary private return 
        on investment. For some, this may take a considerable amount of 
        time.
    Federal property disposal laws and special enhancements authorized 
for BRAC locations provide a variety of acquisition mechanisms to 
satisfy a diverse number of base reuse scenarios. Traditional public 
benefit transfers have been available for public entities and certain 
eligible non-profit organizations. These include use for aviation, 
ports, prisons, education, health and historic monument purposes. BRAC 
laws added the economic development conveyance (EDC) for job producing 
activities like business and industrial uses. Initially this provision 
was for transactions at or less than fair market value. Later Congress 
made these transfers available at no cost. The fiscal year 2002 
National Defense Authorization Act modified the EDC provision to make 
the no-cost EDC a permissive action. There was also Congressional 
direction that the Secretary seek fair market value consideration for 
EDC transfers in BRAC 2005.
    Despite this change to the EDC authority, a rich array of property 
disposal and acquisition authorities and strategies remain. A recent 
example of a mixed disposal is the former MCAS Tustin where the 1,585 
acres were transferred under public benefit authorities for homeless 
and park uses, under an EDC for primarily business development, and 
much of the former military housing was sold at a public bid sale. In 
addition the historic blimp hangar will be transferred to the City of 
Tustin under an historic PBC. Numerous closed bases have been 
transferred under multiple property disposal authorities that suit the 
intended community uses.
    From 1988 through 1995, approximately 387 closure or realignment 
actions were approved and the Department has completed each action 
within its respective statutory deadline. In implementing these 
actions, the Department has sought to close the facilities quickly to 
maximize savings and make property available for community reuse 
objectives, including job creation. As of December 2002, the Military 
Departments have disposed of 271,769 acres (53 percent) of the 510,747 
acres that are being made available for disposal and local reuse. Of 
the remaining inventory, roughly 189,559 acres are projected to be 
transferred by the end of fiscal year 2004. Incidentally, approximately 
82 percent of the remaining acreage lies in 6 installations where 
environmental remediation must be completed. I am working closely with 
each of the Military Departments as they seek to transfer this property 
and remedy any impediments to disposal. The transfer of this property 
is a priority for the Department and I recognize the importance of 
quick access to the property in order to save DOD caretaker costs, 
leverage private redevelopment financing, create new jobs, and generate 
new tax revenues.
    However, impediments exist that delay property disposal. Many are 
environmental-related and have been encountered to varying degrees at 
every location. They range from conflict between Federal and State 
regulations or regulators; lack of policy on specific contaminants such 
as unexploded ordnance to fragmented relationships among the clean-up, 
disposal, and reuse interests.
    There are also some that are inherently community-based (such as 
delays in reuse planning and lack of capital for infrastructure 
improvements). Others stem from the individual Military Department 
efforts at property disposal, including inconsistent interpretation of 
BRAC laws, regulations and policy and inefficiency in program execution 
and administration.
    Still other impediments arise when multiple interests are involved 
in negotiations such as the Military Departments, local and/or State 
regulators, local authorities and private developer/third party 
interests over such items as local protection and maintenance, 
development interests, cleanup levels, and land use controls. Lastly, 
where impediments have been encountered, the Department has fostered a 
partnership with the affected community to address the issues and 
facilitate rapid reuse of the former installation.
    Each Military Department has extensive and varied experience with 
BRAC reuse and disposal. In order to share those experiences and 
expertise, and to ensure that the Department of Defense is conducting 
reuse and disposal in the most efficient and effective way possible for 
all concerned, the Office of the Secretary of Defense is forming a 
working group to examine potential improvements to the BRAC reuse and 
disposal process.
                     brac and environmental cleanup
    Very early on, the Department decided that expeditious cleanup of 
BRAC property was a priority, and ambitiously established a goal to 
have remediation response complete or remedies in place by the end of 
fiscal year 2005. To guide our BRAC environmental remediation efforts 
consistently, we use three over-arching principles:
  --Protect human health and the environment.
  --Make property available for reuse and transfer as soon as possible.
  --Provide for effective community involvement.
    The technical challenge of remediation is finding the 
contamination; determining what is protective of human health and the 
environment; determining a remedy that is safe, cost-effective, and 
acceptable to the regulators and the community; and then implementing 
the remedy. Simple to describe, but at times very difficult to do. Not 
only is there a maze of Federal and State laws and regulations to 
navigate, as well as regulatory and community stakeholders to consult, 
but sequencing and completing the cleanup must take reuse needs, 
priorities, and timelines into account.
    The Department has made very good progress in remediation of 
traditional hazardous substances. At the end of fiscal year 2002, 79 
percent of all 4,900 hazardous substance cleanup sites had remedies in 
place or response complete, and we project having 92 percent of our 
cleanup sites at the remedy-in-place or response complete milestones by 
end of fiscal year 2005. With continued support from Congress and 
regulators, we are confident that this can happen. A few sites, due to 
complex challenges or other obligations (e.g., Chemical 
Demilitarization treaty obligations) will extend beyond fiscal year 
2005.
    Our BRAC military munitions response program (MMRP) will take 
longer to complete, but we are making progress. At the end of fiscal 
year 2002, 32 of our 74 BRAC MMRP sites are at the remedy-in-place or 
response complete milestone, and we expect that number to grow to 45 by 
the end of fiscal year 2005.
    The Department continues its efforts to move BRAC properties to 
communities faster while still maintaining our commitment to provide 
appropriate environmental restoration. One initiative is early 
transfer, in which the Components may transfer property by deed while 
environmental restoration activities are on-going. This type of 
transfer allows better integration of cleanup and redevelopment 
activities. DOD has completed 15 such transfers using the early 
transfer authority Congress provided in 1996.
    As an example, the former Naval Shipyard Mare Island represents one 
of DOD's largest early transfers. Early transfer resulted in disposal 
of BRAC property years earlier than would have otherwise been possible. 
In the case of Mare Island, the City of Vallejo entered into an 
agreement with the Navy to continue remediation. The property was 
transferred and redevelopment started much sooner than if the City of 
Vallejo had to wait for the Navy to complete the cleanup. The 668 acre 
Eastern Early Transfer Parcel transferred 4 years ahead of schedule on 
March 26, 2002, and the 2,814 acre Western Early Transfer Parcel 
transferred 10 years ahead of the previous schedule on September 20, 
2002 In another example of early transfer, the Army and the New Jersey 
Department of Environmental Protection entered into an agreement 
transferring 192 acres to the Bayonne Local Reuse Authority in December 
2002. The agreement will allow the reuse authority to perform 
environmental remediation activities in conjunction with the 
redevelopment process.
    As a further example, innovative contracting approaches are proving 
effective in leveraging the strengths and capabilities of the private 
sector to improve our remediation efforts. For example, guaranteed 
fixed price remediation'' (GFPR), focuses on the outcome--DOD contracts 
for the final remedy at fixed cost and time. During fiscal year 2002, 
the GFPR contract awarded for activities at Fort Pickett, Virginia, was 
at 15 percent less than the government estimate. The Navy also realized 
similar cost avoidance at Charleston Naval Complex by using this 
performance based contracting approach. Cost savings, of course, may 
vary from site to site, but, local communities also gain from the time 
saved in the initiation and length of remediation activities or by 
having increased certainty by securing a final remedy in place by a 
fixed date.
                               conclusion
    The Department has done much within the BRAC authority provided by 
the Congress. By consolidating, realigning and reducing unneeded 
infrastructure, the Department can focus investments on maintaining and 
recapitalizing what we actually require, resulting in ready facilities 
for the war fighters while more prudently using taxpayer's money. 
Change is rarely easy and the changes we are asking of the Military 
Departments and our communities are daunting. We look forward to 
working with you on this challenge.
    In closing, I sincerely thank you for this opportunity. We 
appreciate your strong support of our military construction program and 
we look forward to continuing to work with this Subcommittee as we 
reshape our global infrastructure.

    Senator Hutchison. Thank you very much, Mr. DuBois.
    I am going to try to introduce something, and perhaps I can 
work with Senator Feinstein or others, to keep the McKinney Act 
from doing some of the things that all three of our previous 
witnesses mentioned as real problems. Not only was it never 
intended that money should be coming out of the BRAC or the 
Department of Defense as a substitute, but a quarter of a 
million dollars in legal fees ongoing really hurts a 
community's capabilities to move forward. So I hope we can make 
some changes there.
    Let me start with the issue that we have talked about many 
times, and that is the overseas bases. How, in the changing 
environment that we have now, with perhaps changing geographic 
priorities and training constraints in certain areas, how can 
you determine what you would be able to reasonably close in a 
2005 BRAC process when things are changing so much with our 
overseas commitments?
    Mr. DuBois. Yes, ma'am. As I indicated, the Secretary of 
Defense in the combatant commanders conference of now several 
weeks ago discussed this with the Joint Chiefs and all the 
combatant commanders, both the geographic combatant commanders 
and the non-geographic--STRATCOM, TRANSCOM, et cetera. They 
came to a conclusion, not surprising, that the overseas basing 
infrastructure was in point of fact a legacy of the Cold War. 
It needs to be rationalized, it needs to be reconfigured.
    The Secretary discussed with them how fast that the 
regional combatant commanders, the geographical commanders, in 
concert with the Joint Chiefs and the specified commands, could 
report to him on a long-term vision that would in point of fact 
inform the domestic BRAC process over the next 2 years. I want 
to just set that aside for a quick moment.
    The most immediate requirement, however, is, are there any 
programmed military construction projects in EUCOM or PACOM 
authorized and appropriated in the fiscal year 2003 budget, 
this fiscal year, which in the view of the combatant commanders 
and the Joint Chiefs could be reprogrammed or changed. By 
virtue of the fact that some bases--and I will speak 
specifically to Korea--have been determined now by General 
LaPorte--and the Army this morning reported to me that they 
will be able to get back to me by early next week at the latest 
with their views of General LaPorte's recommendations. Are 
there bases that are enduring and are there bases that are not?
    General LaPorte has identified those that he believes are 
enduring and those that he believes are not. Now, this issue 
obviously has a number of implications for host Nation support. 
Korea does invest a considerable amount of money in supporting 
U.S. forces in South Korea and therefore that discussion has 
yet to take place.
    Suffice it to say that we will ask Congress to reprogram 
some money in terms of Korea as well as Europe from 2003 
projects currently authorized and appropriated to other areas. 
I will give you a hypothetical that in fact is grounded in 
reality, although I hope you will appreciate the fact that I do 
not want to state specifically at this moment Camp A or Camp Y. 
But if the Second Infantry Division, for instance, in Korea was 
scheduled to get a barracks at a particular location in Korea, 
but General LaPorte thought it would be best to build those 
very same barracks at another location because the other 
location in point of fact is of an enduring quality, we will 
ask for your permission to do that--same barracks, same fitness 
center, same military construction projects, same amount of 
money, but it will be done at a different location.
    In 2004 we have asked General LaPorte to do the same thing. 
Remember that these projects, especially the 2003 projects, 
were originally planned for two and a half years ago. As you 
pointed out, Madam Chairman, life has changed. The Secretary of 
Defense has said we can no longer continue to support an 
infrastructure, given the 21st century requirements that the 
President has articulated and the Secretary of Defense is going 
to implement.
    How quickly the 2003-2004 recommendations will be presented 
to Congress. As I indicated in my opening statement, I want to 
do that before you go into markup. That is the only way that 
this will work.
    Senator Hutchison. I agree and appreciate it, because the 
timing was not going to fit. So I appreciate your really 
focusing on that and coming forward for the 2003-2004 request. 
I would like to extend that, though, the relationship to the 
2005 BRAC, and how can you go into a 2005 BRAC with the 
uncertainties that you have now and will have over the next 
year, and what kind of troop strength you might have there or 
bring home because of training constraints or change. You may 
take something out of Germany, for instance, and just bring it 
home rather than sending it to the Czech Republic.
    So how are you fitting in your foreign requirements with 
the base closure that is going to be ongoing? The last thing 
you want to do is close a base and then try, heaven forbid, to 
reopen it. You do not want to do that. So how are you going to 
assure that in 2005 when we are making the final round probably 
of base closures that you have totally in hand the information 
you need about foreign troop strength?
    Mr. DuBois. Yes, ma'am. The Secretary in fact within the 
last week has discussed with the Chairman how to answer your 
very question. Let me just say in a phrase, the domestic BRAC, 
those recommendations that will be finalized in the spring of 
2005, could not be done intelligently unless there is a 
rationalization of the overseas infrastructure. To that end, 
the Secretary and the Chairman have discussed, as I indicated, 
an integrated global presence and basing strategy approach.
    How quickly--and he has also discussed it, they have 
discussed it, with the combatant commanders and the Joint 
Chiefs. How quickly they could pull together a reasonable 
vision of what ought to be--and ``what ought to be'' means 10-
plus years out--remains to be seen. However, having been privy 
to some of these conversations, the Secretary believes that 
these kinds of initial reports and assessments from the 
combatant commanders back to my office, the Joint Chiefs, 
Office of the Secretary of Defense, and the chairman's office 
by this summer will help us create a structure and a framework 
that will have some definition, and I mean that sincerely--not 
just some amorphous, well, we think we are going to have an end 
strength of this amount over here, but some definition by the 
end of the summer.
    It is true that we have started the BRAC, domestic BRAC 
process. However, we also know, as you have said and as I have 
tried to indicate, the Secretary wants to inform that process 
with an overseas vision as we get into it in more detail this 
coming summer, so that when those final decisions are made some 
time between the January and May time frame, or January and 
March time frame of 2005, they will be fully informed by a 
vision and a strategy for presence and basing overseas.
    Senator Hutchison. Thank you.
    Let me ask my Ranking Member to see if she has any 
questions, and then I have another round.
    Senator Feinstein. Thank you very much.
    I do have four questions. I will be brief on all except the 
first, which is perchlorate. The Defense Department has said 
that it is not willing to start cleanup of perchlorate until 
there is a national standard, and this could take 3 to 5 years 
or longer. So millions of Americans are drinking contaminated 
water today.
    Companies like Kerr McGee and Goodrich, and I want to 
compliment them, have already spent millions on priority 
actions to reduce the threat, and I would like to urge the 
Defense Department to do so as well. One obvious priority 
effort is to try to stem the flow of perchlorate into the 
Colorado River from the former DoD facility at Henderson, 
Nevada, which was owned by the United States Navy from 1951 to 
1962. The perchlorate from this facility has spread to the 
water supplies of millions in Arizona, in Nevada, in California 
via the Colorado River.
    Kerr McGee, which operated the facility after the Defense 
Department, has built a state-of-the art ion exchange facility 
and taken other measures in an attempt to address the problem. 
They have been very forthcoming. The Defense Department has 
done nothing.
    I have a serious question for you which may take weeks to 
research, but I would like to ask for a thorough answer. That 
question is, given the necessary funding, what are the top 
priority sites around the country for the Defense Department to 
reduce perchlorate contamination in drinking water and what 
initial measures would the Department take?
    Mr. DuBois. Excuse me, Senator. I am just making sure that 
I have got the notes here.
    This is a very complex question. It is both science and 
science policy, and I want the Congress to understand that the 
Office of Management and Budget, the Council for Environmental 
Quality, the Environmental Protection Agency (EPA), the 
Department of Defense, NASA, and the Department of Energy, 
along with the Office of Science and Technology Advisor to the 
President, have all been meeting on a, I say regular basis, two 
or three times a week for the past month, on this issue.
    It has not gone unnoticed by those of us in the Executive 
Branch that there are clearly issues, some of which are 
mischaracterized, some of which are miscommunicated, but issues 
that nonetheless must be addressed.
    The Department is in my estimation not backing away from 
their responsibilities to clean up perchlorate. We remain 
committed to our obligations to meet the cleanup standards, and 
I underline the word ``standards,'' established through the 
environmental restoration process. Now, there is at present 
no--I repeat, no--Federal regulatory standard for perchlorates. 
EPA, as I indicated, working with the agencies that I just 
listed as well as with the States and the tribes and water 
suppliers and the public, is evaluating perchlorate as an 
environmental contaminant.
    You indicated in your statement that perchlorate has 
contaminated drinking water. Now, the question is, as I 
understand it, Senator Feinstein, what is the appropriate 
reference dose for perchlorate in drinking water that may 
create a risk or not? Given the fact that the science is in 
question both from the point of view of the folks who assembled 
the data and evaluated the data, because there is enough 
question as to what is the appropriate draft reference dose, in 
order to eventually establish a standard EPA and the executive 
branch are going to refer this issue to a panel of the National 
Academy of Sciences (NAS).
    It is not, from what I have been told, a 3 to 5-year 
proposition. We understand that the NAS is going to address 
this issue. How long it will take for them to address the 
issue, the scientific aspects of the issue, is not--I am not 
aware of. I understand, however, that it will be less than 1 
year. But I would take your question and I will ask Governor 
Whitman what is their best estimate.
    Now, EPA will not complete nor disseminate a final risk 
assessment until that NAS scientific review is concluded and 
all the comments are addressed. Again, I want to--and I take 
for the record your concerns about the Colorado River, 
Henderson, Nevada, naval site. I want to learn more about the 
technology the Kerr McGee Corporation has built, the ion 
exchange facility. I will learn more about that. The top 
priority sites that you mentioned, I will work with the three 
Assistant Service Secretaries to determine where they are.
    But I must say that, again, absent a standard, a regulatory 
standard, it does not imply nor should it be characterized that 
the Defense Department is standing in the way of cleaning up a 
potential contaminant. And I underline again the word 
``potential.''
    Senator Feinstein. Thank you.
    I would like to make this point. EPA has a current 
reference dose--it is not a standard, but it is a guideline for 
cleanup--of 4 to 18 parts per billion.
    Mr. DuBois. That is correct.
    Senator Feinstein. And the problem is we have over 200 
wells in 80 different water jurisdictions that are being closed 
because they do not meet these standards. Now, I think it would 
be very interesting--my staff has been--I have not had a chance 
to go to visit the Henderson, Nevada, site. Kerr McGee has been 
very forthcoming. They know there is a problem. They have spent 
a lot of money trying to clean it up. Goodrich I think put $2 
million into an ion exchange program to try to help a small 
community of Rialto.
    But where this is hitting it can sometimes hit all of the 
water supply. Therefore, all these children are drinking this 
water. In the mean time, you have all these agencies meeting 
and you have the EPA working, and I am told--and we have asked 
many times--it is 3 to 5 years. So it seems to me that you have 
a priority situation and that it might be a good idea to take a 
look at Henderson and talk with the people, because I think 
there are solutions out there and what I am trying to do is get 
the Department of Defense, whom I view as the responsible major 
party, participating along with the private sector and the 
State public sector and try to see if we cannot come up with 
some reasonable, some cost-effective activities that might 
reduce this threat.
    Mr. DuBois. I would embrace whatever technologies might be 
available to clean up perchlorate, irrespective of what the 
final standard might be. With respect to that, the 4 to 18 
parts per billion reference dose was not meant to be used by 
the State regulators as a standard. Rather, as I said, the 
science is in question. The EPA--and I defer to them--has 
developed clarifications to the memorandum signed by Mary Ann 
Horenco to the EPA regions and in turn to the State regulators 
that caused certain State regulators--and I have seen some of 
the letters, one in particular addressed to me on a military 
reservation perchlorate issue--caused certain State regulators 
to say, ``Oh, well, this is the standard and therefore you have 
got to clean up to it.''
    That was not the intent of Mary Ann Horenco's memorandum. 
EPA is issuing a clarification to that effect.
    Senator Feinstein. You are saying then it is okay to keep 
drinking the water?
    Mr. DuBois. Well, I am not saying that at all, Senator. I 
am saying that I do not believe that until the NAS rules on 
what the appropriate reference dose is--it may end up being far 
higher than 18 parts per billion. But I nor my colleagues in 
NASA nor the Department of Energy or the private sector, or EPA 
for that matter, have any conclusion until such time as the NAS 
study is over.
    Again as I indicated, we were told, I was told--and I defer 
again to EPA--that this particular focused assessment will not 
take more than a year.
    Senator Feinstein. Well, I am happy to hear that then. That 
is the first I have heard that. So that is good news.
    Well, let me move on. It is my understanding--and correct 
this if it is wrong--that the 2005 BRAC round will be closely 
managed by the Office of Secretary of Defense, unlike the 
previous rounds, which were more Service-driven. How will this 
round differ from prior rounds in terms of scope, focus, and 
management?
    Mr. DuBois. I have stated in conversations with you and 
with other Members of the Senate and the House that there are 
some specific differences, and it is true that the Secretary of 
Defense, in response to criticisms by Members of Congress, 
quite frankly, that his predecessors did not take enough of an 
active role early enough in the process of the prior four BRAC 
rounds to engender true cross-Service analysis, to engender 
joint use of military installations, he took that to heart, and 
in so doing he established an Infrastructure Executive Council 
chaired by the Deputy Secretary of Defense.
    Also in response to observations, comments, and criticisms 
by Members of Congress, he knew that in order to have an 
appropriate and comprehensive BRAC round the senior leadership 
of the Department, both uniformed and civilian, had to be 
involved. And on this Infrastructure Executive Council are the 
Joint Chiefs, the Service Secretaries, the Chairman of the 
Joint Chiefs of Staff, and the Deputy Secretary of Defense in 
the chair, along with Pete Aldridge, the Under Secretary for 
Acquisition Technology and Logistics.
    The General Accounting Office (GAO) report after the 1995 
BRAC round made it quite clear that the opportunity had been 
lost in terms of the way that round and the prior rounds were 
conducted from the point of view of achieving cross-Service 
analysis and joint use, joint base utilization. That, as well 
as, as I have indicated, comments from you all, said to the 
Secretary, I have got to do it differently.
    Therefore, while it is true that he, as the ultimate 
arbiter, delegated the responsibility to the Deputy Secretary, 
he has included all of the senior leadership. But it should be 
noted that there are military-unique activities, unique to the 
individual military Service, mostly operational in nature, 
which shall be analyzed by the Army, Navy, Air Force, and 
Marine Corps independently.
    But it is also true, as I indicated in my opening 
statement, that there are business operational functions and 
facilities which more than one Service is involved with and/or 
the private sector performs in this regard to some extent and 
therefore needs to be reviewed from the get-go in a joint 
cross-Service way.
    Of the six groups that I mentioned, three of them are 
chaired by senior civilians in the Office of the Secretary of 
Defense: the industrial activities group, the education and 
training group, and the technical and laboratory group, right. 
There are three of them that are being chaired by members of 
either the joint staff, the supply and storage group, or in the 
case of the administrative group the Deputy Under Secretary of 
the Army is chairing it; and the medical group is being chaired 
by the Surgeon General of the Air Force.
    We in point of fact looked at--this is like an NFL draft. 
We went out for the best athletes, the folks who we thought 
could best lead this cross-Service exercise, and we did not 
necessarily say it all had to be driven by the Office of the 
Secretary of Defense, although there is a very clear charter: 
You will look at this cross-Service. If you are the Deputy 
Under Secretary of the Army and you are chairing the 
administrative group, you have got to take off your Army hat 
and you have got to put on a cross-Service hat.
    The differences are pretty much as I have explained this 
morning. There are some minor changes that were in the BRAC 
authorizing legislation. It however makes it very clear that 
military value is the preeminent selection criterion.
    In December of this year, again under the law, the statute, 
the Secretary will report to you on what he believes the 
appropriate selection criteria ought to be, plural, and there 
will be time for public comment, time for Congress to comment, 
so that as we go into, let us face it, the really tough 
decision analytic stage, which is the calendar year 2004, we 
will have had this dialogue and deliberation with you and with 
the public and with organizations such as were represented in 
the prior panel.
    Senator Feinstein. This is very helpful.
    In your prepared statement, Mr. DuBois, you mention that 
the Defense Department has disposed of 53 percent of the 
property available from prior BRAC rounds. You also note that 
approximately 82 percent of the remaining acreage lies in six 
installations where environmental remediation must be 
completed. Could you please name those six installations and 
tell the committee the estimated cost and cleanup time for each 
of them? And if you cannot do it today, would you please do it 
in writing.
    Mr. DuBois. Yes, ma'am. I think that the three Assistant 
Service Secretaries who follow me will be able to address that 
in particular. I will say this----
    Senator Feinstein. If you could just name the six 
installations.
    Mr. DuBois. I do not have them on the tip of my tongue. I 
will submit it for the record.
    Senator Feinstein. Thank you.
    Mr. DuBois. But we have in this fiscal year under way, 
while, as you indicated, 53 percent of all prior BRAC acreage 
has been disposed of, i.e., 47 has not, with the disposal 
actions in the pipeline today, the largest of which is in 
Alaska--that is in and of itself in excess of 70 or 80,000 
acres. Were that to come to pass, we would be left with 
probably less than 10 percent of the original BRAC acreage 
closed.
    Again, I defer to my colleagues in the Services. They know 
the details of the individual----
    Senator Feinstein. You mean less than 10 percent unclosed?
    Mr. DuBois. Which have been closed but not disposed.
    Senator Feinstein. Okay, not disposed.
    Mr. DuBois. They have all been closed. It has not been 
removed from our property books.
    Senator Feinstein. Got it.
    Mr. DuBois. The six major ones--and as I said, the 
individual Services--and I believe the Army has the majority of 
them--will be addressed by the Assistant Service Secretaries. 
Notwithstanding that, I will insert for the record list of 
acreage and with the environmental remediation planned for 
those sites.
    Senator Feinstein. Thank you very much.
    Senator Hutchison. Thank you, Senator Feinstein.
    I am going to forgo my last round because we have a 12:00 
o'clock vote and I do want to get the third panel. So, Senator 
Burns, I yield to you.

                   STATEMENT OF SENATOR CONRAD BURNS

    Senator Burns. Thank you, Madam Chairman, and I appreciate 
this. With that, I would ask that I can submit my statement for 
the record.
    [The statement follows:]

               Prepared Statement of Senator Conrad Burns

    First of all, I want to thank Chairwoman Hutchison for convening 
the hearing today on this issue of Base Realignment and Closure [BRAC]. 
As we approach the forecasted date of another possible BRAC round in 
2005, many concerns and issues must be addressed. I have a number of 
questions myself and look forward to addressing some of them today.
    My home State of Montana--the small community of Great Falls, 
Montana in particular--knows all too well how painful this process can 
be. Malmstrom Air Force Base (AFB) lost nearly 700 jobs when its C-135 
aerial refueling tankers were moved to Florida as part of the 1995 
round of base closures and realignments. I know that my part of the 
world has already suffered enough job cuts and economic damage because 
of the loss of this flying mission. This process really can wreak havoc 
on small communities, further damaging already fragile local economies. 
One time closure costs and environmental cleanups, coupled with the 
long lead times necessary to close a base, can make promised savings 
hard to identify. I also question whether this is the right time to 
downsize facilities when we are facing an increased threat, both at 
home and abroad. If the government returns or sells its bases, it will 
never get the land back.
    Tens of millions of dollars have been spent at Malmstrom AFB during 
my time in the Senate, with more on the way, to improve the operational 
facilities, living conditions and quality of life for our military men 
and women. In addition, our land-based missile systems, in particular, 
remain an important leg of the Nuclear Triad and play an essential role 
in ensuring national security. While I have no doubt that with 200 
Minuteman III missiles, premier facilities, significant air space and 
little or no encroachment issues, Malmstrom AFB has and will continue 
to play a critical role in our national security, I do have a number of 
questions which I want addressed today.
    I look forward to hearing testimony from the panelists who are here 
today and listening to the discussion on this subject.
    Thank you, Madam Chairman.

    Senator Burns. I have only one question, Mr. DuBois, and 
that is how do you define ``jointness'' as it is used in the 
context of these proceedings?
    Mr. DuBois. I think ``jointness'' can be defined in any 
number of ways, but certainly at the top of the list----
    Senator Burns. When we get into problems up here, it is 
because the chairman defines it one way, I define it another 
way, and Senator Feinstein defines it another way, and then we 
argue for the next 6 months and never get nothing done because 
we do not define the thing.
    Mr. DuBois. I understand, Senator. In prior BRACs when it 
was more Service-centric, when the Navy decided that they were 
going to close or realign an installation and said, now where 
do we take these missions and facilities, to what installation 
ought they to go, they only considered other naval 
installations. This BRAC, we will insist and ensure that when 
any of the Services considers a unique function and facility 
and mission to that Service ought to be realigned resource 
closed on Base A and moved to Base B, the Base B will be not 
just that Service's infrastructure, but all the Services' 
infrastructures can be considered and will be considered.
    That is my essential definition of what joint utilization 
in this BRAC round will be.
    Senator Burns. That is the only question I have, just the 
way he defines it. I do not agree with it.
    Senator Hutchison. Well, thank you very much, Mr. DuBois.
    Mr. DuBois. Thank you.
    Senator Hutchison. I appreciate your making the effort to 
be here, and would like to now call our second panel, which is 
now our third panel: the Assistant Secretaries of the Army, Dr. 
Fiori; Air Force, Mr. Gibbs; and Navy, Mr. Arny. We will start 
with you, Dr. Fiori.
STATEMENT OF HON. MARIO P. FIORI, Ph.D., ASSISTANT 
            SECRETARY OF THE ARMY FOR INSTALLATIONS AND 
            ENVIRONMENT
    Dr. Fiori. Thank you, Madam Chairman and members of the 
subcommittee. It is a pleasure to appear before you to discuss 
The Army's accomplishments in executing four rounds of the base 
closure under the base realignment and closure authority 
provided by Congress and to briefly discuss how we organize for 
an additional BRAC round in 2005----
    Senator Hutchison. Excuse me, Mr. Secretary. Let me just 
interrupt you and say that we have a 4-minute green light and 
if you could just summarize after that.
    Dr. Fiori. This is quite quick, thank you. A detailed 
written statement has been provided for the record.
    Before commenting briefly on the execution of our BRAC 
program, I would like to say what I am sure we would all 
appreciate is the challenge confronting the military services 
today. As we meet to discuss the drawdown of our 
infrastructure, large numbers of servicemen and women are 
deployed. We take immense pride in the current skill and 
professionalism of these men and women. But as we continue to 
streamline our infrastructure using our BRAC authority, we are 
motivated by the reality that these brave people deserve the 
best living and training facilities when they return home.
    The Army has completed 112 closures and 27 realignments 
resulting from the 4 BRACs. As a result of these actions, we 
are saving approximately $945 million per year. Our BRAC cost 
through fiscal year 2003 is $5.37 billion.
    The Army is now completing the remaining environmental 
restoration activities, transferring surplus property and 
performing caretaker operations. Our budget request for this 
year is $66 million for fiscal year 2004, which will allow us 
to complete environmental cleanup and ordnance removal efforts 
to continue to render these properties safe for disposal. To 
date, The Army has disposed 46.8 percent, with 142,000 acres 
remaining. We have established a goal of disposing 100,000 
acres this fiscal year.
    Environmental restoration continues to be the challenge in 
expeditious disposal of property. To overcome this impediment 
and accomplish our objectives, we are taking advantage of 
several innovative approaches toward environmental restoration. 
Under the Comprehensive Environmental Response, Compensation, 
and Liability Act (CERCLA), the Department is authorized to 
convey property prior to completion of required environmental 
remediation. This early transfer authority, in conjunction with 
environmental services cooperative agreements, allows the 
Department to convey property years ahead of schedule and 
transfer funding to local communities for the completion of the 
environmental remediation activities.
    To date, the Army has executed four Environmental Services 
Cooperative Agreements. Two additional actions are planned for 
fiscal year 2003.
    Another approach that we are using is Guaranteed Fixed 
Price Remediation contracts, where The Army obligates funds 
necessary for regulatory closure of the specified restoration 
activities. This process is very cost-effective and accelerates 
the regulatory closures. To date, we have executed seven of 
these guaranteed fixed price contracts.
    We are continuing our assessment of our overseas 
infrastructure and are continuing to reduce the number of 
installations overseas. Since 1990, 685 overseas sites have 
been announced for closure or realignment.

                           prepared statement

    As we begin the BRAC 2005 process, which is essential for 
successfully transforming The Army, our goal is an 
infrastructure that supports our security requirements in a 
changing world. To accomplish this important task, I have 
established a Deputy Assistant Secretary for Infrastructure 
Analysis, who will assess all installations within the BRAC 
law. Lessons learned from our previous four rounds are embedded 
in our efforts to execute 2005.
    Madam Chairman, that will conclude my statement.
    [The statement follows:]

                  Prepared Statement of Mario P. Fiori

    Madam Chairman and members of the subcommittee, it is a pleasure to 
appear before you to discuss The Army's accomplishments in executing 
four rounds of base closures under the Base Realignment and Closure 
(BRAC) authority provided by the Congress and our preparation for an 
additional BRAC round in fiscal year 2005. I appreciate the opportunity 
to report on our progress.
    Congress has authorized The Army to restructure by closing or 
realigning installations four times since 1988 in order to meet 
changing requirements in a changing world. The Army's goal is to 
balance its base infrastructure with its force structure and its 
mission requirements. BRAC enables The Army to restructure The Army 
organization and reshape its infrastructure to support a transformed 
Army. BRAC also saves dollars, not only by eliminating base operations 
(BASOPS), overhead, and sustainment, restoration, and modernization 
(SRM) costs at closed installations, but also by consolidating 
functions and creating efficiencies at realigned installations. 
However, simple reductions of infrastructure or personnel do not garner 
substantial savings.
    In accordance with the Defense Base Realignment and Closure Act of 
1988, Public Law 100-526, and Defense Base Closure and Realignment Act 
of 1990, Public Law 101-510, as amended, statutory requirements to 
close and realign facilities were met. The Army completed all closures 
(112) and realignments (27) for all 4 rounds of Base Realignment and 
Closure (BRAC) as of July 13, 2001. Upon completion of the first 4 
rounds of BRAC, The Army is realizing an annual recurring savings of 
$945 million each year. However, these savings do not come without a 
short-term cost/investment. Since 1988 BRAC has cost The Army a total 
of $5.36 billion through fiscal year 2002. The Army invested $1.7 
billion (33 percent) of the $5.36 billion on facility and 
infrastructure construction or renovation at gaining installations. The 
consolidation of activities in new and renovated facilities has greatly 
improved efficiency and the quality of the workplace for Army 
employees. Approximately $2.3 billion (42 percent) funds environmental 
restoration at closing sites, a cost The Army would have to bear 
eventually. The cleanup of BRAC sites benefits The Army by avoiding 
future and potentially more expensive cleanups at these sites. The 
remainder, $1.3 billion (25 percent), funds equipment and personnel 
relocation costs. Although these savings are substantial, we need to 
achieve even more in order to fund transformation and bring our 
infrastructure assets in line with projected needs. The Army supports 
the need to close and realign additional facilities and we appreciate 
the Congress' support and authority for an additional BRAC round in 
fiscal year 2005.
    The Army's facilities strategy strives to meet the needs of today's 
soldiers while also focusing on the changes required to support The 
Army of the 21st Century. For executing BRAC requirements in fiscal 
year 2004, our budget request is $66.4 million. This budget request 
represents The Army's commitment to complete required unexploded 
ordnance (UXO) removal, environmental restoration, and minimal 
caretaking or maintenance of those surplus properties and facilities 
not yet transferred from the first four rounds of BRAC.
    The Army is committed to quickly transferring surplus BRAC 
properties for redevelopment that is consistent with local community, 
State, and Federal purposes that are determined to be most appropriate 
for the property. To date, from a total acreage disposal requirement of 
266,847 acres, The Army has disposed of 124,934 acres (46.8 percent) 
with 141,913 acres (53.2 percent) remaining. Of the remaining acreage, 
60,000 acres is a lake in California, for which the State has not 
exercised their reverter and approximately 41,000 acres is property 
that the Department of Interior has requested. We expect to 
substantially reduce the remaining acreage in fiscal year 2003. This is 
an undertaking that involves many regulatory agencies, and is focused 
on environmental, historic, and cultural requirements that must be met 
in order to transfer real property. The Army is using the authority 
that Congress has provided in a 1996 amendment to the Comprehensive 
Environmental Response, Compensation and Liability Act (CERCLA) to 
accomplish early transfers of the property to the future recipients. 
This CERCLA early transfer authority allows The Army to enter into 
arrangements whereby the future owners will undertake the final 
environmental restoration and regulatory clearances that are necessary 
for a final deed transfer of the property. It is generally more cost 
effective to allow the community that will redevelop the property to 
also undertake the cleanup, in conjunction with their redevelopment. We 
have found that those communities that have the capacity to undertake 
such tasks appreciate and prefer the early transfer authority provided 
by Congress, in conjunction with a cooperative agreement that provides 
the necessary funding for environmental restoration activities.
    Environmental considerations are the largest and most costly 
challenges to transferring and redeveloping surplus property. Federal 
and State environmental regulators concerned with risk and liabilities 
want the property cleaned to pristine conditions that often exceeds 
industry standards. These environmental challenges include cleanup 
activities involving hazardous, toxic, and radiological wastes, oil or 
solvent spills, and unexploded ordnance common on many of the surplus 
installations that were used to train our soldiers for war.
    Having completed all closure requirements, The Army is now in the 
second year of completing the remaining environmental restoration 
activities, transferring surplus property, and performing minimal 
caretaker operations. Our budget request of $66.4 million in fiscal 
year 2004 allows The Army to caretake these properties and to continue 
our environmental and ordnance removal efforts that will render these 
properties safe for reuse, facilitate disposal, and provide for 
economic revitalization. This budget request includes the resources 
required to support projected reuse in the near term and to continue 
with current projects to protect human health and the environment.
    The Army implemented innovative approaches to environmental 
restoration at BRAC sites in fiscal year 2002, approaches that 
facilitated the early transfer of several properties. The Army will 
continue to support early property transfers in fiscal year 2003 and 
beyond.
    The significant challenges posed by the removal of unexploded 
ordnance, the remediation of groundwater, and the interface of a 
variety of regulatory authorities continue to hinder the transfer of 
surplus property. A number of innovative approaches for environmental 
restoration were recently developed by The Army to expedite the 
transfer of property, while ensuring the protection of human health and 
the environment. Two innovative mechanisms are being utilized to 
complete environmental restoration efforts: Guaranteed/Fixed Price 
Remediation (G/FPR) Contracts and Environmental Services Cooperative 
Agreements (ESCA). These innovations are being employed in partnership 
with the property recipients to expedite property transfers. A G/FPR 
Contract allows The Army to obligate the BRAC funds necessary for 
regulatory closure of specified restoration activities. The Army 
retains responsibility for completion of the environmental restoration, 
overseeing the contractor and ensuring that regulatory closure of the 
property is obtained. An ESCA is a different mechanism that obligates 
Army BRAC funds under the environmental restoration program. The Army 
retains its underlying responsibility for the cleanup while engaging 
the governmental entity representing the community reuse interests to 
perform specific environmental restoration services outlined in the 
ESCA in conjunction with its redevelopment plans. This arrangement 
allows the reuse authority to leverage and harmonize its cleanup 
objectives with its redevelopment plans.
    The Army used a G/FPR to accelerate regulatory closure at Fort 
Pickett, Virginia, by more than 1 year at a cost that will not escalate 
over the course of the work. We estimate that this $2.9 million 
contract saved us $0.8 million based on our initial estimates. An ESCA 
allows The Army to transfer property and the associated cleanup 
responsibilities to a local reuse authority or developer. This allows 
the recipient to integrate cleanup with their redevelopment plans. An 
ESCA completed in 2001 was used in conjunction with early transfer 
authority at Military Ocean Terminal, Bayonne, New Jersey, saving The 
Army an estimated $5 million in environmental remediation costs. An 
ESCA will facilitate the early transfer in fiscal year 2003 of property 
at Oakland Army Base, California. The G/FPR and ESCA initiatives limit 
Army environmental remediation cost growth and facilitate property 
disposal and revitalization, in accordance with the community 
redevelopment timeframe.
    The Army is intent on transferring surplus property expeditiously, 
and we remain committed to promoting economic redevelopment at our BRAC 
installations. We support early transfer and reuse of properties 
through economic development conveyances and use cooperative agreements 
to accelerate the completion of remaining environmental remediation. 
The 2005 Base Realignment and Closure authorization greatly expands the 
Department's ability to negotiate economic development conveyances of 
BRAC property. The Department is required to receive full fair market 
value consideration, and allows the conveyance of property to any 
entity that agrees to perform environmental restoration at the site. 
This will permit us to sell excess property and help generate 
additional funds for cleanup, resulting in the property being returned 
to reuse more quickly than under the current process. The Army's use of 
leasing and award of G/FPR and ESCA contracts to complete environmental 
cleanup make surplus properties available for reuse earlier. The early 
transfer of real property assets to interested parties in the private 
sector will provide strong economic development to local communities. 
This will develop business opportunities that result in jobs and tax 
revenues. The successful conversion of former Army installations to 
productive use in the private sector benefits The Army and the local 
community.
    The Army continues to effectively execute and implement the BRAC 
program utilizing innovative tools made available by Congress. Many 
local communities do benefit from acquisition of valuable properties 
with significant reuse potential. Most recently, The Army transferred 
property at the former Oakland Army Base, California, to the City of 
Oakland using the early transfer authority and signing a cooperative 
agreement to have the City complete the remaining cleanup actions at 
the facility. This will allow the City to manage and integrate the 
redevelopment and environmental restoration of the site to maximize 
reuse potential. This approach is beneficial to both parties and allows 
The Army to benefit from the reduced costs associated with integrating 
cleanup with reuse. The community benefits from receiving the property 
earlier and starting the redevelopment process. This early transfer/
environmental cooperative agreement approach to property conveyance was 
used earlier at Bayonne Military Ocean Terminal and Fitzsimons Army 
Medical Center.
    The following summary of some of our BRAC reuses reflects the broad 
range and complexity of successful reuse of BRAC installations. These 
examples also demonstrate The Army's commitment to reuse and illustrate 
how the impact of base closures can be minimized at the local community 
level:
    Leasing of Property at Red River Army Depot (RRAD), Texas.--The 
Army leased Building 150 to the Red River Local Redevelopment Authority 
(RRLRA). The RRLRA and its first tenant, a heavy metal fabrication 
contractor that does work for the paper mills in the area, signed a 
sublease. Local media reflected favorably on The Army's support to 
communities in transforming closing and realigning bases into assets 
for economic development.
    Transfer of the Woodbridge Research Facility (WRF), Virginia, to 
the Department of the Interior (DOI).--The Army conveyed 580 acres of 
WRF (formerly Harry Diamond Laboratories) to DOI. The WRF closed 
September 16, 1994, as a result of the recommendation of the BRAC 
Commission. Pursuant to Public Law 103-307, the entire installation was 
transferred to DOI for incorporation into the National Wildlife Refuge 
System. The U.S. Fish and Wildlife Service (USF&WS) manages the 
property to provide a wildlife preserve open to the public, and for 
research, testing, and environmental education purposes.
    Sale of Former Army Materials Technology Laboratory (AMTL), 
Massachusetts Property.--The Army transferred approximately 30 acres of 
the AMTL facility located in Watertown, Massachusetts, to the Watertown 
Arsenal Development Corporation (WADC) for a purchase price of $7.5 
million. The Army also transferred via Public Benefit Conveyance the 
Commander's Quarters, a seven-acre parcel, to the Town of Watertown as 
a historical site. The range of long-term direct and indirect job 
creation was projected at 3,800 to 5,000 jobs and today Harvard 
University has acquired and uses much of the site for its publications 
operations.
    Economic Development Conveyance (EDC) of Vint Hill Farms Station.--
The Army approved an EDC application for conveyance of Vint Hills Farm 
Station to the Vint Hill Farms Economic Development Authority (VHFEDA). 
The conveyance involved approximately 686 acres of the 701-acre 
installation, and associated buildings and structures. The final 
purchase price was $925,000. The remaining 15 acres was transferred to 
Fauquier County as a Public Benefit Conveyance for recreational use.
    Conveyance of Tipton Airfield, Fort George G. Meade, Maryland, to 
the Local Community.--The BRAC Commission recommended partial closure 
and realignment of Fort Meade. Range and training areas to include 
Tipton Army Airfield were recommended for closure. Tipton Airfield 
closed September 30, 1995. Anne Arundel County, Maryland, acquired the 
property as an airport Public Benefit Conveyance through the Federal 
Aviation Administration. The deed for transfer of approximately 348 
acres was issued to Anne Arundel County Airport Authority on July 2, 
2001.
    Conveyance of Fort Holabird, Maryland, to the City of Baltimore.--
The major portion of Fort Holabird was conveyed to the City of 
Baltimore in 1983 and was developed as the Holabird Business Park. The 
Army retained two parcels for ongoing Army missions. The 1995 BRAC 
Commission recommended closure of the remainder of Fort Holabird. The 
City of Baltimore was designated as the local redevelopment authority 
(LRA). The Department of Housing and Urban Development approved the 
LRA's reuse plan, which involves incorporation of the two parcels into 
the Holabird Business Park. The LRA submitted a no-cost Economic 
Development Conveyance application on March 13, 2000, which The Army 
approved, and a deed transfer of approximately 13.3 acres was signed on 
February 12, 2002, thereby completing disposal of the property.
    Completion of Rio Vista, California, Guaranteed Fixed Price 
Remediation (GFPR) Contract.--On February 5, 2002, the former Rio Vista 
Reserve Center became The Army's first completed GFPR contract. The 
State of California regulators concurred with and signed a No Further 
Action decision document for the entire 28-acre property. The 
regulatory closure of the clean up marked the first military post in 
California to be closed clean. The GFPR process saves time, conserves 
resources and ensures regulatory concurrence. GFPR reduces Army 
liability, completes remediation faster, supports rapid redevelopment, 
and provides cost savings to The Army.
    Savanna Army Depot Activity, Illinois, Crooked Slough Backwaters 
Area to Public Access.--On May 6, 2002, The Army opened the Depot 
Crooked Slough Mississippi River backwaters area for recreational 
boating and fishing. Public access had been denied, pending assessment 
of safety concerns. Reopening the area was a direct result of 
recommendations of the Savanna Strategic Management, Analysis, 
Requirements and Technology (SMART) team, formed in August 2000 by The 
Army at the request of Congressman Manzullo. Technical evaluations and 
negotiations among Army officials, U.S. EPA, Illinois EPA, USF&WS, as 
well as interested local members of the SMART team resulted in the 
placement of a physical barrier system and/or hazard warning signs 
around specific potential ordnance impact areas, thereby allowing the 
safe opening of a majority of the Crooked Slough area to water access 
for fishing and boating. The Army is continuing its environmental 
remediation investigations within the restricted areas to determine the 
required restoration actions. This was a good news story in that The 
Army BRAC/interagency effort met Congressional and public desire for 
access and regulatory, environmental and safety concerns, while 
protecting Army interests. Congressman Manzullo hailed this decision as 
a significant step toward citizen use of the area. He also endorsed the 
establishment of a National Wildlife Refuge, an idea now under 
consideration by the USF&WS.
    Decision Document and Environmental Services Cooperative Agreement 
(ESCA) for Military Ocean Terminal-Bayonne, Bayonne, New Jersey.--The 
Final Decision Document for Nine Areas of Concern/Operable Units at 
Former Military Ocean Terminal, Bayonne (MOTBY) was approved on October 
26, 2002. The Decision Document formally identified the environmental 
remediation activities agreed to between The Army and the New Jersey 
Department of Environmental Protection for the 192 acres. This document 
became the basis for work performed by the Bayonne Local Reuse 
Authority (BLRA) under an ESCA, which allowed the BLRA to perform 
environmental remediation activities in conjunction with their 
redevelopment process. A deed to transfer 192 acres was signed on 
December 11, 2002, using The Army's early transfer authority.
    Although the extensive overseas closures do not receive the same 
level of public attention as those in the United States, they represent 
the fundamental shift from a forward-deployed force to one relying upon 
overseas presence and power projection. The Army is continuing its 
assessment of overseas infrastructure needs in an effort to reduce the 
number of installations overseas. The total number of Army overseas 
sites announced for closure or partial closure since January 1990 is 
685. Additional announcements and efficient basing initiatives will 
occur until the base infrastructure matches the force structure 
identified to meet U.S. commitments.
    The BRAC 2005 process is essential for successfully transforming 
The Army structure and the Department of Defense in response to a 
changing world and changing requirements. The Army looks forward to 
working closely with the Office of the Secretary of Defense and the 
other Services through Joint Cross-Service Groups and the DOD 
Infrastructure Steering Group and Infrastructure Executive Council to 
optimize our ability to project power globally while reducing 
unnecessary overhead wherever possible. Joint organizational and basing 
solutions is one concept that will free resources to modernize 
equipment and infrastructure, and enhance our capabilities to meet 21st 
Century threats.
    The Army will execute the requirements of the BRAC 2005 legislation 
through the Office of the Deputy Assistant Secretary of the Army for 
Infrastructure Analysis, a new organization, which will lead The Army 
Basing Study (TABS) to assess all installations in accordance with the 
BRAC law. All bases will be considered and treated equally. We will 
work with OSD and our sister services to take a hard look at the 
resources necessary to support the transformed Army now and into the 
future.
    The TABS Group will conduct a comprehensive, detailed military 
value assessment of Army installations; evaluate base realignment and 
closure alternatives; and develop, document, and publish base 
realignment and closure recommendations that are consistent with DOD 
and Army force structure plans, BRAC selection criteria, and the 
requirements of Public Law 101-510, as amended. The TABS Group will 
serve as the single point of contact in the Department of the Army for 
BRAC 2005 and will meet all legislatively-directed and OSD-directed 
BRAC 2005 milestones.
                                summary
    There are many examples of The Army's success in implementing BRAC 
per Congress' direction. There are also examples of the complex and 
difficult challenges associated with this unique task. We have learned 
lessons from our successes and from working through difficult and 
challenging tasks. We will build on these lessons and successes as we 
execute BRAC 2005. Our changing world requires changes to how we defend 
and secure this great country. We owe it to the young men and women to 
transform this Army to provide them the greatest opportunities for 
success as we send them into harms way. With your support and authority 
to execute BRAC 2005, The Army structure will be better configured to 
face the new challenges and our nation will be safer and more secure.
    Madam Chairman, this concludes my statement. Thank you.

    Senator Hutchison. Thank you very much, right on the 
button.
    Mr. Arny.
STATEMENT OF WAYNE ARNY, DEPUTY ASSISTANT SECRETARY OF 
            THE NAVY FOR INSTALLATIONS AND FACILITIES
    Mr. Arny. Yes, ma'am. Thank you very much. It is a pleasure 
to appear before you to discuss some of the lessons we have 
learned in the Department of the Navy over the last 15 years of 
base closure.
    As you know, my boss H.T. Johnson is now the Acting 
Secretary and sends his regrets. It is under his leadership 
that we are breaking new ground in BRAC implementation by 
adapting some old established closure methods. Having 
previously served as a base commander in the Air Force, a 
commissioner on the BRAC 1993 Commission, and later as the head 
of a local redevelopment authority (LRA) in Texas, Secretary 
Johnson brings a unique blend of experience and perspective to 
our most persistent base closure problem, the fact that BRAC 
cleanup and proper disposal costs too much and takes way too 
long.
    My written statement has a number of suggestions for 
process improvement, but let me just highlight a couple of 
them. Lesson number one: Public sale of BRAC property can be 
better than an economic development conveyance (EDC) for the 
Federal Government, the community, and the developers. That 
would seem counterintuitive to many people in the affected 
community since an EDC conveys the property for free as long as 
it can be shown to create jobs and provide economic benefit. 
Our experience has shown that in some situations the 
opportunity to get free Federal land becomes mired in 
protracted and often acrimonious local debates. There is an 
opportunity cost with each type of property disposal. An EDC 
can become an opportunity lost or at least delayed for years 
longer than a comparable private sector venture.
    By contrast, we are beginning to see that a public sale 
provides a win-win-win situation for the military, the 
community, and the developer because it puts all the parties 
involved back into their most familiar core roles. The 
community goes back to planning and managing development 
through its normal local land use and zoning authority instead 
of trying to directly manage redevelopment, a task for which 
they are often ill-suited. Once we sell the property, it gets 
on the tax rolls immediately, unlike a typical EDC where the 
community gets tax revenue only after the LRA-sponsored 
development is well under way.
    The developer, who was chosen competitively by the General 
Services Administration (GSA), provides the vision for economic 
redevelopment along with the critical financial and project 
management expertise, all within the community zoning rules. 
The developer has a financial incentive. He has to pay property 
taxes and interest on borrowed money. Thus he tends to get the 
job done more quickly and more efficiently.
    Let me point out a couple of other points that are often 
lost in the current debate. Local communities rarely own a lot 
of land. Most of the land is held privately. Local communities 
rarely develop property. It is developed by the private sector 
and the communities oversee the general plans and zoning that 
permits that development. These are the basics to which we are 
trying to return.
    The Federal Government, on the other hand, returns to its 
role as the property owner, disposing of the land to the 
highest bidder in a manner consistent with the local 
community's existing land rules. Thus we more quickly and 
completely dispose of excess property and gain in some 
measure--gain some measure of fair market value for the 
taxpayers' previous investment, which we can then apply to help 
defray the costs of environmental cleanup and other closing 
costs. The General Services Administration serves as our real 
estate broker, managing the property for us and with us on an 
equal basis to all parties.
    Most recently, we completed a property sale of 235 acres at 
the former Marine Corps Air Station in Tustin, California, in 
well under 1 year from start to final settlement. We received 
$208.5 million, which will be used to accelerate BRAC cleanup. 
We are very pleased with those results and, as you know, we are 
doing some other public sales.
    I will summarize my other lessons. We do not want to get 
bogged down in fed-to-fed transfers, which we have in the past. 
Some agencies have taken years to decide or they quickly decide 
to take a large parcel and then they back out later on.

                           prepared statement

    We need to examine how to do National Environmental Policy 
Act (NEPA) analysis for property disposal. We want to look at 
the ability to contract for firefighting and security guard 
services and ensure that our remedies are consistent with the 
previous land uses.
    Thank you very much for your attention.
    [The statement follows:]

                    Prepared Statement of Wayne Arny

    Madam Chairwoman and members of the Committee, I am Wayne Arny, 
Deputy Assistant Secretary of the Navy (Installations and Facilities). 
It is a pleasure to appear before you today to discuss the Department 
of the Navy's efforts to implement the decisions of the four rounds of 
base realignment and closure (BRAC). The first round, known as BRAC 88, 
was done under Public Law 100-526. The next three rounds, known as BRAC 
91, BRAC 93 and BRAC 95, were done under Public Law 101-510. I will 
collectively refer to these past four rounds of BRAC as Prior BRAC to 
avoid any confusion with the next scheduled round of BRAC in 2005.
    My statement will cover the Department of the Navy's Prior BRAC 
implementation process, the status of cleanup and property disposal, 
and some thoughts on improving implementation of BRAC 2005 decisions.
                   prior brac implementation process
Prior BRAC Scope
    Prior BRAC rounds resulted in 178 Navy and Marine Corps bases and 
activities designated for closure or realignment. Of those bases, 46 
were major closures, 89 were minor closures, and 43 were realignments. 
All 178 closure and realignment actions have been completed. What 
remains is environmental cleanup and property disposal.
    Significant savings begin to accrue after operational closure, 
i.e., when the mission functions of the bases cease, personnel billets 
are reassigned or eliminated, and real property maintenance 
requirements are reduced to a caretaker level. Savings fully accrue 
when we no longer must operate and maintain the property for its 
previous mission capability. At the end of fiscal year 2001, the 
Department of Navy had achieved a net savings of $6.8 billion, with an 
additional annual savings of $2.7 billion. These net savings estimates 
have been validated by several independent sources.
Navy's caretaker Responsibilities
    After operational closure, environmental cleanup and property 
disposal become the focus. To allow other commands to focus on their 
primary mission responsibilities, the Navy transferred all 
operationally closed bases to the Naval Facilities Engineering Command 
to conduct the cleanup and disposal. The Marine Corps retained 
management and funding responsibility for its two bases that were 
closed, relying on the Naval Facilities Engineering Command for program 
execution. Of these 178 Prior BRAC actions, 90 installations were 
designated for disposal.
    The Naval Facilities Engineering Command established Caretaker Site 
Offices at most closure sites. They are responsible for day-to-day 
property management and essential services, compliance of reuse 
activities with lease and regulatory requirements, and work with the 
local communities. Legislative jurisdiction is often a concern since it 
determines who is responsible for providing police, fire, and other 
regulatory services. Early retrocession of jurisdiction has proved to 
be helpful in establishing successful interim reuse activities. At 
sites where exclusive legislative jurisdiction has not changed, the 
Department of the Navy is often required to keep Federal employees on 
the payroll to provide these services.
Property disposal
    The final goal of BRAC is conveyance of the property to some other 
entity. In many respects, this has been a far more complex process than 
originally conceived. Property disposal is often closely linked to 
environmental cleanup. Although environmental cleanup actions had been 
initiated at nearly all Prior BRAC locations, most of the work had been 
to assess the location, type and severity of contamination. A few 
locations had progressed to planning cleanup remedies, however, little 
actual cleanup had been done.
    Between operational closure and conveyance, the Department of the 
Navy can facilitate reuse of the property by way of interim leases to 
the Local Redevelopment Authorities (LRAs), which then subleases 
property to private businesses. If desired by the LRA, the property can 
be conveyed incrementally when particular parcels satisfy environmental 
standards and the prospective owners accept the property.
The Federal Screening Process
    Following approval of each round of Prior BRAC, the Department of 
the Navy identifies excess property at closing activities to other 
Department of Defense components and Federal agencies through a Federal 
screening process. Other Defense components and Federal agencies can 
request \1\ all or part of the excess base closure property for their 
use. If a Federal agency expresses a timely interest in base closure 
property, the Secretary of the Navy would seek to align the Federal 
agency's request with that of the community. The Secretary of the Navy 
makes the final disposal decision. Conveyance and reuse decisions can 
experience lengthy delays when a Federal agency requests property and 
then delays or later opts not to accept it because of budgetary or 
other reasons.
---------------------------------------------------------------------------
    \1\ Per 41 CFR 101-47.203-7.
---------------------------------------------------------------------------
Economic Development Conveyances
    When the Defense Base Closure and Realignment Act of 1990 was 
enacted, Congress intended for the proceeds of property sales to help 
offset the costs of implementing base closure. The Act directed DOD to 
dispose of property in accordance with existing standard procedures, 
i.e., the Federal Property and Administrative Services Act of 1949 \2\ 
and implementing regulations.\3\ The legislative history for the 
Property Act indicates that Congress intended most property to be 
disposed by public sale to the highest bidder. Public benefit 
conveyances for less than fair market value were to be made 
``sparingly.'' \4\
---------------------------------------------------------------------------
    \2\ 40 U.S.C. 472.
    \3\ 41 CFR 101 Part 47.
    \4\ H.R. 1763, 85th Cong., 2d Session, reprinted in 1958 U.S.Code, 
Cong. & Adm. News, 2861, 1866.
---------------------------------------------------------------------------
    In 1993 the President announced a plan to help communities speed 
reuse and economic redevelopment of base closure property, and minimize 
the impact of the closure. The plan consisted of the following five 
initiatives:
  --Job-centered property disposal to put local economic redevelopment 
        first.
  --Fast-track environmental cleanup to remove needless delays while 
        protecting human health and the environment.
  --Transition coordinators located at major bases slated for closure.
  --Easy access to transition and redevelopment help for workers and 
        communities.
  --Larger economic development planning grants provided to base 
        closure communities.
    The plan gave rise to Economic Development Conveyances (EDC), which 
were authorized by Congress. The creation of EDCs represented a major 
legislative change because it gave preference to disposal of the 
property to local governments at less than fair market value instead of 
public sale to the highest bidder. Since that time, a total of 15,930 
acres of base closure property have been disposed of at no cost to 
communities through EDCs.
            local redevelopment authorities and reuse plans
    The Local Redevelopment Authority (LRA) plays a significant role in 
the base closure planning process. Members of the LRA are appointed by 
State or local governments and recognized by the Department of Defense 
as representing the voice of the community at a base closure location. 
LRAs hold public hearings and prepare a reuse plan that must balance 
the needs of the homeless people in the community, as required by law 
\5\, with efforts to stimulate economic redevelopment. They may also 
request surplus property to assist them in implementing their plan. 
Navy works with the LRA throughout this process to ensure timely 
submission of a comprehensive, feasible reuse plan.
---------------------------------------------------------------------------
    \5\ Sec. 2905(b)(7) of Public Law 101-510.
---------------------------------------------------------------------------
National Environmental Policy Act Compliance
    BRAC requires the Military Services to evaluate all reasonable 
disposal alternatives, including non-disposal, and their associated 
environmental consequences under the terms of the National 
Environmental Policy Act of 1969 (NEPA) before the property could be 
disposed. In 1996, the Congress amended \6\ BRAC to require the 
Military Departments to use the LRA's reuse plan as the preferred 
alternative in conducting our NEPA analysis.
---------------------------------------------------------------------------
    \6\ Public Law 104-106, the Fiscal Year 1996 National Defense 
Authorization Act.
---------------------------------------------------------------------------
    Under NEPA, we must also consider:
  --Environmental impact of the proposed disposal and the impacts of 
        all reasonably anticipated uses of the property;
  --Alternatives to the proposed disposal and reuse plan, including the 
        ``no-action'' alternative;
  --Adverse impacts on the environment under the Federal Endangered 
        Species Act and the Clean Water Act, and protected resources 
        such as historic buildings and archeological sites under the 
        National Historic Preservation Act;
  --Mitigation actions that would minimize adverse impacts on the 
        environment and protected resources such as historic 
        structures, wetlands, and habitats for threatened or endangered 
        species;
    If Navy cannot certify in an Environmental Analysis that there will 
be no significant impact, it must prepare an EIS. That involves a very 
detailed environmental analysis and formal public participation. At the 
end of the EIS process, the Department of the Navy issues a Record Of 
Decision concerning disposal of the base closure property. The Record 
of Decision represents a necessary element of the property conveyance 
process, since disposal and redevelopment cannot begin until it has 
been issued. This Record of Decision is separate from, and in addition 
to the Record of Decision required for environmental cleanup.
Environmental Cleanup
    The Comprehensive Environmental Response, Compensation and 
Liability Act of 1980 (CERCLA) requires the Federal Government to 
warrant that all remedial action required to protect human health and 
the environment has been taken prior to the disposal of surplus Federal 
property. It also requires that any additional remedial or corrective 
action discovered after disposal will be done by the United States. 
This statute is the legal basis for Navy's obligation to cleanup 
environmental contamination on base closure property. A Record of 
Decision, approved by environmental regulators, documents the remedy 
that will be used to perform the environmental cleanup. Reuses proposed 
by Local Redevelopment Authorities sometimes require clean ups in 
excess of what would have been conducted by Navy based on the 
historical use of the property or if the property had been sold.
Early Transfer
    In the past, CERCLA precluded Navy from conveying property to non-
Federal entities until all environmental remediation was complete or 
until an acceptable remedy approved by State and Federal environmental 
regulators was in place and operating satisfactorily. Section 334 of 
the DOD Authorization Act for fiscal year 1997 allowed the Department 
of Defense to convey base closure property before remediation is in 
place if approval was obtained from the Environmental Protection Agency 
when the property was on the National Priorities List, or from the 
State governor if the property was not on the National Priorities List.
    The Department of the Navy has used this early transfer authority 
eight times to convey to property developers approximately 9,500 acres 
about 5 years before otherwise possible. These early transfers have 
often combined the environmental cleanup with actual redevelopment, 
resulting in time and money savings to both the developer and the 
Department of the Navy.
Methods for Conveying Base Closure Property
    Two statutes govern the disposal of base closure property: the 
Federal Property and Administrative Services Act of 1949, and the BRAC 
statute which added the option of an Economic Development Conveyance 
under the Pryor Amendments of 1993. These statutes provide a way to 
transfer excess Federal property to another Department of Defense 
component or other Federal agency, and four primary ways to dispose of 
surplus Federal property to a non-Federal recipient:
  --Public sale to the highest bidder for fair market value. I will 
        note here that the highest bid must come close to the appraised 
        fair market value. If not, the disposal agency must give the 
        high bidder a chance to raise the bid to that level, or choose 
        not to complete the sale. Public sales can provide financing 
        terms for up to 10 years;
  --Negotiated sale to a State or local government when the property 
        will be used for an acceptable public purpose and the grantee 
        will pay fair market value. Such a sale is subject to review by 
        Congress. Negotiated sales can provide for financing terms for 
        up to 10 years;
  --Public benefit conveyance for less than fair market value when the 
        property will be put to a public purpose specifically 
        authorized by Congress (e.g., an airport, port, educational 
        facility, park) \7\;
---------------------------------------------------------------------------
    \7\ See for example, 40 U.S.C. 484(k) for park, education and 
public health purposes.
---------------------------------------------------------------------------
  --Economic development conveyance (EDC),\8\ for less than fair market 
        value when the LRA's reuse plan demonstrates new jobs will be 
        created by the proposed redevelopment.
---------------------------------------------------------------------------
    \8\ Sec. 2905(b)(2) of Defense Base Closure and Realignment Act.
---------------------------------------------------------------------------
    Another method of disposal is through special legislation 
authorized by Congress for a particular property. These conveyances are 
often for nominal consideration. Hunters Point Naval Shipyard and Fleet 
and Industrial Supply Center Oakland have been the subject of such 
special legislation.
    BRAC also provides two other unique disposal opportunities that so 
far have not been used by the Department of the Navy. The first is the 
ability to convey property to private parties who will undertake 
environmental cleanup.\9\ The receiving party agrees to assume 
responsibility for the cleanup. If cleanup costs less than the fair 
market value of the property, the recipient pays Navy the difference. 
The second conveyance tool is the authority to exchange BRAC property 
for the development of military family housing at another site where 
there is a need for housing.\10\
---------------------------------------------------------------------------
    \9\ Sec. 2905(b)(8)(e) of Defense Base Closure and Realignment Act.
    \10\ Sec. 2905(b)(8)(f) of Defense Base Closure and Realignment 
Act.
---------------------------------------------------------------------------
Actual Disposal
    We work closely with the LRAs as they prepare their proposed reuse 
plans for submission to us and review by the Department of Housing and 
Urban Development, who weighs the economic development aspects of the 
reuse plan with provisions for homeless people. We begin the 
environmental review required by NEPA when the LRA submits its proposed 
reuse plan. As part of the environmental impact analysis, Navy is 
required to identify and analyze measures to mitigate adverse impacts. 
Because the Navy does not control property after conveyance and the 
Navy's ability to impose land use controls is limited, most actions 
needed to mitigate adverse impacts will be the responsibility of the 
LRA. In order to ensure that mitigation measures in the Environmental 
Assessment (EA) or Environmental Impact Statement (EIS) can be 
implemented, Navy must ensure that the LRA agrees to and has the 
authority to implement the necessary actions to protect resources such 
as wetlands, threatened and endangered species, and historic and 
archeological buildings and sites.
    After the NEPA Record of Decision is issued, the Secretary of the 
Navy, after consultation with the LRA, proceeds with disposal of the 
property in accordance with the various statutory authorities. In the 
case of an EDC, the Office of the Secretary of Defense must also 
approve the conveyance. In the case of a negotiated sale, the 
conveyance must be reviewed by Congress and, as a practical matter, 
also receive the concurrence of the General Services Administration.
    In the event that a LRA requests property by a negotiated sale, we 
have an agreement with the General Services Administration that they 
manage the appraisal process. That speeds Congressional review since 
Congress routinely asks that they concur with the appraisal before 
approving the negotiated sale.
Competing Demands
    I have so far outlined the challenges in trying to dispose of base 
closure property in a manner that furthers the public interest, and as 
expeditiously as possible, within the statutory and regulatory 
framework of Federal property disposal and environmental laws. Central 
to the disposal process is the availability of adequate funding for 
environmental remediation at closed bases. We recognize that some LRAs 
and other grantees will not accept title to contaminated properties 
until the property is cleaned up. Consequently, we continue to incur 
costs associated with ownership (e.g., maintenance, protection costs) 
until cleanups are complete and approved by Federal and State 
environmental regulators.
                 prior brac cleanup and disposal status
    My boss, the Assistant Secretary of the Navy (Installations and 
Environment) testified before this Committee on 4 March 2003, and he 
provided a summary of the status of our environmental cleanup and 
property disposal efforts. I will repeat some of that information here 
as a matter of convenience along with some additional details.
    The Department of the Navy has spent a total of $2.8 billion on 
environmental efforts at Prior BRAC bases through fiscal year 2002. The 
Congress has approved an additional $258 million for fiscal year 2003. 
I would note that the State of California has 21 percent of the 
Department of the Navy's Prior BRAC bases, and has received about 42 
percent of all cleanup funds through fiscal year 2002. We estimate that 
an additional $785 million is required to complete the remaining 
cleanup, including long-term operation and monitoring of cleanup 
remedies. Current projections are to complete all cleanup actions by 
fiscal year 2016. The availability of Prior BRAC land sale revenue 
could dramatically accelerate cleanup. About 66 percent of our 
remaining cost of cleanup is at Prior BRAC bases in California. We 
expect that about 40 percent of the total Prior BRAC environmental 
funding will be spent in the San Francisco Bay area.
    As of the end of January 2003, Navy had transferred 64 of the 90 
former bases planned for disposal. A total of 425 parcels of land have 
been conveyed at these 64 bases and other bases at which only a portion 
of the base has been transferred. We will need to transfer another 196 
parcels and complete all actions on the remaining 26 bases. Our plans 
call for the transfer of 58 additional parcels, including the final 
parcels at eight more bases in fiscal year 2003, and 51 parcels, 
including the final parcels at five bases in fiscal year 2004.
                     improving brac implementation
Public Sale Is A Win-Win
    Although the EDC remains the preferred method of disposal, under 
some circumstances EDCs can be very time consuming and difficult to 
complete. When that happens, public sales have proven to be successful 
alternatives. Public sale provides a win-win situation for everyone 
because it puts all parties in their most familiar role:
  --The community plans and manages growth through local land use and 
        zoning ordinances instead of trying to manage redevelopment. 
        The property gets on the tax roles quickly. The community never 
        holds title to the land;
  --The Federal Government quickly disposes of excess property, gains 
        fair market value for the tax payers past investment in the 
        property, and can apply that revenue to defray the costs of 
        closure, realignment, and environmental cleanup. The Federal 
        Government is removed from the ill-advised role of analyzing 
        redevelopment efforts;
  --The General Services Administration becomes the real estate broker, 
        marketing the property and ensuring equal opportunity to all 
        developers;
  --The developer provides the visionary growth opportunities and fits 
        that within the community's local zoning requirements and 
        economic factors. The developer secures financing and provides 
        the project management expertise.
    The Department of the Navy public sale of 3 parcels of property 
totaling 235 acres at the former Marine Corps Air Station Tustin, CA 
brought quick resolution to long standing acrimony on reuse direction, 
generated significant revenue to pay for environmental cleanup costs, 
and will provide new jobs and economic opportunities for the community, 
while quickly bringing the property onto the community tax roles.
    Another good example is the former Army Cameron Station in 
Alexandria, VA, which was closed as part of BRAC 1988. The Army held a 
public sale of the property in 1995, and most would agree that it has 
been developed and returned to the tax rolls more rapidly than other 
property that has been conveyed to the community at no cost,
    The Department of the Navy is pursuing public sales of other Prior 
BRAC properties.
Simultaneous Redevelopment and Environmental Cleanup
    We have learned that successful cleanup and property disposal of 
large tracts of Federal property requires skillful negotiation of a 
complex mix of Federal, State and local statutes and regulations; 
Federal, State and local government skills, motivation, and 
capabilities; flexibility and innovative thought; and available funding 
to conduct the environmental cleanup. We have also found that tying 
redevelopment with actual cleanup saves time and money for both the 
developer and the Federal Government. The critical ingredient to 
simultaneous redevelopment and environmental cleanup is the 
availability of detailed studies on the nature and extent of 
environmental contamination, and the support of environmental 
regulators.
Federal Agencies Sometimes Delay or Disrupt BRAC Property Disposal
    BRAC property disposal process requires property to be screened for 
other Federal use. If another Federal Agency identifies a need for the 
property and the Navy agrees to transfer it to them, the receiving 
Federal Agency has a responsibility to accept the property within a 
reasonable time period. In several instances, receiving agencies have 
delayed acceptance of property pending completion of environmental 
remediation, even though completion of cleanup is not required for 
property transfer. In other instances, some Agencies have withdrawn 
their request for the property after a prolonged delay, thus requiring 
the disposing service to declare the property surplus years after the 
LRA has completed its outreach and reuse planning. In addition, some 
Federal Agencies have resisted taking property unless and until a 
CERCLA covenant for environmental cleanup was provided, even though 
there is no statutory requirement to do so.
NEPA Requirements for BRAC Property Disposal
    In applying NEPA to BRAC property disposal the Navy has found 
itself in the middle of disputes and legal challenges between adjoining 
government jurisdictions and different interest groups on how the 
community should proceed with reuse of the surplus Federal property, 
even though the Federal Government's ability to control future land use 
is limited. The NEPA process for BRAC property disposal can sometimes 
be time-consuming and expensive; we will continue efforts to make the 
process more efficient and enhance its value.
Contract for Fire and Security Services At BRAC Locations
    10 U.S.C. 2465 prohibits the use of appropriated funds for the 
purchase of firefighting or security-guard functions at military 
installations within the United States that were not under contract on 
September 24, 1983. At BRAC closure sites with areas of exclusive 
legislative jurisdiction, Federal employees or military members 
performed firefighting or security guard functions and the local 
government were not required to provide such services. Local 
governments have the legal obligation to provide these services in 
areas of proprietary and concurrent jurisdiction although they are 
sometimes reluctant to do so. Navy is later required to conduct 
Reduction in Force (RIF) actions to terminate employment when the 
property is disposed of or the State has agreed to a retrocession of 
exclusive jurisdiction. The ability to contract for firefighting and 
security guard functions would significantly reduce caretaker expenses.
Cleanup Standards for BRAC Property Are Sometimes Inconsistent With 
        Past Use
    Several Navy BRAC property disposals have resulted in cleanup 
actions that exceed levels that would have been implemented if DOD had 
done the clean up to a level consistent with the past and current uses 
of the property. Local communities frequently pressure the Navy to 
clean up property to a level that is inconsistent with the property's 
previous use. For example, an industrial site could be planned for 
redevelopment as a residential use or a landfill could be proposed for 
conversion to parking or storage areas.
We Can Learn From Each Other
    Each Military Department has extensive and varied experience with 
BRAC reuse and disposal. In order to share those experiences and 
expertise, and to ensure that the Department of Defense is conducting 
reuse and disposal in the most efficient and effective way possible for 
all concerned, the Office of the Secretary of Defense is forming a 
working group to examine potential improvements to the BRAC reuse and 
disposal process. The Department of the Navy supports this effort and 
looks forward to working with the other Departments and OSD.
                               conclusion
    I want to thank the Chairman and members of this committee for 
holding this hearing. I hope that I have shed some light on the 
complexities involved in environmental cleanup and property disposal of 
BRAC property. I want to ensure you that the Navy and Marine Corps 
team, from the installation level to headquarters, has been working 
very hard with regulators and communities to do a responsible 
environmental cleanup that is protective of human health and the 
environment, and to help bring BRAC property back to productive use 
through economic redevelopment. We will continue to give priority 
management attention and funding to support promising opportunities for 
early transfer of BRAC property. We will pursue other public sales of 
BRAC property when appropriate and other disposal options have not 
progressed. We will use the funds generated by the sale to accelerate 
cleanup at BRAC locations.
    That concludes my statement. I appreciate the support of each 
member of this committee, and will try to respond to any comments or 
concerns you may have.

    Senator Hutchison. Thank you, Mr. Arny. I wish we had had 
the other panel here to talk back and forth because you are so 
diametrically opposed that it is hard for us to determine which 
really works better. I mean, you make a good case, but they do 
as well.
    Mr. Arny. Well, it is fairly new, and I think you also need 
to talk to the city of Irvine some time, because they have been 
a partner with us on what will be the largest public sale any 
of us have ever done. We have 3700 acres in Orange County to 
sell and it will be done through public sale.
    Senator Hutchison. Thank you. Of course Orange County is in 
a somewhat different category from some of our bases.
    Mr. Gibbs.
STATEMENT OF HON. NELSON F. GIBBS, ASSISTANT SECRETARY 
            OF THE AIR FORCE FOR INSTALLATIONS, 
            ENVIRONMENT, AND LOGISTICS
    Mr. Gibbs. Thank you, Madam Chairman, Senator Feinstein.
    The Air Force is quite proud of the record that it has had 
in working with the Base Realignment and Closure (BRAC) through 
the first four rounds. There have been 22 closures and 19 
realignments. Over 87,000 acres will eventually be transferred 
back to the local communities. Over 60 percent of those acres 
have already been transferred and another 30 percent of them 
are currently in long-term lease so that the development can go 
forward.
    From the perspective of environmental aspects of it, we 
expect to have our last remedy in place by 2005 with the 
exception of one base, and the operating and monitoring, 
however, of that cleanup will go on for 40 years in many cases, 
with one substantive exception where the monitoring will go on 
in excess of 200 years.

                           prepared statement

    We believe it has been a success and we believe that we are 
prepared to move forward with the 2005 round for the disposal 
of properties in a very expeditious manner also.
    Thank you very much.
    [The statement follows:]

                 Prepared Statement of Nelson F. Gibbs

                              introduction
    Madam Chairman and members of the committee, good morning. I 
appreciate the opportunity to appear before you to discuss the 
Department of the Air Force Base Realignment and Closure (BRAC) 
program. Today, I will share with the committee our progress in 
transitioning the installations identified for closure or realignment 
in previous rounds of BRAC and how we are preparing to execute an 
additional round of base closures in 2005.
    One of the most effective tools we have to transform the military 
is through the BRAC process. The previous four rounds of BRAC approved 
22 Air Force installations for closure and 17 realignment actions, and 
the Air Force completed each action within its statutory deadline. We 
rationalized much of our infrastructure through the previous BRAC 
rounds--but much more needs to be accomplished. Transformation requires 
rationalizing our base structure to better match the force structure 
for the new ways of doing business.
    Congress authorized a Base Realignment and Closure in 2005 to 
accomplish this ``base transformation''. BRAC 2005 is the means for the 
Air Force to align our infrastructure to maximize warfighting 
capability efficiency, and meet the Nation's new defense strategy. 
Through BRAC 2005, we will eliminate excess capacity that drains our 
scarce resources from defense capability.
                   2005 base realignment and closure
    The Air Force views the 2005 Base Realignment and Closure process 
as a unique opportunity to reshape our infrastructure to optimize 
military readiness and to ensure we are most efficiently postured to 
meet new security challenges. In January of this year, we established a 
Basing and Infrastructure Analysis group within Headquarters Air Force. 
This office will serve as the Air Force focal point for the BRAC 2005 
process. Our major commands are following suit with creating their own 
analysis structures to support the BRAC process. As in previous rounds 
of base closures, we are establishing a Base Closure Executive Group 
(BCEG) composed of general officers and senior civilians representing a 
variety of functional areas, including those with ranges and airspace 
operational expertise. The Air Force Deputy Assistant Secretary for 
Basing and Infrastructure Analysis participates in meetings with his 
counterparts in OSD and the other services on BRAC 2005 planning issues 
and also on the composition of the joint cross service teams. The Air 
Force is also working on a building up it's BRAC 2005 staff in order to 
ensure the appropriate degree of corporate attention and expertise is 
given to this effort The Air Force leadership is committed to meeting 
the BRAC 2005 statutory deadlines and ensuring our analytical processes 
are comprehensive and auditable.
                            base conversion
    The Air Force continues to work with the local reuse authority at 
each closed and realigned bases from rounds of BRAC to minimize the 
impact on local communities from the closures. The Air Force is 
disposing of over 87,000 acres at 32 locations. Base conversion efforts 
have led to the creation of over 48,000 jobs in a variety of reuses, 
including industrial, aviation, commercial, residential and educational 
activities. Thirteen airports have been created, significantly 
contributing to the United States civil aviation system. Colleges 
expanded their operations, hospitals and senior citizen housing 
complexes developed, industrial uses ranging from biotechnology to a 
state-of-the art sawmill were created, child care centers, aircraft 
maintenance operations, hotels, restaurants--the list just goes on and 
on. The important thing is these former installations are not sitting 
idle; they are being transferred and used by communities, contributing 
to their economic redevelopment and providing valuable jobs for their 
people.
    Successful redevelopment relies on the transfer of property to the 
local communities. The Air Force has deeded almost 60 percent of our 
BRAC property. We continue to increase the amount of deeded acres for 
all rounds projecting over 70 percent of our total acreage will be 
transferred by the end of fiscal year 2003. Over 90 percent of the 
property has transitioned to reuse, either by deed or utilizing long-
term leases in furtherance of conveyance. The lease arrangement allows 
the community to use the property for economic development while we 
finish our environmental cleanup responsibilities. Once cleanup 
remedies are in place, the contract we have with the community calls 
for us to convert the lease to a deed. This has proven to be an 
extremely successful tool for transitioning property for early reuse.
                           brac environmental
    While these facilities are being returned to their respective 
communities, the Air Force has a continuing responsibility for 
environmental cleanup from past operations and industrial activities. 
The Air Force approaches this responsibility at our BRAC installations 
with the same prudent environmental stewardship as at our active 
installations.
    Since 1991, we have spent approximately $2.2 billion in 
environmental cleanup activities at our closure installations, and for 
fiscal year 2004, the Air Force is requesting $176 million to continue 
cleanup efforts. This request allocates about 70 percent for actual 
installation of cleanup systems, cleanup systems operations, and long-
term management. The Air Force projects that over $2 billion is needed 
in future years to complete our ongoing BRAC cleanup requirements. We 
look forward to working with the Congress as we meet these goals in our 
future budget submissions.
    As the Air Force moves forward with our BRAC environmental cleanup 
program, we are seeing the results of investments made over the last 
several years. Since 1999, 12 of the 30 locations that have 
environmental restoration programs have achieved last remedy in place 
(LRIP) with 9 more locations scheduled to reach LRIP this fiscal year. 
This is a significant milestone as it means all cleanup remedies are in 
place and operating successfully. While some of those systems may be in 
place for many years to come, the Air Force ensures there is no harm to 
human health or the environment during the operations process. The $176 
million requested for fiscal year 2004 will lead to six bases attaining 
LRIP in fiscal year 2004. The Air Force plans for all our bases to 
achieve LRIP status in fiscal year 2005, except McClellan Air Force 
Base, CA, which was one of our major maintenance, repair and overhaul 
centers that closed in 2001.
    Investment in more efficient contracting approaches at our closure 
installations has successfully produced faster cleanup initiatives at 
significant cost savings. For example, a privatization contract at the 
former Lowry Air Force Base, CO, will reduce our cleanup period from 28 
years to 11 years at a cost savings of $13 million. More importantly, 
it enables us to transfer the property to the local reuse authority 
prior to cleanup using an early transfer authority. The reuse authority 
actually contracts for the cleanup and works with the environmental 
regulators. We agreed up-front to a level of cleanup and negotiated a 
price based on their ability to meet our cleanup goals. This is a win-
win for both the community and the Air Force, as it gives the community 
more control over the process and it allows the Air Force to transfer 
the property. The Air Force is also pursuing the use of performance-
based contracting for its cleanup actions. Similar to privatization, we 
will identify performance goals and rather than dictating the cleanup 
remedy, we will award the contract based on a cleanup goal. The Air 
Force plans to position 20 percent of our environmental program on 
performance-based contracts this fiscal year. As a result of these 
initiatives, the Air Force BRAC environmental program has successfully 
closed 1,100 of our 1,671 environmental cleanup sites
                               challenges
    In light of our successful execution of the BRAC program, the Air 
Force continues to address important real estate and environmental 
challenges. As we prepare for BRAC 2005, the Air Force is addressing a 
key real estate issue--how to more efficiently transfer property. We 
are already looking at lessons learned from the previous rounds of BRAC 
to identify ways to improve the process so that we can improve our 
processes for transferring property and accomplishing cleanup. We think 
some of our initiatives accomplished this already, but we recognize 
there is room for improvement. Our goal is to maximize BRAC savings to 
the Department of Defense and expedite reuse.
                               conclusion
    In conclusion, we thank the committee for its support of an 
additional round of base closure in 2005 and of the Air Force's current 
Base Realignment and Closure Program. The closures and realignments of 
the previous rounds of BRAC allow us to use the savings on other Air 
Force requirements every year. With your help, we are meeting the need 
for community reuse while providing quality environmental cleanup 
efforts to ensure the protection of human health and the environment. 
We will approach BRAC 2005 with the same commitment. I will be happy to 
address any questions.

    Senator Hutchison. Thank you.

                    SALE VERSUS NON-REVENUE TRANSFER

    I would like to ask the Army and the Air Force Secretaries, 
what your view of public sale versus the non-revenue transfer 
merits are?
    Mr. Gibbs. I will pick it up first if you want.
    Senator Hutchison. Okay.
    Mr. Gibbs. The Air Force has sold in the last round 
properties which will ultimately result in approximately $70 
million of proceeds. Just under $50 million has been received. 
I think, as in many things, under a specific set of 
circumstances any one of the methods can be used most 
appropriately.
    In the case of the transfer--I would comment also, based on 
Mr. Arny's previous comment, that one of the largest delays 
that we have experienced over the years has been in dealing 
with other Federal agencies. As you know, in the waterfall 
process that we go through it basically starts there. It says 
first of all, are there other military departments that would 
want to use the land? Then it goes to other Federal agencies. 
This has been the longest delay in many instances.
    Then, moving on to the local agencies, the things that have 
caused us the greatest difficulty are where the local community 
has been unable to come to a conclusion relatively quickly as 
to what they want done with the properties. In this business, 
the longer it takes, the more difficult it becomes as positions 
become entrenched. So the speed with which we can go through 
the process will, in my opinion, enhance it, and if that would 
be through a public sale, then I personally, and I believe the 
Air Force, also, would favor that route.
    Senator Hutchison. Thank you.
    Dr. Fiori.

                     CAMERON STATION PROPERTY SALE

    Dr. Fiori. Yes, ma'am. One of our great early success 
stories in selling property was Cameron Station. Our local 
community just could not afford to assume it, even though it is 
a fairly wealthy area. We had a developer come and take it away 
and we sold it for $30 million at the time. They then met all 
the local ordinances.
    In our total sales, we have over $150 million, but none of 
these are large properties--many of our properties are 
obviously environmentally contaminated and we have had a 
difficult time with them.

                   TRANSFER TO OTHER FEDERAL AGENCIES

    Also, when we transfer our property to other Federal 
agencies, particularly the Department of the Interior, it has 
taken quite a few years. One of our recommended legislative 
corrections could easily be, let us limit the time that they 
tie up the property before we try selling it, and that would 
help us a little bit.
    The fact is I think all the BRACs from the beginning to now 
have taken a bit too long to do. By allowing us to be more 
aggressive on selling it, some of the programs which I have 
described to you which are expediting the sale of these 
properties will help. In my case, this year, I do have about 
100,000 acres out of the 140,000 remaining that I will be able 
to finally, hopefully, dispose of, and most of it is going to 
go to other agencies. It is a difficult subject.

                         ENVIRONMENTAL CLEANUP

    Senator Hutchison. Let me ask, Mr. Arny, and if either of 
you have opinions on this I would welcome those as well. That 
is, the concept that you said you do not use but is an option, 
of conveying to private parties who will undertake the 
environmental cleanup. It seems like a win-win so we would not 
keep incurring these environmental costs and that seems to be 
more expensive than the sale of the property in many instances.
    Mr. Arny. I do not know the total history on it and I will 
have to get back to you for the record. But I do not believe 
many people have approached us on that. Again, since almost 
every closure we had was through an LRA rather than directly to 
the private sector, it is my guess--and I will document it for 
the record--it is my guess that the private parties were not 
approaching the LRAs because they assumed we would do the 
cleanup in place.
    I think one of the great advances over the past few years 
has been the early transfer. We did that up at Mare Island and 
it has been very successful, because we have all our bases to 
clean up and the developer who is finally chosen by the 
community at Mare Island--Mare Island may not be number one on 
our list, but for that developer, guess what, it is number one 
for him. And using the Governor of a particular State, in this 
case the Governor of California, to adjudicate between what we 
think is the right amount of money and bringing insurance 
vehicles into place, now the community wins, because we are 
still paying for the development but we are not doing it, and 
it is now number one priority for that community. The developer 
cannot develop unless he gets it cleaned up.
    Senator Hutchison. Mr. Gibbs.
    Mr. Gibbs. We also have begun to use that mechanism. We 
entered into an agreement in Colorado where effectively, the 
cleanup is being undertaken by a private contractor. We pay for 
it, of course, but it is also backed up by insurance. This is a 
methodology that has turned out to be very effective there and 
I think we will find it being used more and more.
    We are also attempting to transfer more into performance-
based cleanups and that is in dealing principally with the 
State regulators in getting to agree on what the performance 
should be, and then it makes it much easier to do the private.
    Senator Hutchison. But you have not had experience of 
conveying with the requirement that the person who purchases or 
takes the property would do the environmental cleanup?
    Mr. Gibbs. Well, you mean take over the economic 
responsibility?
    Senator Hutchison. Yes.
    Mr. Gibbs. No, we have not, and I really would not expect 
that would be very difficult for any local to take up. One of 
the understandings is we have the responsibility to do the 
cleanup and for somebody to take that over, is a tremendous 
economic burden in many cases.
    One of the difficulties----
    Senator Hutchison. You just do not think there would be a 
market for it, is what both of you are saying.
    Mr. Arny. So far we have not seen one where they have come 
up to us.
    Mr. Gibbs. And said that they would like to actually do the 
cleanup, no. We stay behind it economically. We believe it is 
advantageous to turn it over to private companies to do and to 
manage because in many cases, as Secretary Arny says, they are 
much more focused on what needs to be done.
    Mr. Arny. I am only again guessing here, but I think that 
since, up until just recently, almost all the transfers have 
been no-cost EDCs, the more recent ones, in which case there is 
no incentive for a private sector person to come in there 
because it is going ``free'' to the local community instead of 
if it is up for public sale and the developer could make money 
off it over and above the cost of cleanup. Then perhaps there 
would be an incentive. But I will get back to you for the 
record on the history of it.
    [The information follows:]

    Section 2908 of Public Law 103-160 amended the Defense Base Closure 
and Realignment Act of 1990 (Public Law 101-510) and provided authority 
to transfer surplus property at closed bases to private parties who 
agree to perform all required environmental remediation. II This 
authority lapsed November 30, 1998. Navy did not identify any 
opportunity to use it.
    The 2002 National Defense Authorization Act restored this authority 
for closures or realignments occurring after 2001.

    Senator Hutchison. Thank you.
    Senator Feinstein.
    Senator Feinstein. Thanks very much.

                     ENVIRONMENTAL CLEANUP AT BASES

    I have three base-specific questions. The first one is on 
Hunters Point Naval Shipyard. Let me ask them together if I 
might. What is the Navy's estimated cost to complete the 
cleanup of Hunters Point and what is the budget for the current 
fiscal year and each of the next 2 fiscal years? That is the 
first.
    The second is the recent discovery of more than 100 boxes 
of previously unknown shipyard radiological documents. What do 
you expect that impact to be and will it cost more? And does 
the Navy see any remaining hurdles to moving forward with the 
conveyance agreement in the next 1 to 2 months?
    Mr. Arny. That is me. I was in a similar job in the Navy in 
the mideighties when we were wrestling with Hunters Point back 
then, so----
    Senator Feinstein. It goes on and on.
    Mr. Arny. And then I represented the Port of San Francisco 
for a while and worked for Veronica Sanchez. So I have been out 
there a lot.
    Senator Feinstein. In the mideighties?
    Mr. Arny. Yes.
    Senator Feinstein. While I was Mayor?
    Mr. Arny. Yes, ma'am, I met her back then.
    As to our cost to complete, as of this year it is $103.9 
million.
    Senator Feinstein. 129, did you say?
    Mr. Arny. $103.9 million cost to complete. The 2003 budget 
is $38 million, the 2004 budget is $24 million. I can get you 
later numbers.
    If we are successful in land sales--well, we anticipated 
$68 million of land sales for this year's budget, for 2004, and 
we have taken in more than that. We will use that money to 
accelerate cleanup.
    Senator Feinstein. How much have you taken in?
    Mr. Arny. Taken in--well, I have to take away GSA's pound 
of flesh. But we took in $208.5 million.
    Senator Feinstein. Really?
    Mr. Arny. Plus we took in--that was just on Tustin. We took 
in $15 million roughly in Key West in a negotiated sale, and 
once we are settled with a lawsuit at Oak Knoll we expect to 
take in another $10 million or so.
    Our priority on those is the money goes to the base that 
was closed or to a base--if it is a Marine base----
    Senator Feinstein. In the State?
    Mr. Arny. In the State. We have it prioritized and I can 
get you that for the record.
    Senator Feinstein. Would you?
    Mr. Arny. Yes, ma'am.
    Senator Feinstein. I would very much appreciate it.
    [The information follows:]

    We need to retain some flexibility, but any additional Prior BRAC 
land sale revenue received by the Department of the Navy beyond the $68 
million included in the fiscal year 2004 budget bill will be applied to 
accelerate cleanup and property disposal at Prior BRAC locations in the 
following general priority order.
  --The BRAC base that generated the revenue.
  --The Navy or Marine Corps military service that generated the 
        revenue.
  --DoN bases to implement an early transfer opportunity.
  --DoN bases that, with a modest infusion of additional funds, could 
        quickly complete cleanup and property disposal, thereby 
        completing actions on that base.
  --All remaining DoN bases.

    Mr. Arny. And we tend to--it is the base that was sold gets 
first priority. The service that that base was gets next 
priority, and the State--I forget where the State falls in 
there. I can get that for you, and I can get you the later 
numbers.
    Senator Feinstein. Great.
    Mr. Arny. But Hunters Point is clearly one that we would 
like to accelerate the cleanup on. Hunters Point--you talked 
about the six bases to Mr. DuBois. I would suspect that three 
of them are ours and three of them are in the San Francisco 
Bay. I would suspect they are Mare Island, Alameda, and Hunters 
Point. That is just a guess.
    Senator Feinstein. And then Alaska would be another, right? 
That would be----
    Mr. Arny. That is just huge area.
    Senator Feinstein. Right.
    Mr. Arny. It is area, not cost.
    Senator Feinstein. And the other two would be?
    Mr. Arny. McClellan maybe and--I do not know.
    Senator Feinstein. Pearl, did you say?
    Mr. Arny. No, McClellan perhaps. I am not sure.
    Mr. Gibbs. I do not know the six.
    Senator Feinstein. Well, you gentlemen will get us the six.
    Mr. Gibbs. You will get the list.
    Senator Feinstein. I appreciate that.
    Mr. Arny. As far as the boxes of material, I just got 
briefed yesterday on the HRA, Historical Radiological 
Assessment. We are working very closely with the city, as you 
know. There is a RAB meeting in 2 weeks. We will lay out ahead 
of time before the Restoration Advisory Board (RAB) with the 
city officials. The number of boxes is not quite as large as we 
thought it was, but it is still very large.
    We believe we will be ready by 1 October, I think is our 
deadline, and we have----
    Senator Feinstein. Is that for conveyance?
    Mr. Arny. No, the conveyance should be ready to go before 
then. We have separated the conveyance from--we were going to 
require the transfer of parcel A prior to conveyance. But 
because the HRA has delayed that, we are separating parcel A 
from the conveyance.
    We would, however, like the city in return for early 
conveyance, which we are ready to do, we would like them to 
take over fire and security guard service. We are paying $1 
million a year for fire and police security services. If you 
recall, the police, the San Francisco Police, are actually 
stationed at Hunters Point, but they are not to respond to 
stuff at Hunters Point.
    It is very difficult for us to hire firemen. We hire them, 
they become Federal, we train them up, and guess what, they get 
hired away by the City of San Francisco. And oh, by the way, so 
we are undermanned, our firemen respond to a fire, and the city 
also responds to the same fire.
    Senator Feinstein. I would be very happy to help with that.
    Mr. Arny. Thank you, I would appreciate that.
    Senator Feinstein. I really appreciate the work that has 
been done. So do you see any hurdles? 1 to 2 months for 
conveyance, is that about correct?
    Mr. Arny. I will have to check on the time frame. I was not 
thinking that quickly, but that could very well be the time 
frame.
    Senator Feinstein. Thank you.
    Mr. Arny. Firefighting is the only hurdle.
    Senator Feinstein. All right.

                       MC CLELLAN AIR FORCE BASE

    Secretary Gibbs, I understand that the required McClellan 
funding for 2004 is nearly $43 million and the Air Force has 
communicated to the community a commitment of $30 to $40 
million per year to be spent on remediation at McClellan over 
the next 5 years. Is that in fact correct?
    Mr. Gibbs. Yes, ma'am.
    Senator Feinstein. What is your current working estimate of 
the cost to complete the environmental cleanup at McClellan?
    Mr. Gibbs. I will give you a number----
    Senator Feinstein. And the time line.
    Mr. Gibbs. We expect that it will be about three-quarters 
of a billion dollars to complete all of the work at McClellan. 
Now, I notice that Mr. Leonard had used a number substantially 
greater than that in his estimate, so I will get back to you 
for the record specifically. I will provide you all of the 
details of the money spent to date and the amount to go.
    [The information follows:]

                             McClellan AFB
    Historical expenditures (including pre-BRAC DERA costs) for the 
environmental cleanup at McClellan Air Force Base total $402,800,000 
(includes fiscal year 2003). Our current estimated cost to complete the 
cleanup is $752,000,000 for the period fiscal year 2004 through 2034.

    Senator Feinstein. Is most of the $750 million or above 
related to the nuclear----
    Mr. Gibbs. Much of it is.
    Senator Feinstein [continuing]. Residue?
    Mr. Gibbs. Much of it is, yes, ma'am.
    Senator Feinstein. And that does not include the sewer?
    Mr. Gibbs. No, the sewer is included.
    Senator Feinstein. The sewer is included, okay. And the 
time line?
    Mr. Gibbs. The time line on the sewer is--well, there are 
discussions currently going on now with the redevelopment 
agency to see if we can rearrange the time line on that. It was 
scheduled out about 2 or 3 years from now. I do not know 
precisely when. But the agency has decided that it would prefer 
to move that up as opposed to something else. So it is a change 
in the process.

                            FORT ORD CLEANUP

    Senator Feinstein. Thank you very much.
    Dr. Fiori, the cleanup bill for Fort Ord is estimated I 
believe at $306 million. I realize that unexploded ordnance 
(UXD) is under a different account, but, given the 
concentration of UXO on Fort Ord, can you estimate the 
remaining time it will take to clean up that base and whether 
you foresee additional costs?
    Dr. Fiori. The costs are about $300 million from now until 
the end. The cleanup will not happen under the process we are 
going under today for at least another 15 to 17 years, and 
those are regulatory issues that we have to solve.
    Senator Feinstein. Let me just--you are saying the 
cleanup----
    Dr. Fiori. Of our 7,000 acres that have UXO it is going to 
take 14 years. The reason for it is, at the moment at least, at 
the present plan with the regulators of California, we are 
allowed to only burn 500 acres per year. We need to burn the 
vegetation off so we can survey the land to find the UXO. Five 
hundred into 7,000 is 14 years, ma'am.
    I am going out there and I am going to discuss this with 
Congressman Farr. Perhaps we have alternative ways to do this. 
But right now we are stuck in that regulatory climate.
    Senator Feinstein. Let me ask a couple questions. This is 
because of air pollution?
    Dr. Fiori. Yes, ma'am, the controlled burns are due to air 
pollution. They limit us to 500 acres a year. We missed this 
year as a matter of fact because the weather changed at the 
time we were going to do it, so we did not even do it this last 
calendar year.
    Senator Feinstein. Does the county want a speedier cleanup?
    Dr. Fiori. As far as I could tell at the moment, everyone 
seems to be satisfied with this except me. I would like to 
speed it up dramatically. This is my long pole in the tent of 
my remaining 40,000 acres once I get rid of my 100,000 acres 
that I plan to get rid of this year.
    But it is a regulatory issue and we are going to work on 
it. I have a task force just working Fort Ord to see what we 
could do to really expedite it and look at alternative 
technologies. But right now we literally cannot find the UXO.
    Senator Feinstein. Well, please let me know if I can be of 
help and I would be happy to.
    Dr. Fiori. I would be delighted to let you know about it, 
because it is high on our priorities, ma'am.
    Senator Feinstein. Thank you.

                      OTHER CALIFORNIA PROPERTIES

    Dr. Fiori. I do have an answer, though, about the other 
properties. A lot of them are in California.
    Senator Feinstein. Good.
    Dr. Fiori. The largest one is Honey Lake, Sierra Army 
Deport, California, 64,000 acres. I think we will be able to 
transfer that to the Department of Interior this year. So that 
is a large chunk of my 100,000. The other one, of course, is 
Fort Ord, but only 1,300 acres of my remaining 15,000 acres 
will be transferred this year. Those are the two California 
large chunks of property that we are going to try to dispose of 
this year.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Feinstein. Thank you very much.
    Thanks, Madam Chairman.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

                 Questions Submitted to Raymond DuBois

              Questions Submitted by Senator Conrad Burns

                  base realignment and closure (brac)
    Question. Please explain the deliberation process the BRAC working 
group is undergoing as it develops the initial selection criterion set 
for submission to the defense committees and the deadline for this 
submission.
    Answer. The Department will ensure that the proposed selection 
criteria meet all of the requirements of the enabling legislation and 
incorporate changes that might be needed to accommodate changing 
military missions. We intend to meet all legislatively mandated 
deadlines regarding selection criteria, beginning with publication of 
the proposed selection criteria in the Federal Register not later than 
31 December 2003.
    Question. We hear that much emphasis will be placed on 
``jointness'' as it applies to military infrastructure in the 2005 
closure round. What are you initial thoughts on what areas the 
Department will be focusing on in this area?
    Answer. In the operational and readiness mission areas, the 
Department will focus on multi-service and multi-mission basing, 
leading to enhanced inter-service training and planning opportunities 
by collocating units of various military services where it makes 
military sense to do so. The Department will also place emphasis on 
jointness in common support areas by streamlining the support 
management infrastructure. We are looking for efficiencies through 
inter-service cooperation and rationalization of support requirements.
    Question. How do you anticipate assets classified as BRAC excess 
property in 1995 being considered for realignment opportunities in the 
2005 round by the Department?
    Answer. Prior BRAC rounds identified considerable excess property 
for disposal. Unless the Department identifies a need for this 
currently excess property, we will continue with the property disposal 
process.
    Question. We understand that community economic impact may play a 
lesser role with respect to decisions made for closure or major 
realignment of a base. Can you tell us what community factors may play 
a more important role in the initial selection criteria?
    Answer. Community factors have been considered in the past and will 
be considered in the future. The specific factors that will be taken 
into account will not be identified until the proposed selection 
criteria are developed and published.
    Question. Encroachment is an issue that has been continually 
emphasized as a major concern for the Department--how do you anticipate 
this being measured by the Department as it applies to the selection 
criteria?
    Answer. In the past, encroachment has been a factor the Military 
Departments considered as a component of military value. I anticipate 
that both current and potential future encroachment issues will be 
identified and considered as a part of the installation military value 
assessments during the BRAC 2005 process.
            reduced presence in overseas base infrastructure
    Question. Do you see the possibility of a reduced presence in our 
overseas base infrastructure and, if so, does the Department anticipate 
increased basing of forces at CONUS bases? Will such a change in basing 
factor into the 2005 round?
    Answer. Since the Department is currently engaged in a review of 
our overseas presence and basing structure, it would be premature to 
speculate on any potential changes.
    However, to the extent that overseas forces are relocated to other 
overseas areas, there would be no impact on United States basing. If 
any overseas forces return to the United States, they would be 
stationed at a domestic installation. Regardless, it is important to 
note that decisions regarding overseas basing will be made in advance 
of the completion of the BRAC 2005 process. As such, BRAC 2005, which 
is on a later timeline, will factor overseas presence decisions into 
its analyses.
                  base realignment and closure (brac)
    Question. Tell us how the Nuclear Posture Review will affect the 
initial selection criteria sent to the Congress.
    Answer. The December 2001 Nuclear Posture Review (NPR) Report to 
Congress outlined a new portfolio of strategic capabilities for the 
United States. United States plans include development of new, non-
nuclear capabilities, concurrent with a reduction in the number of 
operationally deployed strategic nuclear warheads by 2012. The NPR 
report listed the planned strategic nuclear force structure for 2012 
and noted that periodic reviews of United States strategic capabilities 
would occur during the decade ahead. The BRAC force structure plan will 
reflect the most recent decisions by the Department on the strategic 
nuclear force posture, and the selection criteria will connect these 
decisions to the BRAC analysis to support the Secretary's closure and 
realignment recommendations.
    Question. What role do you see the individual services playing in 
the development of the initial selection criteria and can you give me a 
couple of examples of the kinds of themes they have discussed with OSD 
as you have moved forward in the deliberation process?
    Answer. The Department, with all of its components, will work as a 
team to develop the BRAC 2005 selection criteria. The Infrastructure 
Steering Group (ISG), chaired by the Under Secretary of Defense 
(Acquisition, Technology and Logistics), and the Infrastructure 
Executive Council (IEC), chaired by the Deputy Secretary of Defense, 
will develop the selection criteria for the Secretary's approval. 
Senior leaders from each component of the Department are represented on 
these two groups. Military value will be the primary consideration, as 
required by statute.
    Question. What different considerations will be given in the 2005 
as contrasted with the 1995 round given the new Unified Command Plan?
    Answer. The Unified Command Plan sets forth basic guidance to all 
unified combatant commanders, establishing their missions, 
responsibilities and force structure, and delineating the general 
geographic area of responsibility for geographic combatant commanders. 
One of the major differences between the 2005 BRAC round and the 1995 
round is the consideration of force structure. The BRAC Act of 1990, as 
amended, requires the 2005 round to develop a force structure plan 
based on probable threats to our national security over a 20-year 
period. The 1995 round required a force structure plan of only a 6-year 
period. To the extent the new Unified Command Plan impacts our force 
structure requirements over this extended period, those impacts will be 
considered during the 2005 BRAC analysis process.
                  impact of brac on the milcon request
    Question. How have military construction requests been affected by 
the eventuality of the upcoming base closure round?
    Answer. The 2004 request funds our highest priorities for improving 
quality of life and resolving critical readiness shortfalls, 
irrespective of BRAC. For quality of life, the military construction 
request sustains funding for family and bachelor housing and increases 
the number of housing units privatized. We increased funding for 
facilities sustainment, raising the corporate sustainment rate from 93 
to 94 percent, which will help to preserve our facilities and reduce 
the need for future, more costly revitalizations. We also preserved 
funding for recapitalization.
                  base realignment and closure (brac)
    Question. What role do you see Guard and Reserve forces playing in 
any base closure or realignment recommendations?
    Answer. As in past BRAC rounds, the Guard and Reserves will be 
fully integrated in BRAC 2005. The Department views all components as 
important participants in BRAC 2005.
    Question. How will BRAC officials ensure each base is treated 
equally in this process? Will they visit each and every installation 
they are looking to realign or close?
    Answer. The BRAC 2005 process now beginning will be a comprehensive 
analysis of all military installations with the primary goal being 
enhanced war fighting capability and efficiency. The Department will do 
everything possible to ensure the BRAC process is as fair and objective 
as possible, within a very disciplined analytical framework. All 
military installations will be reviewed and all recommendations will be 
based on approved, published selection criteria and a force structure 
plan. As required by Public Law 107-107, military value is the primary 
consideration in analyzing and making closure or realignment 
recommendations.
    The independent BRAC Commission will review the SecDef's closure 
and realignment recommendations (due to the Commission by May 16, 
2005). Commissioners will be nominated by the President in consultation 
with the Congressional leadership. In previous BRAC rounds, at least 
one Commissioner visited each site recommended for closure or 
realignment. The BRAC statute, as amended to authorize the 2005 round, 
provides that the Commission may not recommend the closure of a 
military installation not recommended for closure by the Secretary of 
Defense unless at least two Commissioners visit the installation. Upon 
completion of public hearings and deliberations, the Commission must 
forward its closure and realignment recommendations to the President 
for approval not later than September 8, 2005.
    The President must approve the recommendations (on an all-or-none 
basis) and forward them to the Congress. Upon receipt, the Congress has 
45 legislative days to vote down the Commission's recommendations on an 
all-or-none basis; otherwise they take on the force and effect of law.
    Question. Some of the BRAC goals are to eliminate excess 
infrastructure and optimize military readiness. How do the BRAC 
personnel feel this will affect our homeland security mission?
    Answer. The events of September 11, 2001, have confirmed in my mind 
that the Department must act now to review our basing requirements. We 
are looking at and experiencing different threats than we were a decade 
ago, and our forces must be stationed appropriately to respond to 
contingencies and support the Global War on Terrorism.
                         excess infrastructure
    Question. Could excess infrastructure be used for homeland security 
or to house or maintain other Federal, State, local government agencies 
that need added security since 9/11?
    Answer. Whenever the Department of Defense determines that it has 
property that is excess to its needs, that property is made available 
to other Federal agencies during the Federal screening process. If no 
Federal agency identifies a need for the property, it becomes surplus 
property and is made available for disposal outside the Federal 
Government. State and local governmental agencies may be able to 
acquire surplus property for a variety of purposes if the purpose meets 
the criteria for various public benefit conveyances under the 1949 
Federal Property Act, as amended. Additionally, State and local 
governments can negotiate to purchase surplus property if the intended 
use is for a ``public purpose'' as defined in the 1949 Act.
                  base realignment and closure (brac)
    Question. Will BRAC look closely at realigning bases and locating 
missions (from the same and other services) at bases where the primary 
missions cannot be moved? There are several States that have multiple 
military installations; will BRAC officials take into consideration the 
economic impact a closure would have on a State where there's only one 
base to those that have several bases?
    Answer. As in prior BRAC rounds, all bases will be treated equally 
and considered in BRAC 2005. BRAC 2005 selection criteria will be used 
to evaluate potential BRAC actions with Military Value selection 
criteria having primary consideration. For example, BRAC 2005 will be 
looking for opportunities to achieve economies by further developing 
multi-service and multi-mission installations.
    Regarding economic impacts on States with one base, as required by 
the BRAC enabling legislation, the selection criteria for military 
installations will also address the economic impact on existing 
communities in the vicinity of military installations. Regardless of 
the number of military installations in any given state, economic 
impact criteria will be uniformly applied.
           installations required to support missile defense
    Question. Do you see any new installations' under current or future 
plans for a missile defense?
    Answer. The Department does not have plans to add any new 
installations in support of missile defense. However, we plan to expand 
facilities at existing installations as follows:

----------------------------------------------------------------------------------------------------------------
           Fiscal year (proj #)                   Project title         Project amt              Loc
----------------------------------------------------------------------------------------------------------------
               MAJOR MILCON
 2003 (464) THAAD.........................  Test Facilities............      $23,400  PMRF, HI
                MINOR MILCON
 2002 (463)...............................  Launch Facilities..........        1,450  PMRF, HI
    FISCAL YEAR 1996-2005 RDT&E PROJECT
                 SUMMARY
 2002 (514)...............................  Site Activation Facilities.        1,900  Eareckson AB, AK
2002 (501)...............................  Missile Defense System.....      273,121  Ft Greely & Eareckson AS,
                                           Test Bed Facilities,                       AK
                                           Ph I Preparation
2002 (502)...............................  Missile Defense System,            8,200  Kodiak Island, AK
                                            Test Bed--Kodiak
                                            Facilities, Ph I.
2003 (503)...............................  Missile Defense System,          121,778  Ft Greely & Eareckson AS,
                                            Test Bed Facilities, Ph II.               AK & Beale AFB, CA
2003 (505)...............................  Missile Defense System,           14,880  Kodiak Island, AK
                                            Test Bed--Kodiak
                                            Facilities, Ph II.
----------------------------------------------------------------------------------------------------------------

               conclusions of the nuclear posture review
    Question. Another Nuclear Posture Review will occur in 2004, is 
there any present indication that this NPR changes the conclusions of 
the last NPR regarding the continued need for the long-standing triad? 
If so, how, what, when, where, and why?
    Answer. The 2001 Nuclear Posture Review (NPR) lays out the 
direction for United States strategic forces over the next five to 10 
years. The Review concluded that the United States needs to transform 
its strategic forces, from the triad of the last 45 years into a New 
Triad. The three ``legs'' of the old triad have consisted of nuclear-
armed strike forces: Intercontinental Ballistic Missiles (ICBMs), 
Submarine-Launched Ballistic Missiles (SLBMs), and nuclear-armed 
bombers. The New Triad will comprise three legs: (1) nuclear and non-
nuclear strike forces, (2) active defenses against missiles, and (3) a 
revitalized defense infrastructure. The three legs will be supported by 
robust planning, command and control, and intelligence.
    Nuclear forces, including ICBMs, SLBMs, and bombers, will 
constitute one portion of the Strike leg of the transformed New Triad--
one that is vitally important. The NPR determined that the United 
States will deploy, at least until 2012, a force of 500 ICBMs, 14 
ballistic-missile submarines (12 operational at any time), and a bomber 
force of 21 B-2s and 76 B-52s. The number of operationally deployed 
strategic nuclear warheads on these forces will decline to 3,800 in 
2007 and to 1,700-2,200 in 2012.
    There is no requirement for another Nuclear Posture Review in 2004, 
but periodic assessments are required under the Implementation Plan for 
the 2001 NPR.
    The periodic assessments will review the progress achieved in 
establishing the New Triad. The conclusions of the assessments cannot 
be predicted in advance, but the Department of Defense currently plans 
to maintain the NPR-recommended force of 500 ICBMs, 14 ballistic 
missile submarines (12 operational at any time), 21 B-2 and 76 B-52 
bombers until at least 2012.
                             icbm launchers
    Question. Will the concept of 500 ICBM launchers be maintained? If 
so, how, what, when, where, and why?
    Answer. The 2001 Nuclear Posture Review (NPR) lays out the 
direction for United States strategic forces over the next 5 to 10 
years. The President and the Secretary of Defense approved the NPR 
recommendation that the United States will deploy, at least until 2012, 
a force of 500 ICBMs.
    The force of 50 Peacekeeper ICBMs is being retired in accordance 
with the recommendations of the NPR. Accordingly, the force of 500 
ICBMs envisioned by the NPR will comprise entirely the existing force 
of Minuteman III missiles.
    There are no plans to move the Minuteman III ICBMs from their 
current locations.
                  base realignment and closure (brac)
    Question. Presuming some missions will be realigned during the next 
BRAC, what factors will be considered in the decision-making process 
regarding placement at other bases?
    Answer. Decisions will be based on the force structure plan and the 
final selection criteria, with primary consideration on military value. 
Some of the factors that could be considered are operational and 
training effectiveness and efficiencies through joint operations.
    Question. Malmstrom AFB has experienced hundreds of millions of 
dollars in construction since 1987, with additional millions to be 
spent over the next couple of years. The funds have been spent 
improving infrastructure, operational facilities (particularly along 
the flight line), housing and other facilities designed to upgrade the 
living conditions of personnel. The estimated cost to reopen the flight 
line to a new mission is estimated at $10,000,000 to $15,000,000. With 
little or no operational encroachments, great weather and significant 
available air space, what flying missions might be considered for 
placement at MAFB?
    Answer. In accordance with the requirements of the base closure 
statute, the Department will consider all military installations 
equally, without regard to whether the installation has been previously 
considered or proposed for closure or realignment by the Department. 
The attributes of Malmstrom AFB will be considered along with those of 
all other installations.
                                 ______
                                 

            Questions Submitted by Senator Dianne Feinstein

                  base realignment and closure (brac)
    Question. You and other Defense Department officials have suggested 
that the target of the 2005 BRAC round is to reduce DOD's real estate 
inventory by 20 to 25 percent. That is a very significant reduction, 
particularly at a time when the Nation is mobilizing for war. Has the 
Defense Department taken another look at its estimate of excess 
property in light of the current world crises and the build up to war?
    Answer. BRAC 2005 does not have a target in terms of either 
reducing installation capacity or in savings dollars. However, the 1998 
Report of the Department of Defense on Base Realignment and Closure 
estimated the Department has substantial excess infrastructure capacity 
(20-25 percent). Notwithstanding the indications of the 1998 report, 
specific excess capacity will be determined only after extensive 
analyses are accomplished within the BRAC 2005 process. Once these 
excesses are identified, critical considerations, like technology 
changes and transformational advances, will be factored against them to 
determine the unneeded capacities that can actually be eliminated.
    The force structure on which BRAC 2005 installation requirements 
will be based will project 20 years into the future. As in past BRAC 
rounds, BRAC 2005 will consider not only peacetime garrison 
requirements, but also requirements associated with the mobilization of 
the reserve components. While the BRAC process focuses on CONUS 
installations, the requirements of the global force will necessarily 
take into account anticipated overseas basing that is largely driven by 
international security considerations. As in prior base realignment and 
closure rounds, BRAC 2005 will retain sufficient base structure 
flexibility and capacity to accommodate unanticipated changes in 
overseas basing requirements. In sum, the Department envisions 
continuing to look at the future force and mobilization requirements, 
as well as potential CONUS beddowns of forward deployed forces.
         long term stationing of u.s. forces in central command
    Question. In your testimony, you note that the Defense Department 
is undertaking a comprehensive review of military property overseas. At 
the same time that the Department is looking at reducing the United 
States military footprint in Europe and Korea, the war on terror and 
the build up for war against Iraq have resulted in an expansion of the 
United States footprint in the Persian Gulf region.
    What does this mean in terms of the long term stationing of United 
States forces in the Central Command area of responsibility?
    Answer. The global positioning of all United States forces and 
their supporting infrastructure outside the United States is currently 
being examined by the Department of Defense. Secretary Rumsfeld has 
directed that a comprehensive and integrated presence and basing 
strategy looking out 10 years be developed and presented to him by July 
1, 2003. The strategy will provide an essential foundation for 
decisions concerning the appropriate locations and infrastructure 
necessary to execute the United States defense strategy today and in 
the future.
                  base realignment and closure (brac)
    Question. You have been quoted as saying that, for the 2005 BRAC 
round, all installations are on the table. Will there be any difference 
in the way active installations are weighted or graded versus Guard and 
reserve bases?
    Answer. All active and reserve component installations will be 
considered during BRAC 2005. They will be assessed based on enabling 
legislative guidelines, the force structure plan and approved selection 
criteria, with military value having primary consideration. In doing 
so, we will take into account the missions of reserve component 
installations. Additionally, reserve component installations often 
support units that rely upon geographic recruiting areas, a 
consideration not usually relevant to active installations.
                    economic impact of base closure
    Question. What will you do differently in the 2005 round to better 
help local communities deal with the economic impact of a base closure?
    Answer. We would like to build upon the effectiveness of the 
Defense Economic Adjustment Program (DEAP) as it assists in the 
alleviation of serious community effects that result from BRAC actions. 
As an agency whose primary responsibility is national security, the 
Department relies heavily on the domestic Federal agencies to assist 
local adjustment efforts through technical and financial support. 
Therefore, we will work through the Office of Economic Adjustment, as 
it manages the DEAP, coordinates Federal adjustment assistance, and 
assists communities to organize and respond to these impacts. Among 
activities currently being undertaken to assist communities that may be 
impacted by an 2005 round:
  --Reinvigorate the President's Economic Adjustment Committee (EAC) to 
        expand its purview to address certain regulatory issues and 
        update its membership to include all Federal agencies with 
        programs that can assist local economic recovery.
  --Review activities that may be undertaken today to assist a 
        community where a substantial portion of the economic activity 
        or population of a community is dependent on defense 
        expenditures. On the basis of this effort we anticipate the 
        publication of a Notice of Funding Availability for communities 
        that would like to proactively engage in economic 
        diversification planning.
    When Secretary Rumsfeld makes his recommendations for base 
realignment and closure public in May 2005, the Defense Office of 
Economic Adjustment (OEA), will be prepared to provide responsive 
assistance for those communities that want to begin the base reuse 
planning process.
                       property transfer process
    Question. In your opinion, what property transfer process best 
allows for communities to succeed in transforming a military 
installation?
    Answer. There is tremendous variability in the type of facility, 
geographic location, private investment rates, unemployment levels, and 
other economic strengths and weaknesses at each BRAC location that 
directly affect opportunities for civilian reuse. In addressing this 
variability, and recognizing the uneven capacities of the private and 
public sectors at each of these locations, the Department needs 
flexibility in determining a responsive mix of disposal authorities to 
support a community's particular resources. Existing Federal property 
disposal laws provide for an array of methods to dispose of surplus 
property ranging from the transfer of property to another Federal 
entity, through opportunities for discounted conveyance for public 
purposes, to competitive bid sales.
                            lessons learned
    Question. Does the DOD plan to work with communities before and 
after lists are published to provide ``Lessons Learned'' from past 
rounds?
    Answer. The DOD Office of Economic Adjustment (OEA) is available to 
discuss civilian reuse experiences from prior base realignment and 
closures. This information is available on a web site (http://
www.acq.osd.mil/oea) with links to several current base reuse 
locations, through many publications offering guidance and lessons 
learned information, and direct staff contact. There are also links 
from the web site to other Federal agencies and NGO organizations, such 
as the International City Managers Association, and the National 
Association of Installation Developers, that also have documents with 
lessons learned. This information will continue to be kept current with 
the best practices as we approach and implement BRAC 2005.
                              brac cleanup
    Question. In the 2005 BRAC round, DOD needs a better environmental 
assessment of property and a better estimate of environmental 
remediation costs upfront so we know from the outset what the problems 
are and what the cleanup costs are likely to be. How do you plan to 
achieve these standards--and to accomplish cleanup in a reasonable time 
period?
    Answer. The Department of Defense (DOD) is currently addressing 
sites on its active, closing, and realigning installations with 
potential contamination under the Defense Environmental Response 
Program (DERP). Sites subject to a future BRAC round already have the 
majority of required environmental restoration underway and are 
currently subject to DERP program management goals. These sites are 
included in DOD's current site inventory along with cleanup phase, 
costs incurred to date, and cost-to-complete information. Detailed site 
and installation-specific information regarding the status of cleanup 
is maintained at the installation and documented in the installation's 
Management Action Plan. Once the closure process begins, the Services 
and regulators may identify additional requirements as investigations 
progress potentially increasing costs.
    Additionally, DOD has undertaken an extensive, Department-wide 
effort to ensure accurate, reliable, and timely financial information, 
is available on a routine basis to support informed decision-making at 
all levels throughout the Department. Established in July 2002, the 
Financial Management Modernization Program (FMMP) is intended to 
develop a DOD-wide enterprise architecture and transition plan designed 
to transform the Defense business operations and technical 
infrastructure. The scope of this initiative encompasses those defense 
policies, processes, people, and systems, which guide, perform, or 
support all aspects of financial management within the Department, from 
the formulation of budget estimates to the preparation of management 
reports and financial statements. Specific to the DERP, the Office of 
the Assistant Deputy Under Secretary of Defense for Environment 
(OADUSD(E)) is working to align its Restoration Management Information 
System (RMIS), as well as the DOD Component's data systems that feed 
the RMIS, with the DOD-wide Financial Management Enterprise 
Architecture. Additionally, the OADUSD(E) has directed the Components 
to eliminate serious deficiencies with the preparation and 
documentation cost-to-complete estimates and material weaknesses in the 
annual financial statements. Component cost-to-complete estimates and 
the values in the annual financial statements for environmental 
restoration must be consistent with each other and able to withstand an 
audit. In summary, these DOD-wide and DERP-specific initiatives to 
improve financial management and reporting will facilitate DOD's 
development of accurate, supportable environmental remediation cost 
estimates.
    To ensure cleanup is accomplished in a reasonable time frame, 
OADUSD(E) will be working with the Components to develop goals and 
metrics for the 2005 BRAC round. ODUSD(E) will closely oversee 
Component progress using such tools as regular In-Progress Reviews.
                              brac budget
    Question. Given the magnitude of the outstanding cleanup costs from 
the prior BRAC rounds--an estimated $3.5 billion will needed to 
complete cleanup assuming there are no more surprises out there--why 
did the Defense Department reduce the fiscal year 2004 BRAC budget 
request by 34 percent?
    Answer. The fiscal year 2004 budget request for the total fiscal 
year 2004 BRAC program (including environmental and caretaker costs) 
represents a 34 percent reduction from fiscal year 2003. When 
considering BRAC environmental costs only, the planned value of the 
fiscal year 2004 program ($412.0 million) represents a 24 percent 
reduction from fiscal year 2003 ($540.2 million). A significant portion 
of the difference is attributed to revenues anticipated from land sales 
of base closure properties, thus reducing the fiscal year 2004 budget 
request.
    Question. What are your projections for the out years--are you 
planning increases or further decreases in the BRAC environmental 
remediation budget requests?
    Answer. The President's budget will support the goal of remedies in 
place by fiscal year 2005. As the requirements decrease, the budget 
will decrease. A substantial level of total BRAC environmental 
requirements will remain beyond the current FYDP because many of the 
BRAC sites are still in the study phase and that a greater range of 
contaminants may be considered in the cleanup process leading to 
transfer of properties to communities. The Department recognizes the 
inherent advantages of transferring properties as soon as possible and 
fully funds cleanup of all properties with identified schedules for 
transfer.
             status of excess acreage at six installations
    Question. Could you identify those 6 installations and tell the 
Committee the estimated cost and cleanup time line for each of them?
    Answer. The six installations are: Adak Naval Air Station, Alaska; 
Fort McClellan, Alabama; Fort Ord, California; Fort Wingate, New 
Mexico; Savanna Depot Activity, Illinois; and Sierra Army Depot, 
California. These six installations have some sites where remediation 
under the Comprehensive Environmental Response, Compensation and 
Liability Act (CERCLA) remains to be completed. Though there are 
exceptions, generally remediation under CERCLA has to be completed 
before property can be transferred to a non-Federal entity. Through 
fiscal year 2002, the Department spent approximately $697 million on 
remediation at these six installations; we estimate the remaining 
environmental cost-to-complete, including environmental remediation, at 
these six installations to be approximately $635 million. Additional 
information on acreage, funding, and environmental remediation 
associated with each installation is shown in the table.

  
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                 Environmental   Environmental
                                                                    Acreage         Acreage      Acreage with      Projected      Remediation     fiscal year
                 Installations                   Excess Acres    Suitable for   Transferred to      CERCLA       Final Cleanup   Expenditures       2003 to                 Comments
                                                                Transfer Under     Date \2\     Activities \3\    Remedy \4\    through fiscal    Completion
                                                                  CERCLA \1\                                                     year 2002 \5\    Funding \6\
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
ADAK NAS, ALASKA..............................          72,600       57,600.00            0.00       15,000.00            2008        $209,282         $50,680  Remedy selection for petroleum
                                                                                                                                                                 sites has been delayed due to
                                                                                                                                                                 negotiations with regulatory
                                                                                                                                                                 agencies to consider risk based
                                                                                                                                                                 approach to cleanup decisions
                                                                                                                                                                 for these sites. Major
                                                                                                                                                                 remaining obstacle to airfield
                                                                                                                                                                 conveyance is future funding
                                                                                                                                                                 for the airfield after transfer
                                                                                                                                                                 from Navy.
FORT MCCLELLAN, ALABAMA.......................          18,232       17,789.26        4,953.00          442.74            2011          92,873         126,352  Primary issues relate to complex
                                                                                                                                                                 unexploded ordnance activities.
                                                                                                                                                                 Army is planning on early
                                                                                                                                                                 transfers in fiscal year 2003
                                                                                                                                                                 and fiscal year 2004, with the
                                                                                                                                                                 LRA assuming cleanup
                                                                                                                                                                 responsibilities, including
                                                                                                                                                                 UXO. With this early transfer
                                                                                                                                                                 approach, not only will the LRA
                                                                                                                                                                 be able be able to control and
                                                                                                                                                                 integrate both re-development
                                                                                                                                                                 and cleanup, but the cleanup
                                                                                                                                                                 may be completed sooner.
FORT ORD, CALIFORNIA..........................          27,015        3,062.00       11,466.00       23,953.00            2011         261,168         305,755  Primary issues relate to complex
                                                                                                                                                                 unexploded ordnance activities,
                                                                                                                                                                 especially with limitations
                                                                                                                                                                 placed by chaparral habitat
                                                                                                                                                                 management plan.
FORT WINGATE, NEW MEXICO......................          21,881       21,829.00        5,429.00           52.00            2010          33,647          16,047  Army is working with the State
                                                                                                                                                                 of New Mexico on environmental
                                                                                                                                                                 issues related to OB/OD closure
                                                                                                                                                                 on the latter transfer parcel.
                                                                                                                                                                 Army currently in negotiations
                                                                                                                                                                 for fiscal year 2003 transfer
                                                                                                                                                                 of about 8,300 acres to DOI.
                                                                                                                                                                 Remaining acreage (about 8,100)
                                                                                                                                                                 planned for transfer after
                                                                                                                                                                 fiscal year 2007.
SAVANNA DEPOT ACTIVITY, ILLINOIS..............          12,606       11,821.00            0.00          785.00            2015          93,846         135,074  Complex cleanup issues related
                                                                                                                                                                 to unexploded ordnance,
                                                                                                                                                                 potential chemical warfare
                                                                                                                                                                 material, and groundwater. The
                                                                                                                                                                 Strategic Management Analysis
                                                                                                                                                                 and Requirements Team [SMART]
                                                                                                                                                                 team is working actively to
                                                                                                                                                                 expedite cleanup. Most of the
                                                                                                                                                                 property can transfer at any
                                                                                                                                                                 time by mutual agreement with
                                                                                                                                                                 DOI. Army and DOI are
                                                                                                                                                                 negotiating planned transfers.
SIERRA ARMY DEPOT, CALIFORNIA.................          64,996       64,996.00          663.00            0.00            2000           6,467           1,523  Army anticipates getting
                                                                                                                                                                 remaining MMRP work completed
                                                                                                                                                                 in fiscal year 2003. Army is
                                                                                                                                                                 intending on having property
                                                                                                                                                                 ready to revert to California
                                                                                                                                                                 in fiscal year 2003. Listing of
                                                                                                                                                                 Carson Wandering Skipper
                                                                                                                                                                 (butterfly) under ESA may
                                                                                                                                                                 impede property transfer.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Cleanup actions either completed or not required to satisfy CERCLA requirements for transfer to a non-Federal entity. Some of the acreage may have Military Munitions Response Program
  activities (e.g., unexploded ordnance clean up). Information as of September 30, 2002.
\2\ Includes property transfers to Federal and non-Federal entities, as well as long-term leases such as Lease in Furtherance of Conveyance. Information as of December 31, 2002.
\3\ Cleanup actions or further information needed to satisfy CERCLA requirements for transfer to a non-Federal entity. Note cleanup actions are taken on discrete cleanup sites within the
  listed acreage. Some of the acreage may also have Military Munitions Response Program activities (e.g., unexploded ordnance clean up). The property can be transferred to other Federal
  Agencies or can be transferred to a non-Federal entity through use of CERCLA's Early Transfer Authority. This property can also be put into reuse by non-Federal entities through a lease.
  Information as of September 30, 2002.
\4\ Projected date of having a final BRAC cleanup site at the installation having a remedy-in-place or response complete with respect to hazardous substances. This means that cleanup actions
  have been taken to satisfy CERCLA requirements for property transfer to a non-Federal entity. Information as of September 30, 2002.
\5\ Environmental remediation (traditional CERCLA-type Installation Restoration Program cleanup and Military Munitions Response Program cleanup) project costs through end of fiscal year 2002.
  Information as of September 30, 2002.
\6\ Includes environmental remediation (traditional CERCLA-type cleanup and Military Munitions Response Program cleanup) and environmental compliance costs. Information as of September 31,
  2002.
 ESA=Endangered Species Act.
IRP=Installation Restoration Program; e.g., hazardous substances.
LRA=Local Redevelopment Authority.
MMRP=Military Munitions Response Program; e.g., unexploded ordnance.
UXO=Unexploded Ordnance

                   remaining closed bases to transfer
    Question. How many closed military bases remain to be transferred 
to the local community?
    Answer. Overall, there were 387 major and minor base closures and 
realignment actions in the four rounds of BRAC. Of this total, 82 
installations have property remaining to be transferred to other 
Federal agencies and eligible recipients, including local communities. 
The parcels range in size from 4 acres to 72,600 acres. As reported 
separately, 82 percent of this property (in acres) is at 6 
installations. However, in many instances these properties are already 
being used to develop new community jobs through interim leases, 
pending final transfer.
                  base realignment and closure (brac)
    Question. What is the cost to the government for maintaining closed 
military properties that haven't been transferred?
    Answer. The Department continues to dispose of surplus property 
associated with former BRAC locations as quickly as possible. Costs for 
maintaining closed military properties that have not been transferred 
fall into the operations and maintenance category, such as providing a 
level of maintenance to keep facilities from being damaged by weather, 
cutting the grass and maintaining security. In fiscal year 2002, those 
costs approximated $70 million, and have decreased to $60 million in 
2003 and $48 million in the 2004 budget request. These costs will 
continue to decrease as more BRAC property is transferred out of the 
Department's inventory.
     department's potential liability for perchlorate contamination
    Question. How would you respond to Mr. Lowry and Mr. Salazar's 
concerns? Can you assure me that your proposed amendments will have 
absolutely no effect on the Department's potential liability for 
perchlorate contamination?
    Answer. The Department revised the legislative language of our 
proposed Readiness and Range Preservation Initiative (RRPI) before 
submitting it to Congress this year to address some of the concerns 
expressed by State officials last year with respect to closed ranges. 
In addition, the Department has worked with the U.S. Environmental 
Protection Agency (EPA) subsequent to submission of our legislation 
specifically to address further concerns expressed by these and other 
State officials about closed ranges and contractor activities and 
facilities. We have submitted these revisions through DOD testimony 
offered before the Readiness Subcommittee of the Senate Armed Services 
Committee on April 1, 2003, and the Senate Environment and Public Works 
Committee on April 2, 2003.
    These revisions make even clearer that our legislation will not 
alter the Department's legal obligations or responsibilities with 
respect to our closed ranges or ranges that close in the future, or 
with respect to our contractors. Moreover, our legislation also does 
not alter the Department's obligations under the Safe Drinking Water 
Act even with respect to operational ranges. Our legislation provides 
that the Department will be liable for cleanup under the Resource 
Conservation and Recovery Act (RCRA) of munitions fragments or 
constituents that migrate off an operational range if they create an 
imminent and substantial endangerment and are not being addressed under 
the Comprehensive Environmental Response, Compensation, and Liability 
Act (CERCLA). Finally, the Department's legislation does not seek to 
change the liability or cost recovery provisions of CERCLA.
    Thus, enactment of our range proposals would have no effect on the 
Department's potential liability for perchlorate contamination. The 
RCRA and CERCLA provisions would affect the timing of cleanup 
activities on operational ranges, deferring cleanup on them until they 
closed, in the absence of off-range migration.
    Question. Can you assure me that your proposed amendments will have 
absolutely no effect on the Department's potential liability for 
perchlorate contamination, and if this is correct, explain why?
    Answer. Our legislation will not alter the Department's legal 
obligations or responsibilities with respect to our closed ranges or 
ranges that close in the future, or with respect to our contractors. 
Moreover, our legislation also does not alter the Department's 
obligations under the Safe Drinking Water Act even with respect to 
operational ranges. Our legislation provides that the Department will 
be liable for cleanup under the Resource Conservation and Recovery Act 
(RCRA) of munitions fragments or constituents that migrate off an 
operational range if they may create an imminent and substantial 
endangerment and are not being addressed under the Comprehensive 
Environmental Response, Compensation, and Liability Act (CERCLA). 
Finally, the Department's legislation does not seek to change the 
liability or cost recovery provisions of CERCLA.
    Thus, enactment of our range proposals would have no effect on the 
Department's potential liability for perchlorate contamination. The 
RCRA and CERCLA provisions would affect the timing of cleanup 
activities on operational ranges, deferring cleanup on them until they 
closed, in the absence of off-range migration.
             national academy of sciences perchlorate study
    Question. Can you assure me that the NAS study will rigorously 
examine potential health effects on children, which many believe occur 
at low levels of perchlorate exposure?
    Answer. EPA has decided, with the full support and in partnership 
with the Department and other Federal agencies, to submit perchlorate 
health science issues to the National Academy of Sciences (NAS) to 
resolve several underlying scientific questions about perchlorate 
toxicity and risk. We, along with EPA and others, expect the NAS study 
will be a complete, thorough, and vigorous independent review that will 
answer these substantial scientific uncertainties including the effect 
of perchlorate on sensitive subpopulations, which may include children.
    Question. How would you address the concerns some have expressed 
that an NAS panel on perchlorate might be biased in favor of industry's 
perspective?
    Answer. As this will be a review conducted by the National Academy 
of Sciences (NAS), the NAS--not the Department, EPA, or industry--will 
be selecting panel members for the study. The Department's expectation 
is that the review will be an open and transparent independent 
scientific review that will answer the underlying scientific questions 
about perchlorate toxicity and risk.
                         early transfer process
    Question. Could the BRAC early transfer process be streamlined?
    Answer. The Department is establishing a Property Reuse and 
Disposal working group that will be considering ways to improve the 
entire BRAC property disposal and reuse process, including early 
transfer.
                 integrating cleanup with redevelopment
    Question. Is it more cost effective to accomplish environmental 
cleanup in conjunction with the redevelopment of the property?
    Answer. Integrating cleanup with redevelopment can increase 
efficiency, saving time and money for both the community and DOD. These 
savings can be even more dramatic if the redevelopment is consistent 
with DOD's prior land uses. This is especially true for base-reuse 
parcels where financially feasible redevelopment is ready to happen 
with redevelopers and end-users anxious to proceed. For example, under 
a traditional property transfer approach, DOD may remove soil 
contamination by physically digging a ditch, treating the soil, and 
then replacing the treated soil. Later, a developer may excavate the 
site to build the foundation for a building, install utilities, or 
change elevations to support redevelopment, again removing the soil. If 
these activities were integrated the soil could be removed and shipped 
off-site for treatment or disposal while the redevelopment is ongoing, 
eliminating the unnecessary step of replacing and again removing the 
soil. By integrating cleanup and redevelopment, four important outcomes 
can be realized:
  --Cleanup is only done once and it is done to the appropriate levels 
        for reuse
  --Property will be reused much faster, benefiting the local community 
        by creating new jobs, generating revenue, and putting Federal 
        property back on the local tax rolls much earlier.
  --DOD is removed from the business of managing property. By divesting 
        the property sooner, DOD reduces expenses associated with 
        maintaining the property. Earlier deed transfer also reduces 
        DOD's landlord responsibilities and liability as a Federal 
        property owner. Earlier transfer may also eliminate some 
        restrictions on the use of the property.
  --Significant cost savings can be realized for both DOD and the 
        redeveloper. Integrating land use planning and site remediation 
        decisions early in the remedial process and matching the remedy 
        with reuse can save money and time for all parties involved.
                      reuse plan & control zoning
    Question. Local communities generally have difficulty assuming the 
financial burden of BRAC properties. If local communities create a 
reuse plan and control zoning, could the Department advertise and sell 
the property to the private sector in accordance with their plan and 
zoning?
    Answer. Yes. There are several factors that contribute to the 
Department's ability to dispose of property through a competitive sale 
and the speed at which this could be accomplished. An adopted reuse 
plan which then is incorporated into local general plans and zoning is 
certainly critical to establishing a property's highest and best use 
for potential buyers. This also helps to minimize uncertainty in the 
marketplace where buyers may otherwise hesitate or discount their 
willingness to pay until the final use for available property is 
negotiated. Another complicating factor may be the manner in which 
communities confer development rights. Many communities confer 
development rights to the private sector in exchange for the 
construction of other ``public improvements,'' such as schools, roads, 
parkland/open space, etc. In such instances, it is incumbent for the 
community to identify as early as possible the activities or costs that 
would be the responsibility of the developer to assist the effort. 
Lastly, care must be taken to ensure there is a realistic way to 
redevelop property where a viable market may not presently exist. In 
these situations the community or another ``public'' body is often 
tasked to redevelop property that is unable to attract sufficient 
private investment. Thus, the parceling of the property becomes a 
significant issue, particularly if the community is likely to be left 
with the least marketable property.
                      property reuse and disposal
    Question. Should Federal agencies that claim BRAC property be given 
a finite time period to assume control of the property?
    Answer. The Department is establishing a Property Reuse and 
Disposal working group that will be considering ways to improve the 
entire BRAC property disposal and reuse process. This issue will be 
examined in that context.
                                 ______
                                 

               Questions Submitted to Dr. Mario P. Fiori

            Questions Submitted by Senator Dianne Feinstein

                       brac environmental cleanup
    Question. The Army's fiscal year 2004 BRAC budget request is $66.4 
million, a 56 percent reduction from fiscal year 2003. How much money 
above the budget request could the Army execute in fiscal year 2004 to 
expedite its BRAC cleanup program?
    Answer. The fiscal year 2004 budget request of $66.4 million 
includes $57.3 million for environmental cleanup and allows us to 
achieve our restoration and disposal goals, within Army priorities, and 
in support of community reuse of the remaining BRAC installations. The 
funds requested are appropriate for BRAC cleanup within Army priorities 
for fiscal year 2004.
    Question. Did you request a higher level of funding from the 
Defense Department? (If so, what happened; If not, why not?)
    Answer. No. The Department of Defense supported the Army's request 
for BRAC funding in fiscal year 2004. The Army's BRAC budget request of 
$66.4 million was the correct amount for this program within Army and 
Defense priorities.
    Question. Could the BRAC early transfer process be streamlined? Is 
it more cost effective to accomplish the environmental cleanup in 
conjunction with the redevelopment of the property?
    Answer. The best way to streamline the early transfer process is to 
establish timelines for property conveyance in the public sector 
resulting from the screening process and Public Benefit and Economic 
Development Conveyances. The Department could then make properties 
available for public sale. When appropriate, an option would be early 
transfer with the price discounted by the value of the remaining 
cleanup. The Army has conveyed several properties early in conjunction 
with a cooperative agreement for the community to complete the 
remaining cleanup. Integrating cleanup with redevelopment resulted in 
efficiencies and cost savings. Bayonne Military Ocean Terminal, NJ, 
Fitzsimons Army Medical Center, CO and Oakland Army Base, CA are 
examples in the Army's experience to date.
                              local reuse
    Question. Local communities generally have difficulty assuming the 
financial burden of BRAC properties. If local communities create a 
reuse plan and control zoning, could the Department advertise and sell 
the property to the private sector in accordance with their plan and 
zoning?
    Answer. This scenario is more in line with the traditional roles of 
local governments. The Department could work with local communities to 
define reuse through reuse planning and zoning, and then market the 
properties within those established parameters.
    Question. Should Federal agencies that claim BRAC property be given 
a finite time period to assume control of the property?
    Answer. Yes. Our experience from the first four BRAC rounds 
indicates that when other Federal agencies claim BRAC properties, in 
some cases they take years to take control of the property. The 
responsibility for cleanup of any Defense generated contamination 
should remain with the Defense Department, but transfer to another 
Federal agency should occur shortly after they claim the property.
                                 ______
                                 

                 Questions Submitted to Nelson F. Gibbs

              Questions Submitted by Senator Conrad Burns

                        brac selection criteria
    Question. Encroachment is an issue that has been continually 
emphasized as a major concern for the Department--how do you anticipate 
this being measured by the Department as it applies to the selection 
criteria?
    Answer. Until the Secretary of Defense (SECDEF) promulgates the 
selection criteria DOD and the services must use in making 
recommendations for the closure and realignment of military 
installations in 2005 it would be premature to speculate how DOD will 
measure encroachment as it applies to the selection criteria. The law 
requires the SECDEF to propose these criteria not later than December 
31, 2003, and finalize them by February 16, 2004 (Section 2913(a) and 
(b) of the Defense Base Closure and Realignment Act). The law does 
specify that the selection criteria must address, at a minimum, several 
factors, to include ``The ability of both existing and potential 
receiving communities' infrastructure to support forces, missions, and 
personnel'' and the cost impact of environmental compliance activities. 
Once these criteria are finalized by the SECDEF, the role of 
encroachment related factors in the recommendation process should be 
clarified.
                           new installations
    Question. Do you see any new installation's under current or future 
plans for a missile defense?
    Answer. The Air Force has no current plans to build new 
installations to support deployment of the Ballistic Missile Defense 
System (BMDS) that is under research and development with the Missile 
Defense Agency (MDA).
    The Missile Defense Agency should be able to provide more insight 
into required installations/MILCON to meet BMDS requirements.
                            base realignment
    Question. Will BRAC look closely at realigning bases and locating 
missions (from the same and other services) at bases where the primary 
missions cannot be moved?
    Answer. The Defense Base Closure and Realignment Act, as revised by 
the fiscal year 2002 National Defense Authorization Act to provide for 
the 2005 round of closure and realignment recommendations, specifically 
requires the Secretary of Defense (SECDEF), in making his 
determinations of levels of necessary versus excess infrastructure, to 
consider efficiencies to be gained from joint service tenancy at 
military installations (Section 2912(a)(3)(B)). The selection criteria 
that SECDEF is directed by law to develop to make recommendations for 
closure and realignment of military installations must ensure that 
military value is the primary consideration, and that military value 
must include at a minimum several specified factors, to include ``The 
impact on joint warfighting, training, and readiness.'' (Section 
2913(b)(4)). It will not be until the SECDEF proposes these selection 
criteria by December 31,2003 and finalizes them by February 16, 2004, 
that we will be able to describe the exact role joint service tenancy 
will play in the closure and realignment recommendation process. 
Certainly to the extent an installation is not closed, it may be 
considered as a gaining installation for both same and other service 
missions closed and/or realigned from other installations, in 
accordance with the promulgated recommendation selection criteria.
                              base closure
    Question. How have military construction requests been affected by 
the eventuality of the upcoming base closure round?
    Answer. The Air Force's military construction request is in no way 
affected by the eventuality of the upcoming base closure round. We did 
not consider the upcoming base closure round when developing our fiscal 
year 2004 military construction request, nor did we receive any 
guidance suggesting we do so.
    Furthermore, our out-year military construction programs are 
comprised entirely of validated requirements at existing Air Force 
installations. No parts of those programs are ``reserved'' for any 
requirements related to yet-to-be-determined base closure or 
realignment activities.
                                 ______
                                 

            Questions Submitted by Senator Dianne Feinstein

                      brac environmental clean up
    Question. The Air Force fiscal year 2004 request for BRAC 
environmental remediation and caretaker costs is $198.7 million. It is 
my understanding that the Air Force could execute significantly more 
funding in fiscal year 2004. According to my information, the Air Force 
could execute nearly $65 million in environmental clean up on top of 
the budget request. Is this also your understanding?
    Answer. The fiscal year 2004 Air Force request for BRAC 
environmental remediation and caretaker costs is $200.7 million. The 
Air Force could execute $65 million in environmental clean up on top of 
the budget request.
    Question. Did you seek a higher level of funding for BRAC 
environmental remediation in your budget submission to the Office of 
Secretary of Defense? If so, what happened? If not, why not?
    Answer. No. The Office of Secretary of Defense supported full 
funding of our fiscal year 2004 budget submission for BRAC 
environmental remediation.
    Question. Would additional funding help to expedite the Air Force 
BRAC environmental clean up program?
    Answer. While the fiscal year 2004 request reflects our 
requirements additional funding would allow us the opportunity to 
expedite cleanup requirements currently planned for future years.
    Question. What impact would additional funding have on 
installations in California, such as McClellan?
    Answer. While the Air Force is fully funded in fiscal year 2004 at 
McClellan and the other five California BRAC installations, we have 
requirements which currently would be addressed in fiscal year 2005/
2006. Additional funding would allow us to execute these requirements 
in fiscal year 2004 without negatively impacting the reuse or cleanup 
schedule.
    Additionally, we are pursuing process improvements that will have 
significant and positive impacts to the cleanup costs and schedules for 
our bases. These improvements include cleanup system optimization to 
reduce long term operating costs. We are also working cooperatively 
with the California regulatory agencies to streamline the document 
requirements and review processes.
    Question. It appears that the Navy has some assurance from the 
Department that it will be able to return proceeds from property sales 
into its BRAC environmental cleanup account. The Air Force has realized 
total proceeds of $58.4 million to date as a result of property sales 
and expects an additional $27.5 million. Does the Air Force have the 
same assurances that any proceeds realized from property sales will be 
returned to the BRAC cleanup account?
    Answer. Section 2906(d) of Public Law 101-510, as amended (10 
U.S.C. 2687, note) provides for the recovery of the depreciated value 
of Defense Commissary Agency (DeCA) or Non Appropriated Fund (NAF) 
investment in real property impacted by Base Realignment and Closure 
(BRAC) actions. Therefore, any proceeds realized from the sale or lease 
of BRAC property will be first paid to this account. After the 
unrecovered depreciated value has been recovered for the BRAC 
installation, all proceeds received will then be paid the BRAC account, 
at which time we would request the proceeds be available for 
environmental cleanup.
    Question. Could the BRAC early transfer process be streamlined?
    Answer. Yes. The early transfer authority has worked well for us in 
cases where the local reuse authority requests the early transfer. An 
improvement to the process would be to allow the Department to initiate 
and request the early transfer authority by making early transfer a 
condition of the transaction.
    Question. Is it more cost effective to accomplish environmental 
cleanup in conjunction with the redevelopment of the property?
    Answer. Yes. The Air Force's experience is that closely integrated 
redevelopment and environmental cleanup is more cost effective. The Air 
Force has worked with its BRAC communities to understand and align our 
joint priorities to achieve these efficiencies. A notable example was 
the conversion of Bergstrom Air Force Base, Texas to the Bergstrom 
International Airport, where we identified synergies between the Air 
Force cleanup program and the Airport construction plan so that the 
conversion occurred within budget and on schedule. Additionally, the 
Air Force maximizes its flexibility to customize the redevelopment and 
cleanup integration. We successfully integrated the cleanup and 
redevelopment at the former Lowry Air Force Base and believe that the 
long-term costs will be reduced through the privatization of the 
cleanup.
    Question. Local communities generally have difficulty assuming the 
financial burden of BRAC properties. If local communities create a 
reuse plan and control zoning, could the Department advertise and sell 
the property to the private sector in accordance with their plan and 
zoning?
    Answer. Yes. This is our preferred approach. Local communities, 
through planning and zoning, definitely affect the kind of development 
that can occur. This approach you describe worked very successfully at 
those locations that used it. It not only minimizes the financial 
burden on the community but it gets property very quickly on the local 
tax rolls.
    Question. Should Federal agencies that claim BRAC property be given 
a finite time period to assume control of the property?
    Answer. Yes. Property transfers to other Federal agencies should 
occur as soon as the property is vacated. Transfer of property from one 
Federal agency to another does not require Environmental Protection 
Agency (EPA) or State Regulators concurrence because ownership is not 
leaving the Federal Government.
                                 ______
                                 

                   Questions Submitted to Wayne Arny

            Questions Submitted by Senator Dianne Feinstein

              property sales staying in navy brac account
    Question. The fiscal year 2004 Navy request for BRAC cleanup is 
$101.9 million, a 62 percent decrease from the fiscal year 2003 enacted 
level. However, the Navy intends to spend $180 million this year in 
BRAC cleanup--the $79 million difference being made up in anticipated 
property sales from previously BRAC'd properties.
    What assurances to you have from the Department of Defense that the 
revenue from property sales will remain in the Navy BRAC accounts?
    Answer. We have received verbal assurances from the senior 
leadership in the Office of the Secretary of Defense that land sale 
revenue from Department of Navy BRAC actions would remain available for 
us to use to expedite our BRAC cleanup actions.
                       brac executions capability
    Question. How much money above the budget request, and the 
additional $79 million in anticipated revenue, could the Navy execute 
in fiscal year 2004 to expedite its BRAC cleanup program?
    Answer. The Navy's fiscal year 2004 budget consists of an 
appropriation request for $101.9 million plus a conservative estimate 
of $68 million from land sales and a $10.7 million adjustment providing 
a total of $180.6 million in spending authority. The Navy has 
substantial contract execution capacity in place and could readily 
obligate as much as about $500 million in fiscal year 2004 for BRAC 
cleanup under normal BRAC outlay rates. Other factors that impact 
expediting BRAC cleanup programs include regulator support for 
additional workload, timing when funds become available, and making 
sure that we get real cleanup and property disposal progress for the 
investment.
                      streamlining early transfer
    Question. Could the BRAC early transfer process be streamlined?
    Answer. The actual time required to implement an early transfer of 
BRAC property can be relatively short. However, our experience to date 
with early transfer is that they only occur when the community is 
sufficiently motivated in taking the property, particularly when it is 
needed to implement a well financed, economically sound redevelopment 
plan. We have also found that the number of issues needing resolution 
grows proportionally with the number of approving entities involved 
(e.g., various State agencies as a precondition to gubernatorial 
approval). We continue to work with State and local officials to ensure 
that they understand the commitment of the Federal Government to clean 
up the property even if it is conveyed under the early transfer 
authority.
                   parallel cleanup and redevelopment
    Question. Is it more cost effective to accomplish environmental 
cleanup in conjunction with the redevelopment of the property?
    Answer. Yes. Integrating environmental cleanup can be cost 
effective in terms of time and money for both the Navy and the 
community. Performing cleanup and redevelopment simultaneously allows 
the Department to dispose of the property sooner via an early transfer. 
Furthermore, costly cleanup expenses can be avoided with the same 
environmental remedy achieved through the normal redevelopment planning 
and construction process. In addition, parallel cleanup and 
redevelopment by the new owner supports the early transfer process by 
allowing the developer a much quicker timeline to project completion 
which fosters motivation to take the property as soon as possible.
    Cleanup performed in conjunction with redevelopment is more 
effective in terms of accelerating cleanup and property disposal 
timelines, as it is usually associated with an early transfer of 
property. A Navy Environmental Services Contract Agreement typically 
provides funding to the receiving entity that will perform the 
redevelopment, and in most cases will also do the cleanup. The 
following table lists recent examples of early transfers that included 
parallel cleanup and substantially accelerated property disposal and 
redevelopment compared to previous plans:

----------------------------------------------------------------------------------------------------------------
                  Site                         Acres                 Date                Disposal Acceleration
----------------------------------------------------------------------------------------------------------------
FISC Oakland............................             529  Jun 1999..................  Disposal 36 months early
                                                                                       <plus-minus>st
NAS Agana...............................           1,799  Sep 2000..................  Disposal 12 months early
NTC San Diego...........................              51  Feb 2001..................  Disposal 4 months early
NSY Mare Island (EETP)..................             668  Mar 2002..................  Disposal 48 months early
NSY Mare Island (WETP)..................           2,900  Sep 2002..................  Disposal 7 to 10 years
                                                                                       early
----------------------------------------------------------------------------------------------------------------

    Cost avoidance can be achieved by integrating the cleanup actions 
with the construction effort. Cost avoidance can result from 
synchronizing the two actions, e.g., coordinating the excavation and 
removal of contaminated soil with the construction of a foundation, or 
installing a parking lot in an area for which the environmental remedy 
would be a landfill cap. In addition, the remedial action for a 
contaminated site can be tailored to the actual reuse, rather than 
setting more restrictive and expensive cleanup standards to meet 
potential reuse needs.
    Combining cleanup and redevelopment as part of an early transfer of 
property accelerates cleanup schedules and property disposal timelines, 
which speeds redevelopment and economic reuse of BRAC property. Early 
transfer also ends Navy: oversight and management of the property; 
investments for caretaker functions; participation in local 
redevelopment disputes; and escalating cleanup costs due to concerns 
over the need to conduct additional studies, or to expand the scope of 
the cleanup. It brings finality to the BRAC decision to close the base 
and dispose of the excess property.
                       brac sale and local zoning
    Question. Local communities generally have difficulty assuming the 
financial burden of BRAC properties. If local communities create a 
reuse plan and control zoning, could the Department advertise and sell 
the property to the private sector in accordance with their plan and 
zoning?
    Answer. Yes, the Department supports a public sale with these terms 
and conditions. First, it signifies the support of the Department for 
the local community's reuse plan. Second, the reuse plan and zoning 
simplifies the property appraisal process, reduces risk for potential 
buyers, and maximizes the value of the property. Third, local zoning 
requirements could be made part of the terms of the sale, even if these 
were overlays that would not become effective until property 
conveyance. This is especially true for base reuse parcels where 
financially feasible redevelopment is ready to happen with redevelopers 
and end users anxious to proceed.
                       federal agency brac needs
    Question. Should Federal agencies that claim BRAC property be given 
a finite time period to assume control of the property?
    Answer. Generally, yes. The BRAC property disposal process requires 
that property be screened for other Federal use. If another Federal 
agency identifies a need for the property, the property is normally 
reserved and the receiving Federal agency has a responsibility to 
accept the property within a reasonable time. In several instances, 
receiving agencies have delayed acceptance of property pending 
completion of environmental remediation even though completion of 
cleanup is not required for property being transferred between Federal 
agencies. In other instances, after prolonged delays, some requesting 
agencies have withdrawn their requests for the properties thus 
requiring the disposing service to initiate disposal actions years 
after these actions would have otherwise been taken. Because these 
issues have surfaced in the past, the Department of the Navy is eager 
to work with the Department of Defense and the Military Departments on 
the Property Reuse and Disposal Working Group, where this issue and 
others will be examined in detail.

                          SUBCOMMITTEE RECESS

    Senator Hutchison. Thank you, Senator Feinstein.
    I want to thank all of you. I think we had a very good 
hearing and learned a lot that we can apply to the next round. 
Thank you.
    [Whereupon, at 12:05 p.m., Tuesday, March 18, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
